<html>
<title> - THE ROLES OF THE ENVIRONMENTAL PROTECTION AGENCY, THE FEDERAL HIGHWAY ADMINISTRATION AND THE ARMY CORPS OF ENGINEERS AS THEY RELATE TO KATRINA AND THE ONGOING RECOVERY</title>
<body><pre>[Senate Hearing 109-978]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-978
 
 THE ROLES OF THE ENVIRONMENTAL PROTECTION AGENCY, THE FEDERAL HIGHWAY 
   ADMINISTRATION AND THE ARMY CORPS OF ENGINEERS AS THEY RELATE TO 
                    KATRINA AND THE ONGOING RECOVERY 
=======================================================================
                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

37-443 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 6, 2005
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     9
Boxer, Hon. Barbara, U.S. Senator from the State of California...     7
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    45
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode 
  Island, prepared statement.....................................    17
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    12
Obama, Hon. Barack, U.S. Senator from the State of Illinois, 
  prepared statement.............................................    46
Thune, Hon. John, U.S. Senator from the State of South Dakota....    18
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    13
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    16

                               WITNESSES

Capka, J. Richard, Acting Administrator, Federal Highway 
  Administration, U.S. Department of Transportation..............    25
    Prepared statement...........................................    75
    Responses to additional questions from:
        Senator Jeffords.........................................    80
        Senator Lautenberg.......................................    81
        Senator Obama............................................    79
        Senator Thune............................................    78
Peacock, Hon. Marcus, Deputy Administrator, U.S. Environmental 
  Protection Agency..............................................    20
    Prepared statement...........................................    47
    Responses to additional questions from:
        Senator Jeffords.........................................    54
        Senator Lautenberg.......................................    59
        Senator Obama............................................    53
        Senator Thune............................................    51
        Senator Voinovich........................................    52
Strock, Lieutenant General Carl, Chief of Engineers, Commander, 
  U.S. Army Corps of Engineers...................................    23
    Prepared statement...........................................    66
    Responses to additional questions from:
        Senator Inhofe...........................................    74
        Senator Jeffords.........................................    70
        Senator Lautenberg.......................................    73
        Senator Obama............................................    69
        Senator Thune............................................    68
        Senator Voinovich........................................    68
Woodley, Jr., Hon. Paul, Assistant Secretary of the Army for 
  Civil Works....................................................    22
    Prepared statement...........................................    60
    Responses to additional questions from:
        Senator Inhofe...........................................    65
        Senator Jeffords.........................................    64
        Senator Obama............................................    63
        Senator Thune............................................    62
        Senator Voinovich........................................    62

                          ADDITIONAL MATERIAL

Hurricane Katrina Response:
    Environmental Protection Agency..............................94-145
    Homeland Security............................................ 83-93


 THE ROLES OF THE ENVIRONMENTAL PROTECTION AGENCY, THE FEDERAL HIGHWAY 
   ADMINISTRATION AND THE ARMY CORPS OF ENGINEERS AS THEY RELATE TO 
                    KATRINA AND THE ONGOING RECOVERY

                              ----------                              


                       THURSDAY, OCTOBER 6, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Warner, Bond, Voinovich, Chafee, 
Murkowski, Thune, DeMint, Isakson, Vitter, Jeffords, Boxer, 
Carper, Lautenberg, Obama.
    Senator Inhofe. Our meeting will come to order. I know 
Senator Jeffords will be walking in momentarily.
    What we are going to do, right now we have five members, as 
soon as we have 10 members as a quorum, we will recess this 
hearing and go into a business meeting for the purpose of 
confirming five nominees. I think all of our members have the 
names of these nominees.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    We welcome our witnesses to this hearing. The EPW Committee 
has been very busy and very active since Katrina. We have held 
over 10 briefings, we have had closed hearings. We have had 
them with the Corps of Engineers, Highway, EPA and others. This 
committee just happens to have more jurisdiction over those 
entities that are keeping busy down in the New Orleans, 
Mississippi, Alabama area than any other committee of course.
    What we are going to talk about today is the EPA, the Corps 
and the Federal Highway Administration are all playing key 
roles in the cleanup, recovery and rebuilding effort in the 
Gulf States. The Corps continues to de-water the city of New 
Orleans, pumping the water into Lake Pontchartrain. I was 
pleased to learn that the level of contamination in 
Pontchartrain may not be as bad as we once feared it was, when 
we were down there.
    The Corps is also in charge of debris removal. Senator 
Vitter and I have written to both the Corps and the EPA, asking 
that they ensure this waste is managed properly and that 
existing permitted landfill capacity is utilized before even 
considering opening up old, less desirable landfills.
    I know the States are very involved in this issue, but as 
long as we are spending Federal dollars, we should be certain 
that the money is spent both wisely and in a manner that does 
not create future problems. In fact, I intend to watch very 
closely all dollars spent on Katrina to make sure that they are 
spent wisely in the cleanup, recovery and reconstruction. We 
simply can't afford to waste money or spend money on projects 
with little or no oversight.
    We also are here to discuss the future of the vital 
infrastructure in the Gulf States. Katrina did unprecedented 
damage to highways and highway bridges in the Gulf States. I 
look forward to hearing from the Federal Highway Administration 
about what they are doing to respond to this disaster. The most 
recent estimate I have heard about the cost of repairs to 
highways and highway bridges damaged by Katrina has been 
lowered from $2.4 billion to $1.6 billion. That is good news. I 
understand that these are initial estimates, but I am 
interested in when these estimates will be more stable.
    There was also substantial damage done in the Gulf States 
through water and the treatment work systems. While EPA is 
still assessing how bad the damage is, we look forward to 
working with them to ensure drinking water supplies.
    Without doubt, the largest infrastructure project is going 
to be the flood control system in New Orleans. The levee system 
in place did not work. We still don't know if it failed or was 
breached. But it did not protect the city.
    We need to understand why it didn't work and what we can do 
to avoid the problems and delays that were faced in the past. 
We all know that in 1977, lawsuits by environmental groups not 
only delayed the flood control solution for New Orleans, but 
forced the Corps to abandon its preferred solution. Those facts 
are simply not in dispute.
    Many experts who were involved the process nearly 30 years 
ago are convinced that the project the Corps abandoned because 
of the environmental lawsuits in all likelihood would have 
saved New Orleans. Let me quote from three former well 
respected career Corps employees who were there 30 years ago, 
back at the time that they were enjoined by this lawsuit.
    Rob Vining, a former chief of the Civil Works Program 
Management Division, Army Corps of Engineers said, ``There is 
no question that environmental activists, through their 
aggressively pursued litigation, forced the Corps and local 
sponsors to compromise the level of protection that otherwise 
would have been available to the residents of New Orleans.''
    Joseph Towers, former chief counsel for the Army Corps of 
Engineers, said, ``If we had built the barriers, New Orleans 
would not have flooded. I told my staff at the time that this 
judge had condemned the city. Some people said I was being a 
little dramatic.''
    Fred Caver, former deputy director of Civil Works, Army 
Corps of Engineers said, ``The essential outcome of the 1977 
lawsuit was that it caused the Army Corps to revert away from 
the hurricane protection barriers to a secondary plan that the 
Corps knew was inferior to the protection of New Orleans. The 
levees that broke during Hurricane Katrina were in place 
because the Corps was prevented from building the hurricane 
protection barriers as a result of the lawsuit and the Corps 
had to revert to a secondary, inferior plan.''
    Those outside the Corps came to the same conclusions. Greg 
Stone, who is professor and director of the Coastal Studies for 
LSU said, ``The abandoned plan would have likely reduced storm 
surge from coming from the Gulf to Lake Pontchartrain. These 
floodgates would have alleviated the flooding of New Orleans 
caused by Hurricane Katrina.''
    We can sit here and talk about what should have happened 
and what didn't happen. This was projected. We knew that there 
were consequences out there. There are consequences every time 
someone is enjoined from doing something that logic demands 
that they do. In this case, we knew.
    At that time, in 1977, Senator Vitter, as you well know, we 
didn't use the category system to measure hurricanes. We know 
how in retrospect that what they were planning to do in 1977 
would have at least taken care of the disaster that took place 
a month ago. So there are consequences to these things, and 
things we have to be aware of.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Good morning and welcome to this committee's oversight hearing on 
activities in response to Hurricane Katrina. The EPW Committee has been 
actively engaged since the hurricane struck land over 1 month ago. 
Since Katrina hit, we have held nearly 10 briefings for members and 
staff, including 2 closed door briefings. In fact, this is the third 
time in the past month that both EPA and the Corps have come before us 
for either a briefing or hearing on Katrina it is the second time for 
the Federal Highway Administration. I want to thank all of you for your 
cooperation with this committee.
    We have much to talk about today as the EPA, the Corps and Federal 
Highway Administration are all playing key roles in the cleanup, 
recovery and rebuilding effort in the Gulf States. The Corps continues 
to dewater the city of New Orleans, pumping the water into Lake 
Ponchartrain. I was pleased to learn that the level of contamination in 
Ponchartrain may not be as bad as was once feared. The Corps is also in 
charge of debris removal. Senator Vitter and I have written to both the 
Corps and EPA asking that they ensure this waste is managed properly 
and that existing permitted landfill capacity is utilized before we 
even consider opening up old, less desirable landfills. I know the 
State is very involved in this issue, but as long as we are spending 
Federal dollars, we should be certain that the money is spent both 
wisely and in a manner that does not create future problems. In fact, I 
intend to watch very closely ALL dollars spent on Katrina to make sure 
they are spent wisely--in the cleanup, recovery and reconstruction. We 
simply can't afford to waste money or to spend money on projects with 
little or no oversight.
    We also are here to discuss the future of the vital infrastructure 
in the Gulf States. Katrina did unprecedented damage to highways and 
highway bridges in the Gulf States. I look forward to hearing from the 
Federal Highway Administration about what they are doing to respond to 
this disaster. The most recent estimate I've heard about the cost of 
repairs to highways and highway bridges damaged by Katrina has been 
lowered from $2.4 billion to $1.6 billion. This is good news. I 
understand these are initial estimates, but I'm interested in when 
these estimates will be more stable. There was also substantial damage 
done to Gulf States' water treatment and works systems. While EPA is 
still assessing how bad the damage is, we look forward to working with 
them to ensure drinking water supplies.
    Without doubt the largest infrastructure project is going to be the 
flood control system in New Orleans. The levee system in place did not 
work--we still don't know if it failed or was breached--but it did not 
protect the city. We need to understand why it didn't work and what we 
can do to avoid the problems and delays that were faced in the past. We 
all know that in 1977, lawsuits by environmental groups not only 
delayed the flood control solution for New Orleans, but forced the 
Corps to abandon its preferred solution. Those facts are simply not in 
dispute. Many experts who were involved in that process nearly 30 years 
ago are convinced that the project the Corps abandoned because of the 
environmentalist lawsuit, in all likelihood, would have saved New 
Orleans. Let me quote three former, well respected, career Corps 
employees who were there 30 years ago:
     Rob Vining, Former Chief of Civil Works Program Management 
Division, Army Corps of Engineers: ``There is no question that 
environmental activists, through their aggressively pursued litigation, 
forced the Corps and the local sponsors to compromise the level of 
protection that otherwise would have been available to residents of New 
Orleans.''
    Joseph Towers, Former Chief Counsel of the Army Corps of Engineers: 
``If we had built the barriers, New Orleans would not have flooded. I 
told my staff at the time that this judge had condemned the city. Some 
people said I was being a little dramatic.''
    Fred Caver, Former Deputy Director of Civil Works, Army Corps of 
Engineers: ``The essential outcome of the 1977 lawsuit was that it 
caused the Army Corps to revert away from the Hurricane Protection 
Barriers to a secondary plan . . . that the Corps knew was inferior for 
the protection of New Orleans. The levees that broke during Hurricane 
Katrina were in place because the Corps was prevented from building the 
Hurricane Protection Barrier as a result of the lawsuit, and the Corps 
had to revert to the secondary, inferior plan . . . .''
    Those outside the Corps came to similar conclusions:
    Gregory Stone, Professor and Director of the Coastal Studies 
Institute of Louisiana State University:
    The abandoned plan ``would have likely reduced storm surge coming 
from the Gulf and into Lake Ponchartrain. These floodgates would have 
alleviated the flooding of New Orleans caused by Hurricane Katrina.''
    While there is nothing we can do about the past, we can learn from 
our mistakes. We need to make sure that these extremist environmental 
groups do not delay or prevent the most effective flood protection 
system from being built. It is my intention to work with Senator Vitter 
and members of this committee and with the Corps to authorize a flood 
control system that will protect the city of New Orleans.
    Let me again thank you all for coming today and I look forward to 
your testimony.

    Senator Inhofe. Do we have our 10 people yet?
    All right, I announced to Senator Jeffords before you came 
in that as soon as we get 10 people here we will go ahead and 
recess this and go in for a confirmation at that time.
    Senator Jeffords is recognized.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning, Mr. Chairman. I want to 
thank you for holding today's hearing.
    Hurricanes Katrina and Rita have had a devastating impact 
on the Gulf Coast of this Nation. It is critical that we do 
everything that we can to improve the lives of our fellow 
Americans whose lives have been uprooted.
    Hurricane Katrina hit Florida as a category 1 hurricane, 
moved across the Gulf of Mexico and hit the Gulf Coast of the 
Nation as a strong category 4 hurricane. It passed within 10 to 
15 miles of New Orleans, the winds, rains and storm surge 
caused a levee breach that flooded 80 percent of the city. Over 
1,000 people lost their lives and thousands more lost their 
homes. There are 90,000 square miles of declared disaster area. 
Some people have characterized the environmental damage in New 
Orleans as catastrophic.
    The agencies within this committee's jurisdiction have a 
major role in both the response and the recovery operations of 
Hurricane Katrina. Today is the first in a series of hearings 
on Hurricane Katrina where we will review the roles of agencies 
in our jurisdiction and hear from State and local governments 
and others on the response to and recovery from Hurricane 
Katrina.
    Mr. Chairman, before we begin to evaluate the disaster 
response we witnessed after Hurricane Katrina, and determine 
what needs to be changed, I think it is worthwhile to remember 
where we have been. Over the past 200 years, we have moved from 
an ad hoc approach to disaster response to a coordinated, 
orderly approach under the Stafford Act. On September 11, the 
Nation was struck by a terrorist attack. The effectiveness of 
the Stafford Act and FEMA helped reduce the impact of those 
events.
    After September 11, the Department of Homeland Security was 
formed in what I believe was an act of extremely poor judgment 
that failed to take into account the unique mission of FEMA in 
responding to natural disasters. FEMA was moved into that 
department.
    In 2002, I opposed the formation of the Department of 
Homeland Security in large part because of FEMA's inclusion. At 
that time, ``I do not understand why we would jeopardize the 
Federal Government's effective response to natural disasters by 
dissolving FEMA into this monolithic Homeland Security 
Department. I fear that FEMA will no longer be able to 
adequately respond to hurricanes, fires, floods, earthquakes. 
The question is, who will?''
    With Katrina, I believe that we sadly learned the answer to 
that question: No one. Unfortunately, we learned the hard way 
that we cannot, we must not neglect our natural disaster 
response capability. As Congress determines what the next steps 
are, we must ask ourselves, are we witnessing a performance 
failure by the Federal agencies to execute their authorities, 
or are we missing needed authority? I believe we have witnessed 
a performance failure, not a problem with existing authorities.
    In the wake of this performance failure, Congress is 
stepping in. There have been about 50 Katrina-related bills 
introduced. Some of them duplicate the authority that exists in 
the Stafford Act or elsewhere. Some of them go so far as to 
delegate the authority to the President to waive any Federal 
statute.
    So far, we have spent about $70 billion provided for 
hurricane relief. I am concerned that we are returning to the 
ad hoc response to a disaster the Stafford Act was designed to 
prevent.
    We need to return some order to our disaster response 
capability. Several weeks ago, I joined my colleague, Senator 
Clinton, as a sponsor of two bills which she introduced. The 
first establishes an independent commission to evaluate what 
happened after Hurricane Katrina and what steps needed to be 
taken. The second removes FEMA from the Department of Homeland 
Security and reestablishes it as a stand alone agency. These 
are two critical steps for long term.
    In the short term, we need to be sure that Katrina recovery 
proceeds in a sensible manner, given what has occurred to date. 
Today I will be joining my colleagues on the minority side of 
the EPW Committee in introducing legislation to respond to 
Hurricane Katrina. It is imperative that there is a process in 
place for rebuilding Katrina-impacted areas. Our bill focuses 
on the items in our jurisdiction, mainly, infrastructure 
redevelopment.
    Our legislation will provide direction to those agencies in 
our jurisdiction to ensure that Katrina recovery happens 
quickly, uses Federal funds wisely, and protects public health 
and the environment. I hope that we will move quickly to pass 
this legislation in this committee.
    My questions in today's hearing will focus on two main 
themes. First, in the apparent chaos of the response to 
Hurricane Katrina, what have your agencies accomplished, what 
do you need to accomplish your missions? What are your plans 
for future recovery of the area, and do those plans make sense 
for the people of the Gulf Coast and the Nation?
    Second, as we evaluate the Federal response mechanism, what 
lessons have you learned from Katrina, and what do you need for 
your agencies to be more effective in the future?
    I look forward to hearing from each of you today, and I 
look forward to our second hearing in a few weeks, where we 
will hear from parties outside the Federal Government on these 
same issues. Thank you, Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]
      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Hurricanes Katrina and Rita have had a devastating impact on the 
Gulf Coast of this Nation. It is critical that we do everything that we 
can to improve the lives of our fellow Americans whose lives have been 
uprooted.
    Hurricane Katrina hit Florida as a Category One hurricane, moved 
across the Gulf of Mexico, and hit the Gulf Coast of the Nation as a 
strong Category Four hurricane. It passed within 10 to 15 miles of New 
Orleans. The winds, rain, and storm surge caused a levee breach that 
flooded 80 percent of the city. Over 1,000 people lost their lives and 
thousands more lost their homes. There are 90,000 square miles of 
declared disaster areas. Some people have characterized the 
environmental damage in New Orleans as catastrophic.
    The agencies within this Committee's jurisdiction have a major role 
in both the response and the recovery operations for Hurricane Katrina. 
Today is the first in a series of hearings on Hurricane Katrina where 
we will review the roles of agencies in our jurisdiction and hear from 
State and local governments and others on the response to and recovery 
from Hurricane Katrina.
    Mr. Chairman, before we begin to evaluate the disaster response we 
witnessed after Hurricane Katrina and determine what needs to be 
changed, I think it is worthwhile to remember where we have been. Over 
the last 200 years, we have moved from an ad hoc approach to disaster 
response to a coordinated, orderly approach under the Stafford Act. On 
September 11th, the Nation was struck by a terrorist attack. The 
effectiveness of the Stafford Act and FEMA helped reduce the impact of 
those events.
    After September 11th, the Department of Homeland Security was 
formed. In what I believe is an example of extremely poor judgment that 
failed to take into account the unique mission of FEMA in responding to 
natural disasters, FEMA was moved into the Department.
    In 2002, I opposed the formation of the Department of Homeland 
Security, in large part because of FEMA's inclusion. At the time, I 
said: ``I cannot understand why we would jeopardize the Federal 
Government's effective response to natural disasters by dissolving FEMA 
into this monolithic Homeland Security Department. I fear that FEMA 
will no longer be able to adequately respond to hurricanes, fires, 
floods, and earthquakes, begging the question, who will? '' With 
Katrina, I believe that we sadly learned the answer to that question: 
No one.
    Unfortunately, we learned the hard way that we cannot, we must not, 
neglect our natural disaster response capability. As Congress 
determines what the next steps are, we must ask ourselves: Are we 
witnessing a performance failure by the Federal agencies to execute 
their authorities, or are we missing needed authority? I believe we 
have witnessed a performance failure, not a problem with existing 
authorities. In the wake of this performance failure, Congress is 
stepping in.
    There have been about 50 Katrina-related bills introduced. Some of 
them duplicate authority that exists in the Stafford Act or elsewhere. 
Some of them even go so far as to delegate the authority to the 
President to waive any Federal statute. So far, we have spent about $70 
billion provided for hurricane relief. I am concerned that we are 
returning to the ``ad hoc'' response to disaster that the Stafford Act 
was designed to prevent. We need to return some order to our disaster 
response capabilities.
    Several weeks ago, I joined my colleague, Senator Clinton, as a 
sponsor of two bills she introduced. The first establishes an 
independent commission to evaluate what happened after Hurricane 
Katrina and what steps need to be taken. The second removes FEMA from 
the Department of Homeland Security and re-establishes it as a stand-
alone agency. These are two critical steps for the long-term.
    In the short term, we need to be sure that Katrina recovery 
proceeds in a sensible manner, given what has occurred to date. Today, 
I will be joining my colleagues on the minority side of the EPW 
Committee in introducing legislation to respond to Hurricane Katrina. 
It is imperative that there is a process in place for rebuilding 
Katrina-impacted areas. Our bill focuses on the items in our 
jurisdiction mainly, infrastructure redevelopment. Our legislation will 
provide direction to those agencies in our jurisdiction to ensure that 
Katrina recovery happens quickly, uses Federal funds wisely, and 
protects public health and the environment. I hope that we will move 
quickly to pass this legislation in this Committee.
    My questions in today's hearing will focus on two main themes: 
First, in the apparent chaos of the response to Hurricane Katrina, what 
have your agencies accomplished, what do you need to accomplish your 
missions? What are your plans for the future recovery of the area, and 
do those plans make sense for the people of the Gulf Coast and the 
nation? Second, as we evaluate the Federal response mechanism, what 
lessons have you learned from Katrina, and what do you need for your 
Agencies to be more effective in the future?
    I look forward to hearing from each of you today, and I also look 
forward to our second hearing in a few weeks where we will hear from 
parties outside the Federal Government on these same issues.

    Senator Inhofe. Thank you, Senator Jeffords.
    We will now recess this hearing and convene a business 
meeting for the purpose of reporting out five nominees. We have 
11 here.
    [Recess.]
    Senator Inhofe. We are back into our meeting. All right, 
early bird rule. I would like to ask, to try to stay within our 
5-minute limit on opening statements. Senator Boxer. I'm sorry, 
Senator Isakson.
    Senator Isakson. In the interest of getting to the hearing, 
because I am going to have to leave. I would like to waive mine 
and submit it for the record.
    Senator Inhofe. All right, that would be fine.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thanks, Mr. Chairman. I just have to respond 
to your comments about how the environmentalists essentially 
were to blame for the flooding. I would like to put into the 
record a GAO study that was just completed September 2005. Here 
is the comment from the GAO. They don't have any axe to grind.
    ``None of the changes made to the project are believed to 
have had any role in the levee breaches recently experienced as 
the alternative design selected was expected to provide the 
same level of protection. In fact, Corps officials believe that 
flooding would have been worse if the original proposed design 
had been built.''
    Mr. Chairman, this is the GAO. I think it is really sad 
that we attack a group of people who essentially didn't support 
a project which wouldn't have done one bit of good and the 
community opposed. So I put that in the record, with your 
permission.
    Mr. Chairman, our committee must help assure that the Gulf 
region is rebuilt in a safe and healthy manner. To find the 
right solutions, we have to have all the information we need to 
understand the scope of the problem. The EPA and the Louisiana 
Department of Environmental Quality have provided a first look 
at the unimaginable environmental devastation that must be 
remedied in the area.
    Louisiana's Department of Environmental Quality estimates 
that as much as 70 million tons of hazardous waste must be 
disposed of as a result of the hurricane. EPA now says that 24 
Superfund sites are located in the affected region, and at 
least one in New Orleans, the Agriculture Street landfill, was 
completely underwater. Katrina flooded New Orleans with up to 
25 feet of water, creating a toxic soup filled with 
contamination.
    Two weeks ago, Mr. Chairman, the Centers for Disease 
Control (CDC), reported that six people have died, from 
contamination-related infections. As this polluted soup 
recedes, it leaves a thick layer of muck. Louisiana officials 
estimate they are dealing with an area of roughly 20 miles by 
10 miles coated in a 1-foot-thick layer of sediment or sludge. 
As this sludge dries, each moving vehicle and each gust of wind 
can create a potentially toxic cloud that people returning to 
New Orleans as well as first responders will breathe into their 
lungs.
    Some are returning with their children, and we must make it 
safe for them. We must act decisively to safeguard our fellow 
citizens. I believe we should craft a health and safety 
Marshall plan as we reconstruct this ravaged area. We must arm 
people with information, accurate information, not information 
based on any of our ideologies or thoughts or guesses, but 
scientific information, I know you are very strong on that 
point, Mr. Chairman, so that they know if it's safe to bring 
their children home.
    Now, I am concerned, and I am going to ask EPA about this, 
because my understanding is EPA may not be providing people 
with the clear information they need to safely participate in 
the recovery process. EPA characterizes air quality on its web 
site by saying, ``the screening results indicated that chemical 
concentrations in most areas are below ATSDR health standards 
of concern.'' However, EPA is frequently referring to acute 
health standards. Acute means that exposure is safe over the 
course of 1 day. The acute standard for benzene, a cancer-
causing chemical, is 50 parts per billion.
    However, Katrina hit this area more than 5 weeks ago. First 
responders have been down there for longer than 1 day. People 
who return to New Orleans will stay longer than 1 day. I 
believe EPA should use a longer term standard to assess the 
safety of exposures. For benzene, a 2-week safety exposure 
standard is 4 parts per billion, not 50.
    Fifteen air samples taken in New Orleans showed levels of 
benzene that exceeded the 4 parts per billion safety standard. 
EPA should be clear about the actual risks that may be faced 
when people return to the affected areas for more than 1 day. 
EPA should continue to use our Nation's environmental laws to 
protect people. That's what they're designed for. We must not 
take away the safeguards the people in New Orleans need. If we 
do that, we are victimizing them twice.
    Now, I'm very happy to see Lieutenant General Carl Strock 
here. He and I had a great conversation about the need and the 
value of healthy wetlands for protecting life and property from 
storms and flooding. Wetlands are buffers against storm surges 
and soak excess water from the storms. Healthy wetlands result 
in hurricanes reaching land sooner and thus cutting the 
hurricane off from the warm waters of the ocean's surface that 
feed the storm's strength.
    We don't need to debate global warming, whether we believe 
in it or not. We know the warm temperatures of the water, 
whatever the cause, caused that hurricane to gain tremendous 
strength and ferocity. So I hope our committee will further 
explore this issue and the ways we can protect and conserve our 
Nation's wetlands.
    In closing, Mr. Chairman, I would put into the record, with 
your permission, a quote from Dr. Beverly Wright, Director of 
the Deep South Center on Environmental Justice at Dillard 
University, a university that happens to be underwater at this 
time in the wake of Katrina. She said, ``the public has a right 
to clean air and clean water, and those must be protected.''
    So Mr. Chairman, we have a lot of work to do. We talked 
early on about blame game and this and that. I think it's 
better if we just work together to make sure that the people 
are safe when they come back and we do everything we can to 
rebuild this area. Thank you.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Warner.
    Senator Warner. Mr. Chairman, I have to depart to open up 
the Armed Services Committee hearing. May I ask unanimous 
consent to insert into today's record questions to be responded 
to by the witnesses?
    Senator Inhofe. Yes, certainly, and if there is any 
statement you would like to make?
    Senator Warner. No, thank you. This is a very important 
hearing.
    Senator Inhofe. Without objection, that will be the case.
    Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, for 
holding this hearing. We welcome the witnesses.
    We have heard a lot after Hurricanes Katrina and Rita about 
what needs to be done. Little has been said about how the 
Federal Government is going to pay for these efforts. As 
chairman of the Subcommittee on Transportation and 
Infrastructure, I worked with my colleagues for 2 years and 7 
months to get SAFETEA passed.
    Now, some seem to be suggesting in time of broken roads and 
high fuel prices that the Government hijacked the fuel taxes 
our citizens pay at the pump to fix their roads to spend it on 
other Government programs. I have worked too long and too hard 
as members of this committee have to put the trust back into 
the Highway Trust Fund to support this.
    SAFETEA provides $100 million in emergency relief funding 
aid out of the Highway Trust Fund. All excess funds are to come 
out of the general fund. Sine we could all estimate that 
transportation costs from hurricanes will substantially exceed 
$100 million, I trust that the Administration will not choose 
to raid the Highway Trust fund as a primary source of revenue 
for the emergency spending. I am supportive of waiving the cap 
on emergency relief funding, but I oppose raiding the Highway 
Trust Fund, paid by user fees, to keep people from being killed 
on the highways, to offset these costs.
    We look forward to the testimony of the Acting 
Administrator of FHWA and working with the Administration to 
rebuild and reconstruct the infrastructure network.
    I also look forward to the testimony of Mr. Woodley and 
General Strock. If we had debated flood protection for New 
Orleans before Katrina, I am sure when we reached the floor it 
would have been decried as pork barrel boondoggles that needed 
to be studied and reviewed and reviewed and studied and sued by 
EPA and Interior for years and decades, which would then be 
litigated by environmental groups, as the Chairman has 
indicated.
    With respect to the comments on the GAO study, this is a 
paper study, not done with any of the officials, the experts in 
the region. The Chairman has already quoted some comments from 
the former deputy directors and the chief of civil works of the 
Corps of Engineers, as well as a professor at the Louisiana 
State University who said that the plan abandoned as a result 
of the lawsuit would have likely reduced storm surge coming 
from the Gulf and into Lake Pontchartrain.
    After Katrina, we know that adequate flood control would 
have been a bargain, saving lives and money. I hope we learned 
a lesson, that Congress should lead the effort to prevent 
crises rather than rushing to respond to crises. We must follow 
the regular order in authorizing work that needs to be done. We 
must hear from the experts and not dump a bunch of money 
without knowing where it's going.
    The WRDA bill that we passed out of this committee can and 
will be amended to take into account the considered opinions of 
our experts on this rebuilding in the Gulf region. I will 
insist that we follow the regular order before putting money 
into this tremendous tragedy.
    Finally, I commend the work of the Corps of Engineers in 
their highly heroic involvement in the global war on terror. 
Right now, there are over 500 civilian and military personnel 
serving in Iraq and 120 in Afghanistan, while others are 
holding the fort short-handed here at home. It's a critical 
mission and obviously dangerous, but it must be satisfying to 
the Corps to know that they are over there, rather than simply 
studying and wrestling with red tape, as we often require here, 
that we're getting things done.
    In the Middle East, they build bases, hospitals, training 
facilities, barracks, powerplants, water and wastewater 
treatment. More than 2,700 projects are underway in Iraq. Faced 
with a highly neglected power system under Saddam, which 
allocated power to cronies, the Corps has helped add to the 
grid enough capacity to serve more than 5 million additional 
Iraqi homes. Some of the Corps' work is in the majority of 
provinces where there is little violence. They are also 
operating in very dangerous areas and for that, we express our 
thanks.
    When one wonders why America is the world's economic, 
military and democratic leader, fundamentally that question is 
answered regularly by the enduring quality known as the 
American spirit, as witnessed both by our private citizens and 
these fine public servants. General Strock, I congratulate you 
and the members of the Corps, and we thank you for your good 
work.
    [The prepared statement of Senator Bond follows:]
     Statement of Hon. Christopher S. Bond, U.S. Senator from the 
                           State of Missouri
    Welcome to this morning's hearings to receive testimony on the 
actions of EPA, the Army Corps of Engineers and the FHWA as they relate 
to Katrina. I would like to thank the witnesses for their testimony 
today.
    Following hurricanes Katrina and Rita, much has been said about 
what needs to be done with regard to relief efforts, but little has 
been said about how the Federal Government is going to pay for these 
efforts. As the Subcommittee Chairman of Transportation and 
Infrastructure, I had the pleasure of working for over 2 years on the 
newly signed law SAFETEA-LU. Some seem to be suggesting, in a time of 
broken roads and high fuel prices, that the government hijacked the 
fuel taxes our citizens pay at the pump to fix their roads so they can 
spend it on other government programs. I have worked too long to keep 
the ``trust'' in the trust fund to support this.
    SAFETEA-LU provides for $100 million in emergency relief funding 
per State out of the Highway Trust Fund, and all excess funds are to 
come out of the General Fund. Since we can all estimate that the 
transportation costs from the hurricanes will substantially exceed $100 
million, I am hopeful that the Administration will not choose to raid 
the Highway Trust Fund as the primary source of revenue for the 
emergency spending in the Gulf Region. While I am supportive of waiving 
the cap on emergency relief funding, I am very opposed to the raiding 
the Trust Fund to offset costs.
    I look forward to the testimony of the Acting Administrator of the 
Federal Highway Administrator Richard Capka, and working with the 
Administration to rebuild and reconstruct the infrastructure networks 
of the Gulf Coast.
    I also look forward to the testimony of Mr. Woodley and General 
Strock. If we had debated adequate flood protection for New Orleans 
before Katrina, it would have been decried as a pork-barreled 
boondoggle that needed to be studied and reviewed by EPA and Interior 
for years and decades, which it would then be litigated. After Katrina, 
we know that adequate flood control would have been a bargain saving 
lives and money. I hope the lesson we learn is that Congress should 
lead the effort to prevent crisis rather than rushing to respond to 
crisis. That's why we must follow regular order and pass a robust WRDA 
that takes care of reasonable needs in the Gulf Coast Region.
     Finally, I note the valuable missions the Corps of Engineers 
perform for this Nation, another mission of the Corps I like to touch 
upon is the Corps' highly and heroically involvement with the Global 
War on Terror.
    Over 500 civilian and military personnel from the Corps are 
currently serving in Iraq and 120 in Afghanistan while others are 
holding up the fort short-handed here at home. While it is a critical 
mission and obviously dangerous, it must be satisfying that the Corps 
can spend more time building infrastructure over there than simply 
studying and wrestling with red tape compliance as we often require 
here. In the Middle East, they are building bases, hospitals, training 
facilities, barracks, powerplants, water, and wastewater treatment 
plants. Currently, more than 2,700 projects are underway in Iraq. Faced 
with a highly neglected power system under Saddam which allocated power 
to his cronies, the Corps has helped add to the grid enough capacity to 
service more than 5 million additional Iraqi homes.
    Again, while the Corps is operating in the majority of provinces 
where there is very little violence, they are also operating in 
dangerous locations.
    When one wonders why America is the world's economic, military, and 
democratic leader, fundamentally, that question is answered regularly 
by this enduring quality known as the American spirit as witnessed by 
both our private citizens and these fine public servants.
    I thank you and congratulate you.

    Senator Inhofe. Thank you, Senator Bond.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman. 
Thanks again for calling this hearing and giving us an 
opportunity to talk about Katrina recovery efforts by the EPA, 
the Corps and Federal Highway Administration.
    The first head of EPA in this Administration was a former 
Governor from my State of New Jersey. She tried to do some good 
things to protect the environment, which is supposed to be the 
mission of the Environmental Protection Agency. She was 
undermined and undercut by the Administration. I believe that 
she finally realized that protecting the environment was not a 
high priority and that she became the first cabinet officer to 
resign from the present Administration. I hope that we are not 
seeing history repeat itself.
    Two weeks ago on September 22, in a closed-door briefing 
for this committee, Administrator Steve Johnson was asked 
whether EPA needed any additional legal authority to perform 
its cleanup role in the Gulf States. He said that EPA already 
had sufficient legal authority and no new powers were needed.
    The very next day, EPA reversed its position and announced 
support for a sweeping proposal that would allow it to waive 
virtually any environmental law anywhere in the country. Almost 
since that moment that this storm struck the Gulf Coast, some 
have been planning to use the tragedy as an excuse to dismantle 
decades of environmental protection. In fact, waiving 
environmental protection was on a list of a Republican post-
Katrina agenda as reported in the Wall Street Journal September 
15. It was a week before Administrator Johnson briefed this 
committee.
    So I want to be clear. Everybody supports the goal of 
expediting the emergency needs of Katrina's victims. They need 
the basic elements: food, clothing, shelter, and they need it 
without delay.
    It is also critical that EPA fulfills its mission to 
protect the environment, not add insult to injury, not ask 
people to go back and have their families drinking polluted 
water, raising the possibility that air quality is going to be 
substantially deteriorated. Gutting environmental standards 
won't help the victims of Katrina or any other American family.
    The people of New Orleans want to return home and get on 
with their lives. They don't want to do it without it being 
safe. So as Administrator Johnson told us, we can balance the 
needs in the Gulf with the environmental protection currently 
on the books.
    Mr. Chairman, this is a good moment, and a very 
distinguished panel of witnesses. I look forward to hearing 
from them and an opportunity to ask them some questions. Thank 
you.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, for this hearing. 
Thank you, Ranking Member Jeffords, and I would like to thank 
the witnesses as well.
    Certainly the Army Corps of Engineers, the Federal Highway 
Administration and EPA are playing a critical role in response 
and cleanup efforts as we begin to rebuild the greater New 
Orleans area. I want to thank them for this work.
    Mr. Chairman, first I want to stress that this hearing and 
these issues are extremely important as national issues and 
priorities. Because Hurricane Katrina is an unprecedented 
disaster. As such, it is not some parochial Louisiana or 
Mississippi issue, but it is a national issue which involves 
national concerns and national priorities. Never before has a 
major, modern American metropolitan area been fully evacuated 
and a whole region of the country effectively economically shut 
down.
    I think that is important to understand, particularly as we 
under the impact this has on our national economy. I think 
folks are beginning to understand that. Anyone who fills up 
their gas tank, pays their utility bill, purchases products or 
services with an energy surcharge, purchases food products, 
will feel the impact of this disaster.
    So it's important that we rebuild this area even better 
than it was before, more secure than it was before, not just 
for Louisiana reasons or Mississippi reasons, which of course I 
care about, but for national reasons and because of national 
priorities.
    Again, what am I talking about? Energy, 20 percent of our 
Nation's energy needs come from or through Louisiana. A storm 
like this, which can happen again unless the area is better 
protected, will cause this significant disruption to our energy 
supply again in the future.
    What about trade and commerce? Up to 70 percent of the 
crops from our midwestern farmers are dependent on south 
Louisiana ports to get those to market. So that is a very 
important national priority, which again we need to focus on.
    Finally, seafood. Our area is the second largest producer 
of domestic seafood. Between the two recent hurricanes, it has 
been estimated that up to one-third of our domestic fishing 
fleet is damaged or destroyed.
    So there are plenty of national reasons we need to have 
this focus that you have been a leader on. Certainly as I said, 
these three agencies before us have played a critical role in 
the weeks since Katrina and are continuing to play a critical 
role.
    First, the Army Corps of Engineers, clearly the lead Agency 
in terms of our hurricane and flood protection. We need to move 
forward, rebuild our area, but rebuild it in a way to make sure 
we are safe and the country and the national economy are safe 
from future hurricanes. We need to rebuild protection to 
category 3, which is what we were supposed to have before the 
storm, and then we immediately need to understand and 
immediately need to have a blueprint about how we move up to 
category 5 hurricane protection.
    I can't stress enough how the people of Louisiana need to 
feel safe, need to feel like there is a plan before they are 
going to be able to move back home and before our economy is 
going to be able to get up and running. I have already talked 
to Mr. Woodley and others about this. It seems to me the first 
order of business as we walk down this path is to fully 
understand what happened with our present hurricane and flood 
protection system.
    So Mr. Chairman, for that reason today, right now but also 
through a formal letter to you, I am going to ask for a 
specific follow-up hearing, focused exclusively on the key 
threshold question which needs to be answered before we take 
any other action. That key threshold question is, whether the 
present levee system, the present hurricane and flood 
protection system in greater New Orleans lived up to its design 
standards, which were category 3, or in fact failed in several 
important respects to those design standards. I think that's 
the first question we need to answer honestly before we 
understand what we need to do next week, next month and in the 
years ahead as we buildup to category 5 protection.
    Transportation, of course Federal Highway Administration is 
crucial in that. Vital transportation infrastructure is heavily 
relied on all through the region and has been greatly damaged. 
Maybe the best example of that is part of I-10, the twin span 
bridges between New Orleans and Slidell, which were completely 
damaged and put out of operation by Hurricane Katrina. To 
rebuild the twin span bridges, the Louisiana Department of 
Transportation needs Federal emergency transportation relief 
assistance.
    That is why I join with you, Mr. Chairman, and other 
committee members in introducing S. 1714, to provide $2.9 
billion in emergency transportation relief to Alabama, 
Mississippi and Louisiana. I thank you for your leadership on 
that.
    Finally, EPA, a very important agency in terms of 
monitoring environmental issues so that we can move forward 
effectively and safely. I thank them for that work. It is very 
important work, but I also want to make a comment in direct 
response to some of Senator Boxer's comments. It is important 
that we do this work and it is important that we do it right 
and do it based on science and communicate that fully to the 
American people.
    I can't count the number of times, including this morning, 
I have heard the expression ``toxic soup.'' That is a 
completely unscientific, undefined term that doesn't represent 
in any meaningful way what's going on in the greater New 
Orleans area. Are there environmental issues that we need to 
monitor and be concerned about? Absolutely. Is there toxicity 
there, widespread and anything that would be adequately 
described by that term? Absolutely not.
    The problem is, when we use undefined, unscientific terms 
like that, it is an enormous impediment to residents, tourists, 
commerce coming back to the metropolitan area. So I welcome EPA 
being at the table and I welcome them bringing some focus and 
precision to the reality on the ground, which involves 
environmental issues but doesn't involve some 2-foot thick 
sludge of toxic soup throughout the entire metropolitan area.
    With that, Mr. Chairman, I thank you and I very much look 
forward to the continuing work of this committee.
    [The prepared statement of Senator Vitter follows:]
    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana
    Chairman Inhofe and Ranking Member Jeffords, thank you for having 
this hearing today on Hurricane Katrina. I appreciate the witnesses for 
being here too. The Environmental Protection Agency, the Army Corps of 
Engineers and the Federal Highway Administration play a critical role 
in not only the response and clean-up efforts but also in rebuilding 
New Orleans and the surrounding affected parishes after Hurricane 
Katrina.
    Hurricane Katrina is an unprecedented disaster. Never before has a 
major, modern American city been fully evacuated and a major region of 
the country shut down--including all sources of revenue.
    Some Americans view Katrina as a parochial disaster--a problem for 
Louisiana. Nothing could be further from the truth. Anyone who has 
filled their gas tank, paid their utility bill or purchased products or 
services with an ``energy surcharge'' knows that this is not just a 
natural disaster, but a national disaster.
    Rebuilding Louisiana even better than it was before will truly 
benefit our entire U.S. economy. Louisiana is home to the largest port 
system in the world. Thirty-six States rely upon our ports for maritime 
commerce. Up to 70 percent of the crops from our mid-western farmers 
are dependent upon our ports to get their products to market. Louisiana 
is the second largest producer of domestic seafood. Between Hurricanes 
Katrina and Rita, it has been estimated that up to one-third of our 
domestic fishing fleet is damaged or destroyed. Energy prices have 
spiked; our domestic fishermen have been devastated and our farmers 
have no way to get their crops to foreign markets.
    The Environmental Protection Agency, Army Corps of Engineers, and 
Federal Highway Administration play key roles in ensuring the 
environment of New Orleans and Southeastern Louisiana are safe to 
return to, a secure level of hurricane protection is in place, and 
roads and infrastructure are in place to move people safely in and out 
of the area. It is important that the agencies work this process 
quickly and efficiently so that we do not risk this devastation 
happening again during future hurricanes.
    We need to rebuild Louisiana so people are safe from future 
hurricanes. We need hurricane protection and levees that will sustain a 
category five hurricane. I cannot stress enough how the people of 
Louisiana need to feel safe before they move back home--drastically 
improved hurricane protection and flood prevention is mandatory. We are 
at a crucial point and the Environmental Protection Agency, Army Corps 
of Engineers, and Federal Highway Administration need to continue to 
take action to ensure New Orleans and the surrounding parishes are safe 
for people to move back.
    Lake Pontchartrain is one of America's significant bodies of water. 
As a freshman in Congress, one of the first pieces of legislation I 
introduced and passed was the Lake Pontchartrain Basin Restoration Act 
of 1999 to establish this program within the Environmental Protection 
Agency. The purpose was to give Lake Pontchartrain the same status as 
other nationally significant restoration efforts. Over the past 4 
years, I have secured nearly $18 million for work in the basin. I am 
very concerned about the possible effects the returned discharged water 
will have on Lake Pontchartrain. I look forward to hearing from the 
Deputy Administrator about the precautions taken by the EPA to ensure 
the pollution level is kept at a minimum.
    Vital transportation infrastructure which is heavily relied upon by 
the residents of the North and South shore of Lake Pontchartrain--the 
I-10 ``Twin-Span'' Bridges--were damaged by the full force of Hurricane 
Katrina. To rebuild the Twin-Span Bridges the Louisiana Department of 
Transportation and Development needs Federal emergency transportation 
relief assistance.
    That is why I, along with Chairman Inhofe, and other Environment 
and Public Works Committee members introduced S. 1714. This piece of 
legislation will provide $2.9 billion in emergency transportation 
relief to Alabama, Louisiana and Mississippi. It is critical that our 
States receive this funding to rebuild our transportation 
infrastructure. I look forward to hearing from Acting Administrator 
Richard Capka on the response taken by the Federal Highway 
Administration after Hurricane Katrina.
    We all need to work together and I look forward to hearing from the 
witnesses today about where the agencies are with the response and 
where they are going from here to continue their progress in an 
expedited fashion to rebuild Louisiana.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. I applaud your 
initiative and leadership in considering the next stage of this 
recovery effort. I thank the Environmental Protection Agency, 
the Army Corps of Engineers and the Federal Highway 
Administration for being here today.
    I know there have been some concerns about how the Federal 
Government responded in the wake of Hurricane Katrina, so it is 
vital to hear from these agencies what we did right and more 
importantly, what must be done to respond to the aftermath of 
Katrina and future natural terrorist disasters in the United 
States of America. I hope that the emphasis of this hearing is 
not on what happened, but more on what we need to do to deal 
with the aftermath and what we need to do to make sure that we 
don't have the same kind of situation in the future.
    The Congress of the United States, in my opinion, spends 
too much time looking at the past instead of looking at the 
present and what we need to do in terms of the future 
challenges that we have. The hurricane has shown that we have 
serious needs for the repair and improvement of our Nation's 
aging infrastructure and waterway systems. The desperate 
conditions these systems currently endure are impacting our 
economy, the environment and the welfare of the American 
people.
    Currently, the backlog of unfunded Army Corps of Engineers 
operation and maintenance projects authorized by Congress is 
$1.2 billion. This is up from $250 million when I arrived in 
the Senate in 1999. In 2001, there was a $38 billion backlog in 
active water resource projects. Today it is at $41 billion.
    Annual appropriations for the Corps' construction account 
fell from $4 billion average in the mid-1960's, this is the 
1960's, $4 billion to $1.37 billion average for 1995 to 2004. I 
am deeply concerned that the level of appropriations for the 
Corps of Engineers civil works program is not sufficient to 
provide for the efficient development of worthy and needed 
projects this committee authorizes.
    National investment in water resources has not kept pace 
with our level of economic expansion. If this steep decline in 
Federal investment persists, our continued economic expansion 
and environmental improvements will be threatened. Mr. Peacock, 
you have the same problem in the Environmental Protection 
Agency. You have never come by this committee. Maybe you could 
stop by OMB to deal with the sewer and water problems that we 
have in this country today. They are enormous.
    The economic benefits of infrastructure projects speak for 
themselves. The Corps' current efforts for Katrina will cost 
taxpayers at least $3 billion. While I am a fiscal 
conservative, it is clear there are certain areas the Federal 
Government has an appropriate role, and there are two specific 
areas, navigation and flood control, where the Federal 
Government must have a role.
    If Congress and the Administration had been willing to 
provide adequate funding for these infrastructure projects for 
the Gulf Coast, perhaps the Army Corps of Engineers would not 
be here today requesting additional money. We had better 
respond to Senator Vitter's complaints constantly that, what is 
it, a football field a day you are losing in terms of your 
coast line?
    Senator Vitter. Unfortunately, it is a football field every 
38 minutes. Of course, that doesn't count what Katrina did in 
one fell swoop, which accelerates that significantly.
    Senator Voinovich. Thank you.
    In August 2002, the Corps completed a reconnaissance study 
of whether to strengthen coastal Louisiana's hurricane damage 
reduction projects to protect against category 4 and 5 storms. 
In September 2004, the Army Corps of Engineers stated the 
feasibility study would cost $8 million. The study only 
received $100,000 in fiscal year 2005 appropriations. It was 
not included in the President's fiscal year 2006 request, even 
though the Corps stated that $500,000 was needed for fiscal 
year 2006 to initiate work on the feasibility study.
    Today, the Corps estimates that the cost of the study is 
$12 million and will need to be fully funded by the Federal 
Government, expedited. I know there are some members of this 
committee that say, we are not going to do anything about the 
levees in New Orleans until we get the WRDA bill passed.
    Well, I think we ought to go to the leader and find out 
what chance we have to get the WRDA bill up, and if we can't 
get the WRDA bill on the floor, we ought to move forward and 
decide whether we are going forward to bring this levee to a 
level 5, how much it will cost, allocate the money, let the 
people know how long it's going to take so they can make plans 
to determine how they are going to develop New Orleans.
    That is the first question. Is it going to be level 5, and 
then how long is it going to take? Because that will have a 
dramatic impact, Mr. Chairman, on what is going to happen in 
New Orleans.
    Finally, it has been 5 years since we passed the Water 
Resources. The last two Resource bills were when I was chairman 
of the Infrastructure Transportation Committee, when I came in 
here as freshman, 5 years ago. I just can't believe it.
    We know there were mistakes made before and after Hurricane 
Katrina, but I believe the Senate, and particularly this 
committee, is committed to improving the Federal Government's 
role during a disaster. Today is just the first step we are 
going to take and I am confident that we can make certain that 
Federal agencies involved in responding to the aftermath of 
Katrina are going to have the resources they need, but just as 
important, have the resources we need to contend with future 
natural disasters.
    Senator Inhofe. Thank you, Senator Voinovich.
    Senator Chafee.
    Senator Chafee. Mr. Chairman, can I submit my statement for 
the record?
    Senator Inhofe. Thank you, Senator Chafee.
    [The prepared statement of Senator Chafee follows:]
        Statement of Hon. Lincoln Chafee, U.S. Senator from the 
                         State of Rhode Island
    I am troubled by the tragic events and loss of life that occurred 
as a result of Hurricane Katrina. My heartfelt sympathies go out to the 
victims and the families affected by this disaster. In this time of 
crisis, we must come together as a Nation to assist those whose lives 
have been devastated.
    Today, we will be receiving testimony from three Federal agencies 
under the jurisdiction of this Committee that are responsible for 
implementing specific aspects of the National Response System.
    Protecting and responding to hazardous substance releases, the 
restoration of public wastewater and drinking water systems, and 
conducting environmental assessments of natural and manmade disasters 
are a few of the emergency responsibilities under the charge of the 
Environmental Protection Agency (EPA). I understand EPA has worked 
closely with FEMA and other Federal agencies, the States, and local 
governments to ensure public health and the environment are protected 
and restored after this devastating crisis.
    EPA is charged with another important role for dealing with the 
aftermath of a disasters such as Katrina--Congress has provided the 
agency with various authorities to issue temporary emergency waivers of 
the nation's environmental laws in order to address critical needs. As 
each waiver has been issued in the Katrina situation, this Committee 
has closely reviewed the purpose and background for providing relief in 
relation to such laws as the Clean Water Act and Clean Air Act.
    I understand the importance of waivers of this nature for 
addressing immediate needs and alleviating problems directly associated 
with Hurricane Katrina. The request to move contaminated flood waters 
out of the city of New Orleans and back into Lake Pontchartrain 
required a Clean Water Act waiver. This was well documented and 
understood--the flood waters were contaminated and had to be quickly 
moved out of the low-lying areas of the city. Similarly, EPA has issued 
a number of waivers under the Clean Air Act in relation to the storm to 
ensure a constant fuel supply across the Nation. I have supported these 
efforts, but take serious pause at the request to provide blanket 
waivers of the nation's environmental laws in response to this type of 
catastrophe. In order to agree to something of this nature, I would 
need to review documented examples of ways in which each of our Federal 
and State environmental laws do not adequately provide the authorities 
necessary for EPA to issue emergency waivers in response to a disaster.
    The Army Corps of Engineers and Federal Highway Administration have 
also been heavily involved in the Katrina response, and I look forward 
to learning more about their efforts. Thank you.

    Senator Inhofe. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Inhofe. Excuse me, Senator Thune. I understand 
that, Senator Vitter, you may have someone you want to 
introduce.
    Senator Vitter. Thank you, Mr. Chairman. I didn't realize 
these folks were in the audience when I gave my opening 
statement. I do want to recognize Junior Rodriguez. He is the 
Parish President of St. Bernard Parish and he is accompanied by 
his special assistant, Charlie Rappell.
    Mr. Chairman, St. Bernard Parish was one of the absolutely 
most decimated areas hit by Hurricane Katrina. Eighty percent 
of the homes have been destroyed or will be condemned. There is 
one functioning home in the parish right now, and of course, 
because of all of that, it has virtually no incoming revenue to 
address payroll and other government needs. So these leaders 
are working valiantly through that situation and I want to 
recognize them.
    Senator Inhofe. We appreciate that very much. I had an 
opportunity to meet them when I was with you in New Orleans 
right after Katrina.
    Excuse us, Senator Thune, you are recognized.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, Senator Jeffords, 
and I want to thank the panel for being here as well. Thank you 
for organizing today's important hearing regarding the Federal 
Government's response to Hurricane Katrina.
    I do want to say on sort of an unrelated note, express my 
appreciation to the Corps, Mr. Woodley and General Strock for 
your good work in helping us address a situation up in upper 
reaches of the Missouri River with the Cheyenne River Sioux 
Tribe water supply issue that was a very serious matter earlier 
this year, could have created enormous water supply issues for 
literally thousands of people who live on the reservation and 
surrounding area. You were extremely responsive on that, and I 
appreciate your assistance.
    We have obviously a massive Federal response underway in 
the Gulf region, and I appreciate the good work that each of 
the agencies that is represented here today is doing, and look 
forward to hearing more about the scope of the damage as well 
as what each of the agencies have done this far pursuant to the 
National Response Plan.
    I won't be able to stay for the entire hearing due to a 
conflict with the Armed Services Committee, but I am interested 
in hearing the witnesses' response to a piece of legislation I 
introduced last month along with a handful of my colleagues on 
this committee, Senate bill 1761, the Gulf Coast Recovery Act. 
Senator Vitter and others who hail from that region know all 
too well that Hurricane Katrina caused untold devastation that 
will take years to recover from.
    The bill that I introduced, along with Senator Vitter, 
seeks to expedite the cleanup and recovery process by ensuring 
that Federal contractors who are involved in State and Federal 
cleanup efforts there are shielded from burdensome and unjust 
litigation as they assist the Government in carrying out the 
cleanup in the Gulf Coast region.
    I do want to point out to my fellow colleagues that Senate 
bill 1761 is modeled after the Safety Act that Congress passed 
following the 9/11 terrorist attacks and is something I hope we 
can pass in the near future. While I am not obviously asking 
our witnesses today to endorse the legislation, I would 
appreciate hearing from each of you about how your respective 
agencies, as well as your private sector partners, are impacted 
by the threat of post-disaster cleanup efforts.
    So as I said, Mr. Chairman, I will not be able to stay for 
the entire hearing today, but I do have some questions as well 
with respect to a couple of other issues that pertain to 
Katrina and river management issues that I would like to submit 
to the record for our witnesses to respond to in writing.
    Senator Inhofe. Without objection, that will be included.
    Senator Thune. Thank you, Mr. Chairman.
    [The prepared statement of Senator Thune follows:]
          Statement of Hon. John Thune, U.S. Senator from the 
                         State of South Dakota
    Mr. Chairman, I want to thank you for organizing today's important 
hearing regarding the Federal Government's response to Hurricane 
Katrina. While a massive Federal response is underway in the Gulf Coast 
Region, I look forward to hearing from each of our witnesses today to 
get a fuller understanding of the scope of the damage as well as the 
work the Army Corps, EPA and DOT have done thus far pursuant to the 
National Response Plan.
    Even though I won't be able to stay for today's entire hearing due 
to a conflicting hearing on the Armed Services Committee, I am 
interested in hearing from each of our witnesses concerning a bill I 
introduced last month along with a handful of my colleagues on this 
committee S. 1761, the ``Gulf Coast Recovery Act.''
    As Senator Vitter and others who hail from the Gulf Coast Region 
know all too well, Hurricane Katrina caused untold devastation that 
will take years to recover from. The bill I introduced, along with 
Senator Vitter seeks to expedite the clean-up and recovery process by 
ensuring that Federal contractors who are involved in state and Federal 
clean-up efforts are shielded from burdensome and unjust litigation as 
they assist the government in carrying out the clean-up of the Gulf 
Coast Region.
    I want to point to my fellow colleagues that S. 1761 is modeled 
after the SAFETY Act that Congress passed following the 9/11 Terrorist 
attacks and is something that I hope we can pass in the near future.
    While I am not asking today's witnesses to endorse this common 
sense legislation, I would appreciate hearing from each of you about 
how your respective agencies (as well as your private sector partners) 
are impacted by the threat of litigation in post-disaster clean-up 
efforts.
    Mr. Chairman, because I will not be able to stay for today's entire 
hearing, I ask unanimous consent that I be allowed to submit the 
following questions for the record.

    Senator Inhofe. We thank you very much.
    Let me say before we start with our witnesses, we had 
occasion to be down there with Senator Vitter right after this 
happened. I know there have been a lot of hits that have been 
taken by EPA, Corps of Engineers, FHWA, FEMA. It was our 
experience in talking to the people on the ground, they were 
actually there 1 and 2 days before landfall. I want to make 
that observation, because I think Senator Boxer is correct when 
she says, there's always a blame game going on. You folks, I 
think the performance was much better than was reported.
    Why don't we start with opening statements. We will go 
ahead and start with you, Mr. Peacock, and we will just try to 
keep them somewhere around 5 minutes, 6 minutes, then we will 
open up for a round of questioning.

 STATEMENT OF HON. MARCUS PEACOCK, DEPUTY ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Peacock. Thank you, Mr. Chairman, Senator Jeffords, 
members of the committee. My name is Marcus Peacock, I serve as 
the Deputy Administrator for the U.S. Environmental Protection 
Agency. I appreciate the opportunity to provide you today with 
an update of EPA's response in relationship to Hurricane 
Katrina.
    I request that my written statement be submitted for the 
record.
    Senator Inhofe. Without objection.
    Mr. Peacock. Our hearts go out to the people of the Gulf 
region. Our continuing response will require a sustained, long 
term coordination across all Federal agencies, as well as with 
the affected State and local governments. My testimony today on 
Hurricane Katrina will update you on a number of areas of 
interest.
    First, I would like to briefly touch on EPA's early 
response to Hurricane Katrina, which the Chairman was just 
alluding to. EPA readied or pre-deployed personnel to the 
National Response Coordination Center and sent on-scene 
coordinators to Florida, Louisiana, Alabama and Mississippi 
before Hurricane Katrina made landfall. Then after Hurricane 
Katrina made landfall, EPA joined other organizations in urgent 
rescue needs. In fact, we used 60 watercraft, and these are 
watercraft that are typically used for environmental 
monitoring, as search and rescue vessels.
    As soon as possible, EPA then turned its attention to its 
primary responsibilities under the National Response Plan. 
These responsibilities include providing guidance for debris 
issues, assisting with the restoration of drinking water and 
wastewater facilities and addressing hazardous releases and oil 
spills.
    I'd like to now mention some of the issues of greatest 
concern that we have had and are continuing to deal with. These 
include debris management, the status of the drinking water and 
wastewater infrastructure, and sediment, air and flood water 
monitoring results.
    First, let me discuss debris. Working very closely with the 
Corps of Engineers, we have provided guidance on the safe 
disposal of debris that may contain PCBs and asbestos and 
continue to provide site specific technical assistance in the 
disposal of hazardous and nonhazardous waste.
    Regarding drinking water and wastewater facilities, and I 
have charts here which should be helpful. Senator Vitter, I 
hope you can see that. These pie charts for each State show the 
population that was affected in terms of receiving drinking 
water. As of October 4, the States report that approximately 84 
percent of drinking water systems in the affected region were 
operational. That's the blue areas. Those populations have 
drinking water now available to them.
    Senator Inhofe. Pardon me for interrupting. What is the 
date of what we are seeing right now?
    Mr. Peacock. This is through October 4. So this represents 
the water, the population that was being served by water 
systems affected by Hurricane Katrina. So 84 percent of the 
systems, a majority of the people, now have operating water 
systems. They are getting potable water. In the non-blue 
sections, over a million people are currently being served by 
facilities that we know are not operating or we don't have 
complete information on the status of them.
    Wastewater facilities were also affected. This information 
I am showing now is also through October 4. This shows the 
number of facilities in the affected region for the three 
States. As of October 4, 96 percent of these facilities were 
operational. As you can see, there are some facilities, 
particularly in the red, 4 percent of the systems, 16 of them, 
serving a population of over half a million people, are not 
operating right now. That includes, for instance, one of the 
facilities in New Orleans. Getting 100 percent of these 
drinking water and wastewater facilities up and running is a 
very high priority for us.
    Let me talk about oil spills and hazard releases very 
briefly. EPA and the Coast Guard are working together to 
conduct more than 130 emergency response actions as a result of 
over 600 reported incidents during this period. I know 
Superfund sites are of great interest to the committee. There 
is a map here of the Superfund sites in the affected area for 
Katrina. As Senator Boxer mentioned, there are 24 of them. 
These are National Priority List sites.
    We were able to conduct initial assessments, both the 
States and EPA, as soon as these sites were accessible to us. 
Of course, these tended to be ``first looks'' and recognizing 
that, we are continuing assessments and, where necessary, 
conducting water or soil samples at the sites of greatest 
concern.
    Regarding floodwaters, here is a map of New Orleans showing 
the sites where we have done tests with the State. We have 
tested for over 100 chemical priority pollutants. The yellow 
dots show the sites that were tested before Hurricane Rita, 
because there was, of course, re-flooding. The orange dots 
indicate where we have tested post-Hurricane Rita.
    The results to date indicate that the flood water does have 
high levels of bacterial contamination, including e. coli, and 
some locations do have some elevated levels of chemical 
contaminants including lead and arsenic levels which exceed EPA 
drinking water levels.
    Let's discuss sediment briefly. These are similar maps 
showing yellow dots for where we tested prior to Rita and 
orange for post-Rita testing. These were again collected by EPA 
and the State. As you would suspect, the sediments contain what 
we found in the water, elevated levels of bacteria. They also 
contain levels of fuel oils. Levels of metals detected thus far 
have been below levels that would be expected to produce 
immediate adverse health effects, but just the contamination 
and the bacteria alone suggest people should not be handling 
this material without some protection.
    Let's discuss air monitoring. This is becoming of 
increasing concern. There are a number of tools we have for air 
monitoring, everything from the ASPECT aircraft and the TAGA 
bus, which is shown here, which stands for Trace Atmospheric 
Gas Analyzer. They take snapshots, screening data, to help us 
identify where problems may exist. Then we have other methods, 
such as the DataRam 400 monitors, and stationary monitors that 
we have set up and are setting up that can provide more data 
over a longer period of time.
    In conclusion, and looking ahead, much remains to be done 
to address public health and the environmental impacts of 
Hurricane Katrina, as well as Hurricane Rita. Some of you know 
I have not been at the agency very long. The way I have seen 
the EPA employees respond with determination and a sense of 
mission in this crisis, just in the past few weeks, makes me 
very proud to be counted among them. I would be happy to answer 
any questions.
    Senator Inhofe. Thank you, Mr. Peacock.
    I would ask Secretary Woodley and General Strock, you might 
divide the time between the two of you as you wish.

STATEMENT OF JOHN PAUL WOODLEY, JR., ASSISTANT SECRETARY OF THE 
                      ARMY FOR CIVIL WORKS

    Mr. Woodley. Yes, sir. Mr. Chairman and members of the 
committee, I have a very brief summary, and I would like leave 
to add written comments to the record.
    I am John Paul Woodley, Jr., Assistant Secretary of the 
Army for Civil Works. Lieutenant General Carl Strock, Chief of 
Engineers and I, are here to discuss the Army Corps of 
Engineers relief effort in the wake of Hurricane Katrina, as 
well as the role the Corps of Engineers will play in the 
reconstruction efforts that lie ahead.
    I visited the Hurricane Katrina disaster area September 16 
and 17, and the devastation was immense. I saw the recovery 
process already underway and after my visit, I am assured that 
the Corps is successfully postured to continue its support to 
FEMA and the Department of Defense and their response to the 
disaster, as well as to continue our ongoing civil works 
mission throughout the Nation.
    While the Corps is focused on disaster relief, recovery and 
de-watering New Orleans and surrounding areas, we stand ready 
to work with local and State officials as they plan for the 
rebuilding of New Orleans and the rest of the Gulf Coast. The 
Corps has completed a reconnaissance study assessing the 
general engineering feasibility, economic justification and 
potential environmental implications of providing a higher 
level of hurricane protection to New Orleans. More analysis 
will be required to determine the most efficient way to 
strengthen the protection level for the city.
    We are especially mindful that the coastal wetlands 
ecosystem is the literal, figurative and conceptual foundation 
upon which all of these protection and restoration projects 
will be constructed. The Administration is working with 
Congress and the State of Louisiana to improve the 
implementation process for the Louisiana Coastal Area Ecosystem 
Protection and Restoration Program to include additional 
authorities for greater programmatic funding and increased 
opportunities for application of adaptive management 
decisionmaking.
    These same kinds of authorities need to be provided to the 
Corps and the Secretary of the Army for effective integration 
of wetlands ecosystem projects with other kinds of protection 
and restoration efforts, all consistent with the 
Administration's longstanding commitment to watershed based 
approaches, to sustainable water resource development.
    Mr. Chairman, thank you very much for the opportunity to 
present today.
    Senator Inhofe. Yes, sir. General Strock.

     STATEMENT OF LIEUTENANT GENERAL CARL STROCK, CHIEF OF 
       ENGINEERS, COMMANDER, U.S. ARMY CORPS OF ENGINEERS

    General Strock. Mr. Chairman, Senator Jeffords and members 
of the committee, thank you very much for this opportunity to 
testify before you.
    I am Lieutenant General Carl Strock. I am the Chief of 
Engineers and the Commander of the U.S. Army Corps of 
Engineers. The U.S. Army Corps of Engineers is responding to 
the terrible aftermath of Katrina and Rita in the States of 
Florida, Alabama, Mississippi, Louisiana and Texas in three 
ways. First, in support of FEMA and the National Response Plan; 
second, under the support to Federal military response; and 
third, within our own authorities and responsibility.
    Our support to FEMA consists of execution of Emergency 
Support Function 3, which deals with the provision of ice and 
water, temporary power, temporary roofing, technical assistance 
and debris removal. We normally do temporary housing under this 
Emergency Support Function, but given the magnitude of the 
effort in this event, that was taken over by FEMA through a 
special task force.
    Through standing planning and response teams, supported by 
pre-competed contractors, we actually deployed before landfall. 
Then following landfall, we expanded our presence as mission 
assignments came in from FEMA. To date, we have over 3,000 
people deployed from across the Corps of Engineers, and we are 
carrying out mission assignments in excess of $3.2 billion.
    Given the magnitude of this disaster, we are assisted by 
other Federal agencies, notably the Department of Interior 
through the Bureau of Reclamation. In terms of our support to 
Federal response, we provided JTF, Joint Task Force Katrina and 
Rita, Generals Honore and Clark, an experienced staff of 
military and civil engineers to help them in the coordination 
and planning of the military effort. They coordinate the 
activities of Air Force, Marine, Navy and Army units in their 
response and support of the recovery.
    Within our own authorities, we are operating under P.L. 84-
99, and within our navigation missions, we are conducting 
project condition surveys, we are conducting emergency repairs 
of flood and hurricane protection systems, we are restoring 
shallow and deep draft navigation in cooperation with NOAA and 
the U.S. Coast Guard. This is a critical function that will 
restore the Gulf Intracoastal Waterway and the Mississippi 
River and its tributaries.
    We are also planning the restoration of projects to pre-
Katrina condition. This will include an assessment of the 
performance of the system during the hurricanes.
    To date, we have transferred $64 million of our own funding 
to the effort and we have allocated $200 million of 
supplemental funding to both our O&M account and to our Flood 
Control and Coastal Emergency account. This has been a 
remarkable effort. Three of our divisions, South Atlantic 
Division under Brigadier General Mike Walsh, Mississippi Valley 
Division under Brigadier General Bob Crear, and our 
Southwestern Division under Brigadier General Jeff Dorko have 
led the effort. They have been supported by four other general 
officers from the Corps of Engineers in the response and 
recovery. Forty of our forty-five worldwide districts have been 
engaged. Three of them are in Iraq and Afghanistan and were not 
able to contribute, but all the rest have.
    In a situation like this, the New Orleans District was felt 
to be a victim district. Pre-landfall, we had a plan in which 
the Memphis district would come in and assume the emergency 
support functions to the New Orleans area. They have done that 
very effectively.
    We also brought in the Rock Island district to handle the 
de-watering of New Orleans. This was a pre-planned effort that 
we knew someday we might have to accomplish. The St. Louis 
District has Task Force Guardian, which is restoring the 
levees. So the entire Mississippi Valley Division is engaged in 
the effort. As always, we rely on our industry partners and the 
private sector to provide support to us as we carry out our 
missions.
    In summary, the U.S. Army Corps of Engineers understands 
the urgency of this effort, and we are committed to doing 
everything within our authority to assist our fellow citizens 
put their lives back together and to set the conditions for 
recovery of this critical area. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, General.
    Mr. Capka, you and I were talking, it seems as if FHWA is 
always a quick responder. Remembering very well when Mary 
Peters was the Secretary after the interstate disaster we had 
in Oklahoma, she beat me to the scene. So you are keeping up 
that tradition. You are recognized.

 STATEMENT OF J. RICHARD CAPKA, ACTING ADMINISTRATOR, FEDERAL 
   HIGHWAY ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Capka. Thank you, Mr. Chairman, Senator Jeffords, and 
members of the committee, for the opportunity to discuss the 
Federal Highway response to Hurricane Katrina.
    I am Richard Capka, the Acting Administrator for Federal 
Highways. Mr. Chairman, I ask that my full statement be made 
part of the record of the hearing.
    Senator Inhofe. Without objection.
    Mr. Capka. First, we in Federal Highways want to express 
our sympathies to all those affected by the recent hurricanes 
and assure all that we are committed to expediting recovery in 
the devastated areas. We worked closely with other Federal, 
State, and local officials before and during the hurricane, and 
we continue to do so.
    In discussing our response, it is important to note that 
through our day-to-day mission activities, our permanent 
Federal Highway Division Office staffs have developed both 
excellent first-hand knowledge of their respective States, and 
strong professional and personal relationships with State and 
local highway officials. These factors have provided an 
excellent foundation for an effective, coordinated, and rapid 
highway disaster response.
    As soon as we could re-enter the affected areas, Federal 
Highway sent in personnel, including staff from outside the 
affected region, to work alongside other Federal, State, and 
local officials to help assess the damage, and to facilitate 
response and recovery efforts. I personally visited the 
affected areas with Louisiana's Secretary of Transportation and 
Development, Johnny Bradbury; Mississippi Department of 
Transportation's Executive Director, Butch Brown; and the 
Mississippi Highway Commission Chairman, Wayne Brown. While TV 
coverage, aerial surveys of the bridge and road damage along 
Interstate 10 and U.S. Highway 90 and other roads certainly 
tell a compelling story, they really couldn't convey the full 
impact of the devastation that I witnessed.
    I must express my admiration for the State and local 
highway department and road crews. Despite the fact that many 
of them suffered great personal loss alongside their community 
neighbors, those dedicated and undeterred crews began clearing 
debris, including downed trees and power lines, from highways 
and bridges as soon as it was safe to do so. Consequently, in 
less than a day, except in flooded areas and areas of damaged 
structures, the States had debris removed from the Federal-aid 
highways to enable ready access for the first responders.
    Federal Highway employees worked shoulder to shoulder with 
the State highway officials to rapidly assess the damage and to 
shape strategies that would provide the most efficient 
response. We facilitated in getting Mississippi and Louisiana 
officials together with those officials from Florida who had 
experienced Hurricane Ivan's impacts last year to shape the 
strategies to address the bridge damages along Interstate 10 
and U.S. 90 in Mississippi.
    We also worked with the States to expedite procedures to 
get contractors underway with repairs. Incentives have been 
effectively employed to ensure quick restoration of lost 
essential services. For example, Mississippi awarded a $5.2 
million contract to repair the I-10 bridge over the Pascagoula 
River that had become a traffic choke point on one of the 
highest priority corridors across the south. The contract 
included not only an incentive if work was completed in less 
than 31 days, but also a corresponding penalty for finishing 
late.
    I am very pleased to report this bridge opened early, on 
October 1, very similar to the experience on Interstate 40 in 
Oklahoma, almost 10 days ahead of the contract completion date. 
Senator Vitter, Louisiana is using very similar techniques to 
restore the bridge at Slidell going into New Orleans.
    We strongly support these incentivized contracts, and we 
are out in the field working closely with States to exercise 
all appropriate options and tools available during the 
rebuilding effort. We are working with the Corps and other 
agencies to ensure that our infrastructure work is coordinated, 
and requirements are met in ways that will not impede rapid 
recovery. We are coordinating with the CEQ, the Environmental 
Protection Agency, the Corps, and other Federal agencies to 
help streamline the environmental analysis process that must 
precede long term recovery projects, that will prepare the 
transportation foundation for long-term rebuilding effort. We 
will continue to work with the State and local governments to 
help restore the Gulf Coast as quickly as possible.
    Finally, I would like to note that the Federal Highway 
Administration administers the Emergency Relief Program, which 
provides reimbursement for States for expenses related to 
highway infrastructure damage associated with natural disasters 
and other emergency situations. To date, Federal Highways has 
provided $10 million in quick release Emergency Relief funds to 
Louisiana and Mississippi.
    Mr. Chairman, we agree with your interest in financial 
controls. While quick response is important, we also are very 
mindful that financial accountability is important, too. 
Federal Highways has taken specific steps to effectively manage 
expenditures related to Hurricane Katrina recovery efforts. We 
will ensure that these funds are spent wisely and that 
emergency relief projects comply with the Federal requirements.
    Mr. Chairman, members, thank you again for this opportunity 
to be with you here today. I will be pleased to answer any 
questions that you might have.
    Senator Inhofe. Thank you, Mr. Capka.
    We will proceed now to two rounds of questioning. I would 
ask our members not to exceed 5 minutes. I will comply with 
that myself, so that others will have an opportunity to be 
heard and to ask their questions.
    First I would say, Secretary Woodley and/or General Strock, 
I know we have a difference of opinion up here at this table in 
terms of what might have happened in 1977. I just can't let it 
go by the wayside when we know in advance that something is 
going to happen and we don't take the proper action. I would 
like to ask you if either one of you, it would probably be you, 
Secretary Woodley, know Fred Caver, Rob Vining, and Joseph 
Towers, all former career Corps employees.
    I understand that today's Corps has not gone back to see, 
to look at the project that was abandoned in 1977 to see if it 
could have been better. When a former Deputy of Civil Works and 
Former Chief of Civil Works Program Management Division makes 
these assertions, do you believe we should put a significant 
amount of weight behind their opinion?
    Secretary Woodley?
    Mr. Woodley. Mr. Chairman, certainly I personally know the 
first two gentlemen you mentioned. The third I know by 
reputation.
    Senator Inhofe. That would be Fred Caver and Rob Vining.
    Mr. Woodley. Yes, sir.
    Senator Inhofe. Yes, sir.
    Mr. Woodley. I can tell you they are exceptionally 
distinguished public servants whose service to the Corps over 
almost a generation would lead me to certainly take any of 
their views very seriously.
    Senator Inhofe. As you look forward, can you think of 
something that can be done to avoid a situation like this 
occurring again, any thoughts like that? I think maybe that's 
more our job than your job, but to see what thoughts you had.
    Mr. Woodley. I would say, I think it would be very 
important for us as a Nation to review the process that led to 
the level of protection that was decided upon and the design 
that was done and to learn whatever lessons we can from that 
inquiry. I think it would be very instructive.
    Senator Inhofe. Thank you, Mr. Secretary.
    Mr. Peacock, I am always concerned about people going back 
to the scene. We know from experience that after 9/11, now in 
retrospect, many people did return before it was safe to make 
that return. The Mayor of New Orleans has begun allowing people 
back into the city. Do you think he has adequately informed the 
residents and those who will be coming back of the threat that 
might be there or the dangers that might be there?
    Mr. Peacock. Yes, for instance, he has put out, among other 
things, a two-page list of concerns including environmental 
concerns. In fact, the second page deals almost exclusively 
with environmental concerns, providing advice and cautions to 
people who may be returning.
    Of course, he has also limited who may return to particular 
areas, whether it's daylight hours or healthy adult 
individuals, for instance. That information is really put 
together by not only the Mayor, but with the advice of State 
officials, including environmental officials, as well as EPA 
and HHS and other Federal officials.
    Senator Inhofe. It bothers me a little bit when you say 
that the Mayor has a report out. How many people will see the 
report? What other means of communication are being used? I 
think a lot of people go back, it's an emotional thing, and 
they are not going to pay an awful lot of attention to a 
report.
    Mr. Peacock. That's right. In fact what I'm referring to is 
a two-page handout of which thousands and thousands of copies 
were made and handed out at various places.
    You need a panoply of actions to take place. We have used 
AM and FM radio, television, newspapers, people have gone door 
to door. The pamphlets have been handed out not only at the 
relief centers but also, for instance, EPA officials yesterday 
took brochures regarding mold to the Small Business 
Administration centers where people can apply for assistance 
from the Small Business Administration, to make sure it gets in 
their hands. We are always open to any suggestions for how to 
get this information out.
    Senator Inhofe. The media has been cooperative in conveying 
these messages?
    Mr. Peacock. Yes, that's correct. Once again, I think there 
is room for improvement here, and any suggestions people have, 
we're all ears.
    Senator Inhofe. Thank you.
    Mr. Capka, the amount of money we are looking at now in 
rebuilding infrastructure and roads is unprecedented. As you 
look at FHWA, do you think we have the resources, do you have 
the resources to give adequate oversight? There is a lot of 
discussion about oversight. You heard it in opening statements 
up here and that reflects my opinion also. What do you think, 
in terms of resources, what are your capabilities?
    Mr. Capka. Mr. Chairman, I agree with you, there is an 
unprecedented amount of resources that will be invested through 
the highway recovery. We have anticipated the requirement, the 
oversight requirement, and we have controls in place to ensure 
that the expenditures of these resources are wise.
    Senator Inhofe. You will keep us informed as this might 
change.
    Mr. Capka. I certainly will, yes, sir.
    Senator Inhofe. Senator Jeffords.
    Senator Jeffords. Mr. Peacock, on September 17, EPA and CDC 
issued an environmental health needs and habitability 
assessment. Most of the recommendations in that report were for 
actions that should be taken.
    How many of these recommendations have been implemented? 
For example, what is the status of developing short term and 
long term criteria for return? Do you feel that the EPA 
recommendations are being followed as re-entry plans are being 
put into place?
    Mr. Peacock. That's right, on September 17, there was a 
task force report which was put together by CDC and EPA. It was 
not an operational plan, it was a framework for not only the 
Federal Government but also the State Government and the local 
government to work within in re-inhabiting New Orleans. That's 
made clear, I think, in the first paragraph of the report.
    Most of those, if not all those recommendations, have been 
followed. Some of them have been overcome by events. One issue, 
in particular, is providing information regarding site-specific 
assessments of the environmental conditions of various parts of 
the city.
    The Mayor decided that portioning the city into zip codes 
was a logical way of doing that, so EPA and CDC, along with the 
State, have provided information through the principal Federal 
officer, Thad Allen, to the mayor based on zip codes. That's 
been updated a number of times, I think the last time that was 
done was late in the day on September 28. If you would like a 
copy of that assessment, that can certainly be provided to you.
    Senator Jeffords. I appreciate that, thank you.
    General Strock, what process did the Corps have in place 
prior to Katrina for providing notice and warning to Federal, 
State and local officials about the status of the levees before 
the storm arrived and after the levees failed? Did you provide 
notice of levee failure when it occurred? Was your notice 
process used effectively, and have you made any changes in the 
process as a result of Katrina?
    General Strock. Sir, pre-disaster, we have an agreement 
with the local levee and drainage boards that actually operate 
and maintain the system. It's their responsibility to maintain 
its design configuration. We inspect those works annually and 
work with the locals to bring those up to standard where we 
find challenges.
    So we do understand what the condition was prior to 
landfall. The local authorities also understood that condition. 
I think it was very clear to everyone from the beginning that 
we could not guarantee anything beyond a category 3 level of 
protection.
    After the event, sir, we have conducted extensive project 
condition surveys. In fact, that is one of the criteria that 
Mayor Nagin is using to determine when to go back in. There are 
two hazards that really remain right now. One is the pumping 
system of New Orleans, it is severely degraded, especially in 
the Orleans East Parish where about 40 percent of the pumping 
capacity is available. So they are vulnerable to heavy rain 
events that could put as much as 6-feet of water back into the 
city. The other is vulnerability to any kind of storm activity. 
Even a tropical storm could present a problem.
    As we saw in Hurricane Rita, we expected a 3- or 4-foot 
storm surge and we got about an 8-foot storm surge. We have now 
put 10-foot protection into all the repairs in the vicinity of 
New Orleans. So we are working very closely with the local 
authorities so they do understand the risks. In terms of 
reporting the breach in the levee, like everyone else in New 
Orleans, we conducted a mandatory evacuation. We had a very 
small staff in our district office. They made attempts to get 
out and follow up on a reported levee breach at 17th Street 
Canal, but were unable to get to it by land, and eventually 
once the weather cleared, were able to assess the situation 
from the air. By that time, it was very difficult, probably 
impossible to reverse that particular breach.
    I don't know for sure, sir, I could find out for the record 
exactly when and who we notified of that breach condition. We 
later learned there were breaches, of course, in other parts of 
the levee system that we had followed up on and worked with the 
locals to assess and repair.
    Senator Jeffords. I would appreciate that, if you would 
follow up on that.
    General Strock. Yes, sir.
    Senator Jeffords. Mr. Peacock, how is EPA documenting the 
air quality effects of the fuel waivers granted?
    Mr. Peacock. As you are aware, a number of fuel waivers 
have been granted. Most of them, I believe, have sunsetted, 
although a low sulfur diesel waiver was extended, I think, to 
October 25 for some States in PADD III.
    We are continuing to look at what the air quality effects 
may be. As I think has been mentioned before, as long as these 
are short term in nature, there should be minimal effect on air 
quality. The one concern with the diesel waiver would be over a 
period of time you might start having mechanical problems with 
the engines but as long as these are kept short term in nature, 
that should not be an issue.
    Senator Jeffords. Thank you. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    I wanted to ask Secretary Woodley and General Strock some 
questions about the levee system, which is an obvious focus. 
What is the current state of your understanding about the 
actual strength of Hurricane Katrina when it reached those 
areas where we had problems and breaches?
    Mr. Woodley. Sir, it is my understanding the National 
Weather Service characterized Katrina as a category 4 when it 
hit landfall at Head of Passes, the lower part of the basin, 
category 3 when it hit Mississippi. So between a category 3 and 
4. The question, is what sort of storm surge you had in Lake 
Pontchartrain. Because that storm surge builds as the hurricane 
approaches. So the real question is, what was the storm surge 
in Lake Pontchartrain. We lost a lot of gauges in this process, 
and I don't know that we know the full answer to that. That 
will be an important element in our forensics on assessing the 
performance of the system.
    Senator Vitter. In terms of the overall strength, category 
4 at Head of Passes, why don't you explain for the committee 
where that is. That is basically the outer tip of the outer 
mouth of the Mississippi, right?
    General Strock. Yes, sir, it is the mouth of the 
Mississippi River where it enters the Gulf of Mexico. It is 116 
miles by river from New Orleans. That is one of the challenges. 
New Orleans is 116 miles on the riverside from the sea. It is 
on the sea, essentially, on Lake Pontchartrain.
    So here is Head of Passes, down here, sir. Category 4 
there, category 3 here. It is the storm surge in Lake Borgne 
and Lake Pontchartrain that really put the stresses on the 
levee system.
    Senator Vitter. That storm surge was created closer to the 
time you are describing it hitting Mississippi than closer to 
the time it hit Head of Passes, isn't that correct?
    General Strock. Sir, I would have to defer to the weather 
folks to answer that properly. Yes, the surge builds as the 
hurricane approaches. Hurricane Rita passed 200 miles, over 200 
miles from New Orleans, but we have an 8-foot surge in Lake 
Pontchartrain just from Hurricane Rita--I'm sorry, in the Inner 
Harbor Canal, sir.
    Senator Vitter. The design standard for the overall system 
is category 3, right?
    General Strock. That's correct, sir. I might add, it's 
understood that the categorization of hurricanes occurred in 
1975 with the Safer-Simpson scale. These projects were actually 
designed for what is called a standard probable hurricane, a 
set of wind, barometric pressure and storm surge that describes 
the kind of storm we might expect in this area, provided to us 
by the National Weather Service some 40 years ago.
    Senator Vitter. Has it been updated in 40 years in terms of 
the sort of storm surge in particular you might expect?
    General Strock. To my knowledge, sir, I don't know that the 
expectation of frequency has been updated. The standards to 
which we designed against have not been changed since the early 
part.
    Senator Vitter. Is there a specific storm surge standard to 
which this was designed to?
    General Strock. Sir, I believe this was designed for an 
11\1/2\-foot storm surge. Hence, we had levee walls in some 
places that were as high as 17 feet to account for a factor of 
safety and wave action.
    Senator Vitter. What's the best information you have as of 
now about whether any levee was in fact overtopped or not?
    General Strock. Clearly, sir, we had significant 
overtopping of the St. Bernard's levee up along the Mississippi 
River, Gulf Outlet. That was clearly overtopped. We have some 
debris fields that would indicate levees along Lake 
Pontchartrain were overtopped.
    I don't know the answer to the question about the levees on 
the 17th Street, London Avenue. I believe the Inner Harbor 
Canal, I think we're fairly certain that that levee was 
overtopped as well. That will be a part of our study, sir, by 
looking at debris fields and high water mark and so forth, when 
we get into this.
    Senator Vitter. For that study, with regard to exactly what 
happened, was it overtopped? If so, where? Did it just fail in 
some places? What's your time line for that study?
    General Strock. Sir, we hope to get that done in a 
relatively short period of months to get that kind of initial 
forensics done. It is an urgent question, because as we try to 
restore to pre-Katrina conditions, we want to ensure that we 
are not putting in any kind of a flawed design. So we are very 
interested to see whether the system performed as designed or 
whether there was some problem with our design that caused 
these breaches to occur.
    Senator Vitter. Do you have a number of months in mind, in 
terms of a schedule? Do you have a number of months in mind?
    General Strock. For the study, sir?
    Senator Vitter. Correct.
    General Strock. No, sir, there are so many variables 
involved, I think we will take it sort of one step at a time. 
We are mobilizing the very best and brightest to do this. Our 
Engineering Research and Development Center from Vicksburg, MS 
is involved. We have hydraulic engineers, structural engineers 
and those sorts of folks. We have the American Society of Civil 
Engineers helping us with peer review and oversight. The 
National Science Foundation has been engaged and we are working 
with various academics around the country to enhance our 
efforts, sir.
    Senator Vitter. I'm a little concerned that there is no set 
schedule that this is going to be pushed and pushed. The 
announced schedule to even get back to pre-Katrina protection 
is next June, which is the beginning of the next hurricane 
season.
    General Strock. That's correct.
    Senator Vitter. So that means if it slips at all, it goes 
into the next hurricane season.
    General Strock. That is correct, sir.
    Senator Vitter. That is a huge concern of mine.
    General Strock. Yes, sir, and that's one of the reasons we 
are really trying to limit the scope of this study not to 
evaluate alternatives and that sort of thing, but look at the 
performance of the actual system in place with the known 
stresses we had, limit that, so that we can make sure that we 
are doing things right as they are put back in place.
    The urgency is such that we must know that before we can 
begin letting contracts for the final repairs. That is in the 
next couple of months, we have to get these contracts moving to 
make a June 2006 deadline.
    Senator Vitter. When you say by June get it up to pre-
Katrina protection, what does that mean exactly? I hope it 
means correct any design deficiencies.
    General Strock. Yes, sir.
    Senator Vitter. I hope it means take account of a more 
significant storm surge, if in fact a category 3, which is, I 
believe, what it was when it hit these levees, completely 
overwhelmed the system.
    General Strock. Sir, I think we certainly need to 
understand if there is more likely frequency of that kind of a 
storm surge. The reality is, though, I think we will be working 
very hard just to put the system back in the way it was prior 
to Katrina. The business of even constructing levees is a 
difficult one because of the foundation soils and their 
sensitivity and our ability to, it is weather-dependent and all 
that sort of thing. I think that at best, we will be able to 
put it back to pre-Katrina conditions, subject to any design 
corrections we need to make. We will certainly make those.
    Senator Vitter. Thank you.
    Senator Inhofe. Thank you, General Strock.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    In terms of the health issues, I wanted to talk to Mr. 
Peacock about this. When I look at the CDC report, they list 
the top 10 conditions that exist in the people who are exposed 
to some of these materials and it looks to me, and I will read 
what they are, 6 of the 10 appear to be symptoms from a 
possible toxic exposure whether it's obstructed pulmonary 
disease, rash, flu-like illness like pneumonia and so on, 
diarrhea, other things that are listed here.
    Therefore, to me, what's really important is this, that we 
be honest about it, because people are, in America, they expect 
that from us, and that we fix it. That's what I'm about, fixing 
it.
    I want to know how we fix these problems. Instead of 
arguing whether what's it called, is it a toxin, is it an 
infectious element, it doesn't matter to me. Call it anything 
you want. People have these exposures, six people died. We want 
to make sure people are safe, kids are safe, everyone. We all 
agree with that. We might disagree with what's causing it. That 
should be based on science.
    As the Ranking Member of the Superfund Subcommittee here, I 
have great concern about these Superfund sites. It's my 
responsibility to the people in the affected areas, as well as 
to my own people who care a lot about this. California was the 
biggest private donation State in the Union, I am proud to say 
to my colleague, how much the people care. So I am stepping up 
to the plate.
    Here's the thing. When I spoke to Mr. Johnson about this 
matter, and it's documented, he said, ``all the Superfund sites 
would be tested.'' When pressed, he said, ``he could not give 
me a date''. I'm a little alarmed at your testimony, because 
you said they will be tested as needed. What does that mean? 
Why aren't we testing these Superfund sites yesterday, so we 
can clean them up and make sure that the people are safe?
    Mr. Peacock. First of all, because Rita also came through 
and affected some of these sites, let me put Katrina and Rita 
together.
    Senator Boxer. Well, I just want you to answer my question. 
I don't need to go back.
    Mr. Peacock. There are 54 sites in the Katrina-Rita area.
    Senator Boxer. Will you be testing all of them?
    Mr. Peacock. No, we won't. There have been initial 
assessments at all but two of these sites. One is still 
flooded, so we haven't been able to get access to it. The 
other, which I believe is in Texas, we have not been able to 
get access to.
    Senator Boxer. So two sites you haven't got access to, and 
you do not plan to test the Superfund sites, all of them?
    Mr. Peacock. There are 15 sites we have done the initial 
assessment of, which is a visual inspection, including, for 
instance, opening up groundwater piping. We will not be doing 
soil samples at 15 sites in Texas. The experts, the engineers 
and the scientists, both the State and EPA who go out to these 
sites, and particularly the State people know these sites well, 
may make an initial determination that soil samples are not 
necessary on those 15 sites. In Texas they have already made 
such a determination. It's simply because they are in an area 
that was not hit as hard by the storm as expected. They may be 
in a county that was declared a disaster, but their expert 
opinion is the site does not require----
    Senator Boxer. How many Superfund sites will you be testing 
thoroughly in the region?
    Mr. Peacock. Of the 54, we will not be testing 15, but we 
will be testing all of the remaining sites.
    Senator Boxer. I'm confused. Are you testing the Superfund 
sites that were impacted by the hurricanes and when will that 
testing be completed?
    Mr. Peacock. There are 54 sites that were in the area of 
Katrina and Rita. All----
    Senator Boxer. You have said that now three times.
    Mr. Peacock. Yes. All have been--I am trying to organize 
this so there is no misunderstanding.
    Senator Boxer. I get it. I understand that.
    Mr. Peacock. So you have the 54. All of the sites have been 
visited for an initial assessment.
    Senator Boxer. I didn't ask about initial assessment. How 
many Superfund sites----
    Mr. Peacock. Thirty-nine of the----
    Senator Boxer. Excuse me, let me ask it again. How many 
Superfund sites in the area that was affected by Hurricane 
Katrina and/or Rita will be thoroughly tested by the EPA and 
when?
    Mr. Peacock. Thirty-nine of the fifty-four sites will have 
soil samples taken.
    Senator Boxer. OK, and when will that be?
    Mr. Peacock. Twenty-one of those sites have already had 
soil samples taken. Eighteen, that's the remaining eighteen of 
the sites, will have soil samples taken and I will have to get 
back to you with the----
    Senator Boxer. OK, of the sites that you've already tested, 
I believe you said 39?
    Mr. Peacock. Thirty-nine of the sites will have soil 
samples taken.
    Senator Boxer. Will have. When will that be?
    Mr. Peacock. Twenty-one of the thirty-nine have already had 
soil samples taken. In some cases that includes water samples, 
like at the Agriculture Street site.
    I believe of the remaining 18, we are continuing to take 
soil samples. I will look to see when we will have soil samples 
of all of those. But again--I will check.
    Senator Boxer. On the 21 sites that you have completed 
testing on, what do they show?
    Mr. Peacock. So far, we have shown no rupture of liners or 
caps.
    Senator Boxer. Good.
    Mr. Peacock. We have been to the Ag Street site at least 
four times now, I think it's more than that. We're not sure, 
but we haven't seen any rupture thus far or any release.
    Senator Boxer. You're not sure of----
    Mr. Peacock. As we go back to these sites, we are going to 
continue to monitor whether or not there has been a release. 
Because you can go back and you can do a soil sample, but as 
the groundwater goes down, you're not sure what may happen to 
what's inside the contents of the site. So we're going to stay 
on top of it.
    Senator Boxer. Mr. Chairman, I'm concluded.
    Senator Inhofe. We're going to have another round.
    Senator Boxer. Well, I'm concluded. I just want to finish 
my thoughts, so I understand.
    So just so I understand, the 21 sites you've concluded, but 
you're continuing to monitor and the 18 sites you don't know 
when they'll be done.
    Mr. Peacock. That's correct. I'll get back to you with a 
date on that.
    Senator Boxer. Thank you.
    Senator Inhofe. If you would rather take another 5 
minutes----
    Senator Boxer. That would be wonderful, can you spare 
another five?
    Senator Lautenberg. It's a little problem for me.
    Senator Boxer. I'll wait.
    Senator Lautenberg. OK.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    Mr. Peacock, I wanted to ask you a question. The handout 
that you gave, you talked about the status of municipal 
wastewater systems. The number of those that are operating is 
quite high. I have to ask you, now, are they operating with 
full secondary treatment?
    Mr. Peacock. No. If it shows as operating on there, it 
means that you are getting----
    Senator Lautenberg. That the power is on and the----
    Mr. Peacock. That's correct, and you're getting some 
treatment, but it may not be all the way through secondary 
treatment.
    Senator Lautenberg. So do we know what the consequence of 
that is as a result of an evaluation of the quality of the 
drinking water? Because that's the kind of water that feeds 
into the river and into the other sources.
    Mr. Peacock. Right. The other thing I want to point out, 
Senator, is even if it's operating and looks great, it may have 
bandages and rubber bands and baling wire holding it together 
right now. So we, the Corps, EPA, the State, and, I believe, 
others, have assessment teams that are going through each of 
those plants to determine what specific problems they may have.
    Senator Lautenberg. So there is not an assurance that we 
can take from that that people who have drinking water being 
supplied from the system are getting water that's not 
contaminated?
    Mr. Peacock. Yes, I'm sorry, I thought you were talking 
about wastewater. The drinking water plants----
    Senator Lautenberg. OK, but then that wastewater treatment 
then furnishes supplies the water through which further----
    Mr. Peacock. I see what you're saying. Yes, the drinking 
water plants, in this case, the data we show, if it's 
operating, it is meeting all the drinking water standards. 
What's going into the plant, I don't know, but certainly what's 
coming out of the plant is potable and can be consumed without, 
for instance, being boiled.
    Senator Lautenberg. But the red area is that which is 
operating with boiled water?
    Mr. Peacock. Water advisory, that's correct.
    Senator Lautenberg. So that advisory is there because the 
water there is still of some concern?
    Mr. Peacock. That's correct. That's reason for concern.
    Senator Lautenberg. It's over 700,000 people?
    Mr. Peacock. That's correct. That includes a large portion 
of New Orleans.
    Senator Lautenberg. General Strock, the way we get 
information here sometimes has to go outside of conventional 
channels. We hold hearings and we try to stay on top of 
oversight responsibilities. But every now and then, we have 
someone who has the courage to come out and talk about problems 
as they see them, and you know where I'm going with this, 
General, and that has to do with Ms. Greenhouse.
    I think that it was your instruction that she be demoted, 
but there was an order by the Acting Secretary of the Army that 
asked for suspension of any action on her until the Inspector 
General had finished his inspection. Is that the case?
    General Strock. That is the case, sir.
    Senator Lautenberg. OK, then why did you move ahead with 
the demotion?
    General Strock. Sir, the Secretary of the Army evaluated 
the case and rescinded that order and gave me the authority and 
instructed me to proceed with that process.
    Senator Lautenberg. You're familiar with her history of 
service?
    General Strock. Yes, sir, I am.
    Senator Lautenberg. That she'd been promoted a number of 
times for excellent service?
    General Strock. Yes, sir.
    Senator Lautenberg. Did she suddenly turn less efficient, 
less qualified, when the inquiry came about with our 
expenditures in Iraq and so forth?
    General Strock. Sir, I have to be very careful not to get 
into personnel matters on this thing. There was, and my 
association with the period of time you're talking about, from 
approximately 2003 when we went in to support the global war on 
terror, sir, I think the, I know that the action taken was 
unrelated to any allegations of wrongdoing or any concerns that 
have been expressed by our Principal Assistant for Contracting. 
It was unrelated to any allegations made in those confines.
    Senator Lautenberg. So would you say she was performing 
satisfactorily in those areas?
    General Strock. Sir, again, I have to be very careful about 
where I get in terms of personal information on an employee of 
the Government. She is still an employee of the Government. I 
would rather not answer that question unless I have to.
    Senator Lautenberg. I would imagine, I would think so, 
because it's hard, if you look at the profile, the history, to 
see that suddenly this loyal and trusted staff person suddenly 
turned out to be someone that we had to punish. I mean, because 
there is a punishment, obviously.
    General Strock. Sir, if I could just respond in a more 
direct way here, I think I owe this to you. I won't talk about 
the individual, but I can talk about the process. The process 
is that if a member of the Senior Executive Service gets a less 
than satisfactory performance evaluation in any 2 of a 3-year 
period by statute that individual must be removed from the 
position. That is the condition, that's the process and how it 
works.
    Senator Inhofe. Time has expired, Senator Lautenberg.
    Senator Carper.
    Senator Lautenberg. Mr. Chairman, just a second more for 
clarification, please.
    Senator Inhofe. I'm not going to let you do that. I think 
it's inappropriate to talk about personnel issues in an opening 
hearing like this, and I don't think it's appropriate.
    Senator Lautenberg. Chairman, it's a source of information. 
The fact is that if we approve recrimination to be visited upon 
someone who wants to tell us what they know, I think that 
closes down sources and intimidates people, which is exactly 
what took place.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Carper.
    Senator Carper. Good morning, gentlemen. Good to see you. 
Secretary Woodley, especially good to see you. I will always 
remember the time you came to Delaware, stood with us on those 
beaches.
    Mr. Woodley. Yes, sir.
    Senator Carper. More pleasant times than what we've been 
through of late.
    I apologize for just arriving. We just wrapped up a hearing 
with David Paulson, who is the acting FEMA Administrator, who 
was in to testify before our Committee on Homeland Security. So 
I've missed your statements.
    I think what I'd really like to ask each of you, just to 
help me the most, is, and I'll just start with you, Mr. 
Peacock, takeaway, give me a good takeaway from this hearing 
that you would really want me to take to heart and to remember. 
Then I'll come back and ask some more specific questions.
    Mr. Peacock. I will make it specific to EPA. I don't know 
how much you know about track, but there are sprints and there 
is long distance. This is a case for----
    Senator Carper. I'm a long distance runner. Never that good 
in a sprint.
    Mr. Peacock. Well, I was a 440 yard runner, but now 400 
meters, I guess. We've been through a sprint and now we're 
starting a marathon. We had an initial response where we have 
collected information on flood waters and sediment, 
particularly in New Orleans and looking at, for instance, 
Superfund sites in a broader context. But now we're getting 
down to the point where, particularly in the city of New 
Orleans, we are going to have to do some careful environmental 
monitoring. In Lake Pontchartrain, Mississippi River and the 
Gulf, we are going to have to do some environmental monitoring 
to make sure the long term effects of what has happened are 
known and can be responded to as necessary.
    We are now in this conversion, I think, from sprint to 
marathon.
    Senator Carper. Good. Thanks.
    Secretary Woodley.
    Mr. Woodley. Senator, I would like you to remember that the 
work of protecting this community and any other community in 
America against the scourge of flood is ongoing work. A never-
ending task, a monumental task. That's the task that we were 
engaged in at Rehoboth, protecting that community against a 
very similar threat, in many ways. We protected it in a 
different way because of the difference in the hydrology, the 
difference in the threat. We protect St. Louis, MO in a 
different way, Kansas City, MO in a different way, Grand Forks, 
ND, in a different way.
    But it is something that the Nation has to recommit itself 
to at this time and in response to this crisis, to this 
tragedy.
    Senator Carper. Thank you. General Stock, how are you?
    General Strock. Fine, sir.
    Senator Carper. A good takeaway for us, please.
    General Strock. Sir, I believe that the National Response 
Plan that has evolved from the Federal Response Plan is a good, 
solid plan. It's proven itself as late as the hurricanes of 
last year in Florida. I have full confidence that we can, not 
only did we respond in an adequate way to this, but that we 
will in the future.
    Senator Carper. OK. Please, sir.
    Mr. Capka. Yes, Senator. Two points. In terms of the 
recovery from a Federal Highway perspective, the first is the 
pre-existing knowledge that our in-State staff had of the State 
and the infrastructure, plus the relationships that had been 
established over time, were essential to the quick response 
that we had. Second, being able to apply the lessons learned 
that we had captured in previous hurricane seasons, most 
notably Hurricane Ivan in Florida, but also the recovery of the 
I-40 bridge in Oklahoma, were key in assisting Mississippi and 
Louisiana to shape their strategies for recovery.
    Senator Carper. All right, thanks.
    Mr. Woodley, when we were together at Rehoboth Beach, and 
in our State, we worry probably as much about nor'easters as we 
do about hurricanes. They come in and they tend to have winds 
almost as strong as hurricanes. They destroy our beaches, 
destroy the dunes, waters roll into the communities, destroy 
homes, businesses and that sort of thing.
    We've worked with the Army Corps of Engineers to replenish 
the beach, to pour in a lot of sand off the coast, and 
replenished the beaches to create dunes, and to grow grass on 
those dunes in an effort to try to make sure that when the next 
storm hits we will be ready to fight it. We have a much 
different approach down in Louisiana, in New Orleans.
    Here's my question. I've earlier thought of the levees that 
are around New Orleans, in that part of their State, that the 
levees were the key to protecting New Orleans. I think of them 
as the first line of defense. The more I learn about it and I 
learn about the wetlands that have been eroded and gone away 
and how they might be restored, I'm not so sure that the levees 
are the first line of defense.
    Are they the first line or really maybe the second or third 
line? This could be for you or others as well.
    Mr. Woodley. Protection of New Orleans from storm surge due 
to hurricanes is very complex. This event itself, one of the 
things I learned when I was there is it was itself a very 
complex event. Some of the generalizations that have been heard 
and been reported are true only as to a portion of the area.
    A hurricane like Katrina in which the path of the hurricane 
came up through Plaquemines Parish and then made a second 
landfall in southern Mississippi presents an entirely different 
challenge that one that would come up through either Morgan 
City or Houma, across the wetlands that we are losing. So there 
is no single answer, and both have to be addressed.
    The question of the surge that comes across from the Gulf 
through Lake Borgne into Lake Pontchartrain and strikes the 
city from the north is obviously dangerous, and that's what 
happened. The surge that might come across these wetlands, if 
they are sufficiently degraded, that they no longer protect 
against that kind of surge, from the south and west, must also 
be addressed.
    Senator Inhofe. Let me interrupt just a minute. Why don't 
you just go ahead and take your second round at the same time, 
so you won't lose your train of thought? Would you like to do 
that?
    Senator Carper. That would be great, thanks very much, Mr. 
Chairman.
    Let me be more specific in my question. I'm trying to 
understand the role of the levees around New Orleans. Were they 
a primary defense or a secondary defense as it turns out?
    Mr. Woodley. With respect to the surge, I should defer to 
the engineers.
    Senator Carper. Feel free. Jump in.
    Mr. Woodley. My understanding is they were the primary 
defense with respect to the surge that was experienced, they 
were the primary defense.
    Senator Carper. OK. Others, General Strock?
    General Strock. That's correct, the Secretary got it right. 
That's correct for the levees on the Lake Pontchartrain 
hurricane protection side. They are the first line of defense.
    Senator Carper. Talk about the other lines of defense, if 
you will.
    General Strock. Well, sir, there's the natural line, as the 
Secretary indicated, for a storm that tracks west of New 
Orleans, you have a different dynamic on that storm. The loss, 
the coastal erosion that we're experiencing down there, look at 
it graphically there, this storm tracked up through here, sir. 
I don't believe that the loss of the wetlands down here would 
have influenced the performance of the levee system or the 
storm in this case.
    But a storm that tracks this way, because the hurricane 
winds go in a counter-clockwise way, causes the storm surge out 
of the Gulf straight into those wetlands, and they act as a 
buffer to dissipate the energy of the storm. They would serve 
as a portion of the protection of New Orleans from that side. 
But you still need a series of levees in here to protect New 
Orleans and the lower parishes there.
    Senator Carper. Do I understand that some of the levees 
held, some didn't, the earthen levees did a better job of 
holding than maybe the concrete levees? Just take a moment and 
share that with us.
    General Strock. Sir, that's hard to really talk about. Each 
situation is a little bit different based on the nature of the 
stresses these levees underwent.
    As you can see here, the large levee on the north side of 
Lake Ponchartrain had significant overtopping. So that's how 
the water got into that particular cell there. In the Inner 
Harbor here, we had failures of flood walls. I should say 
breaches of flood walls. I draw that distinction because a 
failure is when something doesn't perform as designed and we 
don't know that yet. We know we had breaches. We don't know the 
mechanisms of those breaches there. Then in the canals, we also 
had, which are different situations, we had some breaches.
    So each one is a little different situation we will have to 
analyze. Clearly there was overtopping. There was especially 
overtopping down in Plaquemines Parish where we got a 
significant storm surge out of Breton Sound here, that 
overtopped these levees down in Plaquemines.
    Senator Carper. Many of the Corps' calculations, as I 
understand it, regarding how to build levees to protect New 
Orleans from a category 3 hurricane were done, I think in the 
1960's, is that correct?
    General Strock. Sir, the initial plans were developed in 
the 1960's. These actual projects were designed and built in 
the 1970's onward and are still under construction.
    Senator Carper. Since then, a fair amount of additional 
wetlands have been lost?
    General Strock. Yes, sir, certainly since the 1960's, there 
has been a loss of wetlands, as was stated before, about a 
football field every 38 minutes. But again, that's the south 
and west of the city.
    Senator Carper. I think there was a report done, I want to 
say by the Times Picayune a couple of years ago, and their 
report called Washington Away, which I think you may have just 
alluded, showed that the risk might now be twice as large as 
the Corps estimated several decades ago. Let me just ask what 
you might have done, if anything, to update your assumptions in 
that regard. Has there been some attempt to review or update 
similar assumptions regarding the design of other flood control 
systems around the country?
    General Strock. Sir, I don't know whether we can draw any 
conclusions from this relative to other flood control systems 
around the country. Specifically, where southern Louisiana is 
concerned, there is the Louisiana Coastal Area project, which 
includes not only environmental restoration but also additional 
flood protection. There are a number of flood protection 
projects that are proposed and underway, New Orleans to Venice, 
Morganza to the Gulf and some others down in that area, that 
are informed on the loss of coastal wetlands.
    Senator Carper. Thanks, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Boxer, in your absence, when you had to step out, 
Senator Carper elected to take his two consecutive times, so we 
will start our second round of questioning now. Let me ask you, 
Mr. Capka, when we passed SAFTEA, we had a provision in there 
for emergency relief and reconstruction, it was a limit of $100 
million. Obviously that's not going to do it. The bill 
specifically states that anything over $100 million will not be 
taken from the Highway Trust Fund, but will come out of the 
general fund.
    Do you have anything you want to share with us as to how 
the Administration is preparing to pay for your part of this in 
Highways?
    Mr. Capka. Well, sir, the source of funding for the 
emergency response requirement that we're going to have has 
really not been determined. I do know that I can say that the 
Administration looks forward to working with Congress in 
sorting that out.
    Senator Inhofe. I bring that up, I think Senator Bond made 
it very clear that there is an issue here when we're dealing 
with the Highway Trust Fund. I even call it sometimes a moral 
issue, we talked about that. So it's going to be a problem.
    Senator Thune had to leave, and in his opening statement, 
all of you might recall, he was talking about S. 1761, the Gulf 
Coast Recovery Act. I am a co-sponsor, Senator Vitter is, and 
some of the others are. I would like to ask if you have any 
comments to make regarding that legislation, any one of you.
    Mr. Peacock. As you know, Senator, it deals with contractor 
liability, particularly with the cleanup of debris. This is an 
issue the EPA has run into in the past in Superfund and RCRA 
context. As we have and continue to look at whether or not 
there is any legislative authority that may help us and remove 
barriers in responding to this tragedy, it is one of the bills 
we're looking at. We will certainly let you know if it's 
something that we think should be pursued.
    Senator Inhofe. Yes, we would like to know that. We would 
like to have input from all of those dealing with any part of 
this disaster concerning the plethora of legislation that's 
been introduced. You are on the ground and we need to have your 
opinion on it. I will forego the remainder of my time, since we 
are running close, and recognize Senator Jeffords.
    Senator Jeffords. Mr. Peacock, I'd like to talk about 
waivers. I would like to submit for the record a 13-page list 
from FEMA's web site of Government waivers and discretions that 
have been authorized post-Katrina. Can you describe why you 
believe that the EPA may need additional authority to waive 
environmental statutes to recover from this disaster, when you 
have not needed additional authority to recover from any of the 
other over 100,000 disasters that have occurred since the 
Stafford Act passed in 1974, including Hurricane Andrew, 
September 11 and the trio of hurricanes that hit Florida last 
year?
    Mr. Peacock. Thank you, Senator, that actually helps clear 
up what may be a misunderstanding that Senator Lautenberg 
mentioned before. The Administration has not proposed any 
additional authority, legislative authority or otherwise, up to 
this point, regarding waivers of environmental statutes. Once 
again, it is something we have been considering since the 
beginning of this, both Hurricane Katrina and then Hurricane 
Rita.
    We have not proposed anything to the Congress regarding 
waivers or discretion regarding environmental statutes. That 
doesn't mean we won't continue to look at whether or not there 
are any barriers that need to be overcome. But we have not 
proposed anything along those lines.
    Senator Jeffords. Mr. Capka, a question on evacuation 
routes. Mr. Capka, after Hurricane Ivan in 2004, and more 
recently Hurricane Katrina, it is clear that much more work 
remains to improve the evacuation procedures in the Gulf 
region. What, if anything, is the Federal Highway 
Administration doing to aid in the facilitation and 
coordination of interstate evacuation plans?
    Mr. Capka. Thank you, Senator. There has been a lot of work 
done, particularly since Hurricane Floyd a number of years ago, 
with respect to evacuations. Federal Highways, in particular, 
is a leading member of the Evacuation Liaison Team that 
operates within the FEMA structure.
    This team has been put together primarily as an information 
facilitating group that not only passes on information 
regarding weather and impacts that might stimulate an 
evacuation, but also communicates between States so that 
evacuations, as an example, the contra-flow in Louisiana was 
coordinated with Mississippi, to ensure that from a regional 
perspective those evacuations would work.
    There is certainly a lot more that needs to be done in 
terms of evacuation, and certainly we, as well as a number of 
other agencies, have learned from the two events, Rita and 
Katrina. I would also say that the decisions to evacuate are 
local decisions. Each State is a little bit different, whether 
it's the Governor or whether it's at a more local level that 
evacuations are called.
    So it is an interagency effort, a number of different 
levels of government and decisionmaking would need to be pulled 
into that process.
    Senator Jeffords. Mr. Peacock, people returning to the New 
Orleans area will be facing health risks within their own homes 
and mold and materials that were left there when the flood 
water receded. What is EPA doing to determine whether it is 
safe for people to re-occupy their houses?
    Mr. Peacock. That's a good question, it goes to Senator 
Boxer's point before regarding some fact that we have some 
people that may be showing some response to environmental 
conditions or other conditions. Once again, EPA's role, along 
with CDC, and other Federal entities is to provide assessments 
and information regarding conditions in the city. We have been 
doing this by zip code area to the principal Federal officer, 
Thad Allen, as well as the Governor and State officials, and 
then also the city.
    It is always important to keep in mind these are not just 
conditions regarding environment as well as health, but, for 
instance, the conditions of the levees in the city, the 
conditions of hospitals in the city, because if people start 
having accidents, such as traffic accidents, they will need to 
be taken care of. So there are a number of conditions which the 
Federal Government broadly has been advising the city on.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    I just want to thank Senator Carper for raising that issue 
of the wetlands, and again, Lieutenant General Strock for his 
comments. As we look for efficient ways to prevent these 
hurricanes, we know that wetlands, just God's way of helping us 
out. Unfortunately, we didn't pay much attention to that in 
this country, we've lost so much of our wetlands in my home 
State and across the country. So I think that's something this 
committee needs to focus on.
    Mr. Peacock, thank you for being patient with my questions. 
I'm just a bit confused still on the Superfund testing and I 
want to make sure I understand it. In your testimony, indeed, 
you said, sampling has been conducted at 9 sites in Louisiana 
and 12 sites in Texas, and the data is currently being 
evaluated. Is that on those sites the data is currently being 
evaluated? Or has the data already been evaluated?
    Mr. Peacock. Well, the data, for instance, I know that for 
the data on the soil samples on the Ag Street site, we have 
preliminary results back. So to some extent, particularly the 
soil samples on the Ag Street site, we do have results back. I 
believe the other soil samples are still being looked at.
    Senator Boxer. OK. So we are not yet done in terms of 
evaluating these 21 sites, plus we have another 18 sites.
    Mr. Peacock. That's exactly right.
    Senator Boxer. OK. Would you be willing to send to this 
committee the results of your work on a timely basis?
    Mr. Peacock. From day one, our policy is to----
    Senator Boxer. Yes is good enough.
    Mr. Peacock. Yes. Quality assured data should be released 
to the public, of course, as well as to you.
    Senator Boxer. Yes is good enough. Because we need to know 
this information.
    Mr. Peacock. Yes.
    Senator Boxer. I want to talk to you about something I 
raised in my opening remarks that deal with the information to 
the public. It is a little disturbing to me again, you would 
agree that benzene is a known carcinogen, would you not?
    Mr. Peacock. I know benzene is not something you 
necessarily want to be around at high doses for any period of 
time.
    Senator Boxer. OK. Well, just so you know, the Agency for 
Toxic Substances says it can cause leukemia, that's cancer, and 
anemia, drowsiness, dizziness, unconsciousness, bone marrow 
effects, very dangerous. What you're doing on your site is, 
you're showing what the dangerous amount of exposure is for a 
24-hour period. Yet people are going back there for longer. The 
only people who are there for 24 hours are members of the 
Senate, except from the Senators from Louisiana, Mississippi 
and the others, the President, the Vice President and the VIPs.
    But your workers who are there, your workers who are there, 
Lieutenant General Strock's and the Honorable John Paul 
Woodley's folks are there, and probably your folks are there. 
They are there for more than 24 hours.
    So my concern is that the numbers you're showing are in 
violation, or shall we say, of the standard, because they're at 
seven and the 2-week exposure is four for benzene. So I'm 
concerned and I am going to ask you, would you revise this or 
do another table to say, on the 2-week exposure level, this is 
what is safe, and show what the exposure level is? Because it 
is exceeding on benzene the 2 week exposure.
    Mr. Peacock. Right. Eric Olson brought this to my attention 
a few days ago. As you pointed out, we have 1,200 EPA 
contractors and EPA personnel in the field. It doesn't make 
sense if you have a level from an air monitoring bus that says 
you're over the 2-week level, isn't that of concern? So we went 
back to the scientists at CDC and EPA. They are the folks that 
determine the appropriate standard.
    The answer is, there are two things going on----
    Senator Boxer. There's already a standard. It's not a 
question of what is the appropriate standard.
    Mr. Peacock. There are two standards----
    Senator Boxer. The question is, why aren't you listing the 
2-week exposure level that is safe, rather than the 24-hour 
exposure, which only protects us when we go down there for a 
photo op or a press conference? We think we're experts too.
    Mr. Peacock. There are two reasons for that. One is, the 
data is from the TAGA bus, that's the bus you saw earlier, 
which takes snapshots, it is not a continuous monitor.
    The second is, the levels of benzene are transient. What 
happens is the TAGA bus goes back when it sees an elevated 
level, takes another snapshot, and what you essentially get are 
blips. There is not a consistent level of benzene in the air.
    Senator Boxer. Are you telling me that you cannot get for 
us the 2-week exposure? Because my understanding from your 
people that I've talked to is that it is possible.
    Mr. Peacock. No. What I'm telling you is, when this was 
brought to my attention, I went back to the scientists and 
said, ``Why did you choose the 24-hour level to use as the 
measure of risk, acceptable risk, or as the measure of risk 
against the 2-week standard?'' They believe the 24-hour 
standard is more appropriate. That's on a scientific basis.
    Senator Boxer. Well, you haven't sampled for the 2 weeks. 
I'm asking you, will you sample for the 2 weeks?
    Mr. Peacock. Yes, I understand what you're asking now.
    Senator Boxer. Will you change it on the Web site, so 
people know if they are there for 2 weeks, perhaps there is too 
much benzene?
    Mr. Peacock. Yes, we are going to put continuous monitors 
up throughout the city.
    Senator Boxer. So you will make the change on your Web site 
when you have the information, or you will add that to your Web 
site?
    Mr. Peacock. We already have some continuous monitors up. 
That data will be put on the Web site, and the additional 
monitoring data will also be put on the Web site.
    Senator Boxer. For the 2-week level. I would appreciate it 
if you would let this committee know when you are about to do 
that. Because I think, look, I want to see this area rebuild, 
and I am ready to do whatever it takes to do it, support my 
colleagues from the region. We have to make sure people are 
safe.
    So we need to solve the problem, which leads me to my last 
question, and that deals with this sludge that's left behind. I 
guess you would agree there's sludge left behind, is that 
correct?
    Mr. Peacock. It's sediments, there's actually a----
    Senator Boxer. Well, sediments, that's fine, we can call it 
sediments. I would ask unanimous consent to place in the record 
a statement by the Director of the Deep South Center for 
Environmental Justice at this point.
    Senator Inhofe. Without objection.
    [The referenced document not available at time of print.]
    Senator Boxer. She points out what's in all this call it 
sediments instead of sludge, I don't care what you call it.
    Mr. Peacock. It's a term of art.
    Senator Boxer. It's a term of art, I'll say sediments. 
Massive amounts of toxics were used and stored along the Gulf 
Coast before the storm. Literally thousands of sites in the 
storm's path used or stored hazardous chemical, from the local 
dry cleaner and auto repair shops to Superfund sites and oil 
refineries. She goes on and lists ultra-hazardous hydrochloric 
acid and all of the issues that are there.
    Now, my concern is, as these sediments, the sludge that 
contains the sediment, dries out, there are reports that there 
are street cleaners in the street, and these substances are 
going into the air. My question to you is, how can we clean 
this up? What do you need to clean this up quickly, so that we 
don't have these substances flying into the air and people 
ingesting them and getting sick?
    Mr. Peacock. That's a great question. First of all, this is 
one of the reasons for getting those monitors in place as 
quickly as possible, is to see what is actually happening in 
the air.
    We are working with the Corps of Engineers and the city and 
the State to try and limit how much, for instance, that debris 
gets moved and gets airborne. That may mean trying to dispose 
of it in a nearby area or using particular kinds of trucks to 
move it.
    Senator Inhofe. OK, we are going to have to----
    Senator Boxer. Could I ask the General just to answer that 
question?
    Senator Inhofe. Short answer, General.
    Senator Boxer. Short answer, can you solve this problem, do 
you need more resources from us to solve this problem?
    General Strock. We really defer to the EPA for the 
specifics of how, the technologies associated with that. We are 
very concerned about this for our workers' own exposure. In 
fact, in New Orleans, and dealing with these sediments we 
require our workers to wear N95 respirators, to wear 
waterproof, water-resistant gloves, disposal suits and that 
sort of thing when they are working around these areas where 
they have a level of hazard.
    Senator Boxer. Well, Mr. Chairman, they're protecting 
themselves. We have to worry about these little kids coming 
back in and we need to get rid of this sludge. So can we work 
together on that, Mr. Peacock?
    Mr. Peacock. Absolutely.
    Senator Boxer. Since the Corps says they're waiting for 
direction from you.
    Senator Inhofe. All right. Let me thank our witnesses for 
the time that they spent today. I would observe along the lines 
of that last question, Mr. Peacock, that the early reports, as 
I recall, indicated that the sediment was not as contaminated 
as they had thought before.
    Mr. Peacock. There were two primary problems found, 
bacteria in the sediment, which as it dries, of course, the 
bacteria issue will diminish. The second is in particular areas 
high levels of fuel oil. There were elevated levels of some 
metals found, but they were below levels of concern for acute 
exposure.
    Senator Inhofe. Well, thank you very much, and we are 
adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    I am pleased that the Committee has called this hearing. The Corps 
of Engineers, Environmental Protection Agency and Federal Highway 
Administration are at the heart of the recovery effort along the Gulf 
Coast. Guidance from these agencies will be essential to us in Congress 
as to how best to rebuild.
    Of particular interest to me is the New Orleans levee system. 
Clearly, it was not strong enough to handle a major hurricane. Many of 
us want to know why.
    Was it caused by the way the Corps prioritizes projects or conducts 
their cost-benefit analysis? Was it the way the Administration or 
Congress funded the Corps over the past couple of decades? And in the 
wake of Hurricane Katrina, how can we protect this valuable port, 
energy producer and cultural asset from increasingly busy and fierce 
hurricane seasons?
    There are further concerns that the levees did not even perform as 
they were designed to. If that is the case, we are going to need to 
figure out how that occurred. But even more, we will need to review 
flood control projects across the Nation to ensure we have the 
protection we expect.
    As we consider ways to improve the flood control system in New 
Orleans, we need to make sure that any such project will work with 
efforts to restore Louisiana's wetlands. The Corps has historically 
considered such projects as environmental restoration projects, not 
flood control. But wetlands are essential to reducing storm surge and 
soaking up floodwater, reducing the vulnerability of communities in 
places like southern Louisiana.
    Separating wetlands restoration and levee projects could result in 
billions being spent on a new levee system that would merely subside 
and stand increasingly vulnerable to storm surges from the Gulf, due to 
continued coastal erosion. Thankfully, the Corps has been open to 
making changes in the way priorities are set and needs identified, and 
I look forward to working with you all as the recovery effort moves 
forward.
    It is also good that we have someone here from the Environmental 
Protection Agency, as there continues to be confusion as to whether the 
EPA has the waiver authority it needs to help the Gulf Coast recover. 
We have heard from Administrator Johnson that the EPA has all the 
authority it needs. Further, the EPA's role in the recovery effort is 
to ensure that the affected areas are cleaned up and safe for people to 
come back to their homes. That being the case, it is worrisome that 
some are talking about waiving more environmental standards. Yet, 
efforts continue in the Senate to do just this. I certainly hope the 
EPA can clear up this issue today.
    Finally, the Department of Transportation generally has a huge task 
ahead of it, certainly in terms of fixing damaged transportation 
infrastructure. But also in providing displaced workers with access to 
their jobs.
    Some businesses in New Orleans and the surrounding area are 
reopening, while their employees are still unable to return to their 
homes (200,000 in Baton Rouge alone). Further, some businesses have 
temporarily located in Baton Rouge, but many of their employees have 
returned to their homes in Algiers and Uptown.
    Ensuring that people have access to their jobs is essential in 
speeding the recovery in this area. Further, providing this mobility in 
spite of an estimated 200,000 lost personal automobiles will require 
creativity. But recent news of the consideration of intercity buses and 
commuter rail shows that such creativity is being employed, and I look 
forward to hearing more about this.
                               __________
Statement of Hon. Barack Obama, U.S. Senator from the State of Illinois
    Mr. Chairman, thank you for holding this hearing today. Many 
members of this Committee have personally surveyed the destruction 
caused by Hurricane Katrina. Obviously, no one is more aware of this 
than Senator Vitter, and I commend him for the leadership he has shown 
over the past month.
    A week after the hurricane hit, I traveled to Houston with former 
Presidents Bush and Clinton to meet with some of the evacuees. Despite 
the terrible tragedy that had befallen these brave men, women, and 
children, many were committed to returning to the Gulf Coast. The U.S. 
Government should ensure that these people are able to do that.
    The communities affected by Katrina will need to recreate the very 
fabric of their communities. While the emotional wounds may always be 
near the surface, stitch by stitch citizens will repair and rebuild 
their homes, their places of worship, their schools, and their places 
of business. They will, however, have to rely on their government to 
oversee the re-creation of the critical infrastructures needed to 
underpin their rebuilding efforts.
    Without roads and bridges, there is no commerce. Without clean 
drinking water and sewage treatment, public health is compromised. And 
without the Army Corps' efforts, there are no protections against 
future storm surges.
    I am interested in hearing how the three agencies testifying before 
the Committee plan to aid in the recovery efforts. I am also interested 
in what steps they will take to ensure that the reconstruction of the 
Gulf Coast is accomplished with transparency and accountability.
    Senator Coburn and I have introduced a bill to create a chief 
financial officer to oversee the reconstruction efforts. I am heartened 
that the bill has passed the Homeland Security Committee and is 
awaiting a vote on the Senate floor. But time is of the essence. Each 
day, Federal agencies are making multi-million dollar contracting and 
procurement decisions with relatively little oversight. If we truly 
want to help the people of the Gulf Coast, we need to ensure that 
Federal dollars are being well spent and are being used to help people 
and communities most in need.
    The CFO bill is needed. So too are the Water Resources Development 
Act and the Water Infrastructure Financing Act. These two bills are 
needed to rebuild these communities and to enable other communities to 
secure their infrastructure against future disasters.
    Thank you, Mr. Chairman.
                               __________
     Statement of Hon. Marcus Peacock, Deputy Administrator, U.S. 
                    Environmental Protection Agency
                              introduction
    Good morning, Mr. Chairman and members of the Committee. My name is 
Marcus Peacock and I serve as the Deputy Administrator at the U.S. 
Environmental Protection Agency (EPA). On September 6th, the 
Administrator formally appointed me to lead the coordination of the 
Agency's response activities for Hurricane Katrina and I appreciate the 
opportunity to provide you today with an update on EPA's response.
    Our hearts go out to the people of the Gulf region, and we share 
with you an urgent sense of duty to help restore the communities 
affected by Hurricane Katrina and most recently by Hurricane Rita. Over 
the past month, natural disasters have left their mark on the Gulf 
region; the loss of life and destruction is staggering. The magnitude 
of Hurricane Katrina will require sustained, long-term coordination 
across all Federal agencies and with the affected State and local 
governments. My testimony today will provide you with an overview of 
EPA's role and activities in the affected Gulf region, our impressive 
coordination with Federal, State and local partners and a snapshot of 
our primary environmental concerns.
                  early response for hurricane katrina
    First, I want to briefly touch on EPA's early response to Hurricane 
Katrina. Beginning on August 25th, EPA pre-deployed personnel to the 
FEMA National Response Coordination Center and sent On-Scene 
Coordinators to the Florida, Louisiana, Alabama and Mississippi 
Emergency Operations Centers before Hurricane Katrina made landfall. 
The On-Scene Coordinator (OSC) is the Federal official responsible for 
monitoring or directing responses to all oil spills and hazardous 
substance releases reported to the Federal Government. We sent 
additional personnel to the affected areas as soon as travel into the 
region was possible. In anticipation of Hurricane Rita, EPA also 
deployed response experts to the multi-agency Regional Response 
Coordination Center in Austin, TX on September 20th. The number of EPA 
staff and contractors currently assisting with recovery efforts is more 
than 1,100 in the affected Gulf region.
    When EPA personnel arrived in New Orleans, it was clear that saving 
lives was the first priority, and EPA joined other Federal, State, and 
local responders in urgent rescue needs, putting over sixty EPA 
watercraft otherwise used for environmental monitoring to work as 
search and rescue vessels. Our field staff and contractors--mostly 
environmental experts equipped to address oil and hazardous substances 
releases--joined the fire fighters, police, and other first responders 
and rescued nearly 800 people in Louisiana.
                      epa role in federal response
    After helping with urgent rescue needs, EPA turned its attention to 
its primary responsibilities under FEMA's National Response Plan. EPA 
is the lead Federal agency for Emergency Support Function (ESF) #10, 
which addresses oil and hazardous materials, and works with other 
agencies to provide support for a number of other Emergency Support 
Functions, including ESF #3, which addresses Public Works and 
Engineering. Specifically, our responsibilities include preventing, 
minimizing, or mitigating threats to public health, welfare, or the 
environment caused by the actual or potential releases of hazardous 
materials; testing the quality of flood waters, sediments, and air; and 
assisting with the restoration of the drinking and waste water 
infrastructure. Also under ESF #3, the Agency anticipates a growing 
role working with the U.S. Army Corps of Engineers (USACE) to address 
final disposition of the large volumes of debris from homes, buildings 
and other structures damaged by Hurricane Katrina. EPA, in coordination 
with the States, is providing information to both workers and the 
public about test results, as well as assisting communities with debris 
disposal and hazardous waste issues.
    Debris Management and Disposal
    The volume of debris left behind by Hurricane Katrina is huge. EPA 
is working closely with other Federal agencies (particularly the US 
Army Corps of Engineers), State agencies, and local governments to 
facilitate the collection, segregation, and management of household 
hazardous waste, containers, and the larger debris.
    To date, we have provided guidance on: identifying electrical 
equipment that may contain PCBs; marking and storage of electrical 
equipment that may contain PCBs; disposal of electrical equipment that 
may contain PCBs; and handling and disposal of debris containing 
asbestos. EPA has also provided the affected States with guidance on 
burning debris. EPA personnel continue to provide site-specific 
technical assistance in the disposal of hazardous waste and a wide 
array of waste management debris left behind by the storm.
             drinking water and waste water infrastructure
    Many drinking water and wastewater systems in the three States were 
adversely affected by Hurricanes Katrina and Rita. It is a high 
priority of the States and EPA to re-establish operations at these 
facilities.
    Information received by EPA from State drinking water programs as 
of October 4th, indicated that 84 percent of the 3,200 water utilities 
in affected areas of Alabama, Louisiana and Mississippi are operating. 
Another 8 percent, were operational, but under a boil water advisory. 
Four percent of the utilities, or 131 systems, were not operating and 
we estimate that those systems served about 122,000 people prior to the 
hurricane. Louisiana is still trying to assess the status of an 
additional 153 systems which have been unreachable and are probably not 
operating.
    The States also indicated that as of October 4th, about 96 percent 
of the 730 wastewater facilities in the affected areas of Louisiana, 
Mississippi and Alabama were operational. Of the remaining 4 percent of 
systems, 16 systems normally serving approximately 530,000 people were 
not operating and we are awaiting further information on the status of 
11 more systems.
    In addition to these public systems, there are many people living 
in areas served by private wells and septic/decentralized systems. The 
Louisiana Department of Health and Hospitals has begun to distribute 
water testing kits in affected parishes in Louisiana. EPA's mobile 
laboratories and regional labs in Mississippi and Louisiana are also 
available to provide on-going water testing capabilities. To date, 
EPA's mobile lab located in Biloxi, MS has supported over 300 private 
drinking water well samples for local residences.
                   oil spills and hazardous releases
    There are hundreds of chemical and petrochemical facilities as well 
as other sites of potential concern that are being inventoried and 
assessed. EPA and the United States Coast Guard (USCG) are working 
together to address oil and hazardous material releases reported to the 
National Response Center or otherwise observed by our emergency 
responders. As of October 3d, EPA and the USCG have conducted more than 
130 emergency response actions as a request of reported incidents. Of 
these, there were five major oil spills in the New Orleans area 
resulting in releases of over 8 million gallons.
                            superfund sites
    There are 24 Superfund sites located in the region affected by 
Hurricane Katrina. As indicated on the map of the impacted areas, there 
are 15 National Priority List (NPL) sites in Louisiana, three in 
Mississippi, and six in Alabama that were potentially affected. Also, 
Hurricane Rita potentially affected an additional two sites in 
Louisiana and 28 sites in Texas for a total of 54 NPL sites.
    Working together with State health and environmental agencies, EPA 
has conducted initial assessments of each of these sites. In many 
cases, these sites were not flooded and did not sustain significant 
damage. However, we are continuing our assessments and, where 
necessary, are conducting environmental sampling to determine any 
impacts. To date, sampling has been conducted at 9 sites in Louisiana 
and 12 sites in Texas and is ongoing at other sites. The data is 
currently being evaluated.
                        sediment in new orleans
    As flood waters in New Orleans again recede, we are analyzing the 
sediment left behind. We are conducting biological and chemical 
testing, specifically for volatile organic compounds, semi-volatile 
organic compounds, metals, PCBs, pesticides, and total petroleum 
hydrocarbons. Sediment samples collected by EPA indicate that most 
sediments are contaminated with bacteria and fuel oils. Human health 
risks may therefore exist from unprotected contact with sediment 
deposited from receding flood waters and exposure to sediment should 
therefore be avoided if possible. E. coli was detected in sediment 
samples, which implies the presence of fecal contamination. Some of the 
semi-volatile organic compounds, common to diesel and fuel oils, were 
also detected at very elevated levels. The levels of metals detected 
thus far have been below levels that would be expected to produce 
immediate adverse health effects. Sediment sampling occurred in the 
flooded areas of New Orleans and is near completion.
                              flood water
    In the immediate aftermath of Katrina, the potential exposure or 
contact by residents and emergency response personnel to contaminated 
flood waters was among our leading concerns. EPA's initial plans to 
collect water samples in the New Orleans flood zone were set aside to 
assist in rescue operations, and were further delayed by limited access 
due to security concerns. Nonetheless, EPA, in close coordination with 
the Louisiana Department of Environmental Quality, began water sampling 
on September 3d, and while we continue to conduct biological and 
chemical testing of the flood waters, sampling is near completion.
    The flood waters continue to be analyzed for over 100 chemical 
priority pollutants as well as for bacteria. Results to date indicate 
that the flood water has high levels of E. coli, and that some 
locations tested had lead levels exceeding the EPA drinking water 
action levels. Arsenic, Barium, Thalium, Chromium, Benzene, Selenium, 
and Cadmium were detected in some samples at levels that exceeded EPA 
drinking water maximum contaminant levels. Although other contaminants 
were detected, none have been at levels that would pose an immediate 
risk to human health. Throughout this process, EPA has taken great 
steps to ensure scientific accuracy. EPA solicited the assistance the 
Science Advisory Board to review the flood water sampling plan, and EPA 
and CDC have routinely conducted a thorough data review, and 
interpreted the data for potential human health affects.
                             water quality
    EPA is working closely with its Federal and State partners to 
mitigate environmental impacts to Lake Pontchartrain caused by the 
flood waters. As of October 3d, the Corps continues un-watering 
operations and skimming booms are deployed to remove oil and debris 
from water prior to pumping. After pumping, additional booms are being 
deployed in the canals leading to the Lake to further reduce oil, 
debris, and solids. Aerators are also being used in the canals to raise 
the dissolved oxygen levels in the water prior to outfall to Lake 
Pontchartrain.
    Contaminated flood waters and sediment may adversely impact coastal 
aquatic resources. As such, EPA and USACE are actively evaluating 
options for directing the floodwaters. In addition, EPA is coordinating 
water quality monitoring efforts with USGS, NOAA and our State partners 
in the Mississippi Sound and the Gulf of Mexico. The poster behind me 
reflects the coordinated post-Hurricane plans to monitor water quality 
in the Gulf of Mexico.
                             air monitoring
    Air monitoring networks normally in place for monitoring 
particulate matter, ozone, sulfur dioxide, oxides of nitrogen, and 
carbon monoxide under the Clean Air Act were mostly destroyed in New 
Orleans and damaged and disrupted in coastal Mississippi. EPA is 
working to restore monitoring systems in those regions, as well as to 
deploy new monitors designed specifically to address potential air 
quality impacts during the recovery from Hurricane Katrina. For 
instance, as sediments from the floodwaters dry, EPA has conducted air 
screening sampling with special monitors to assess potential inhalation 
risks from particulates.
    Specific to New Orleans, EPA, in coordination with our government 
partners in Louisiana, makes daily tactical decisions regarding air 
monitoring needs and works with an agency-wide team of air monitoring 
professionals to address both emerging and source or location specific 
issues as well as longer term regional air quality issues.
    EPA has a number of tools to measure air quality. These include 
DataRam 400, personal air monitoring devices, as well as use of a 
remote sensing aircraft known as ASPECT to locate chemical spills that 
needed emergency response to protect both water and air quality. EPA's 
environmental surveillance aircraft was in operation during the early 
days of the emergency, and again after Hurricane Rita passed through 
the region.
    EPA's real-time mobile laboratory--the Trace Atmospheric Gas 
Analyzer (TAGA)--is sampling air quality in the New Orleans area. 
Initial screening results from the TAGA represent the beginning of 
extensive sampling efforts. As this is a dynamic situation, general 
conclusions should not be made regarding air safety based on results 
from snapshots of data.
    EPA and the affected States will continue to monitor for potential 
inhalation risks and have plans to enhance their temporary monitoring 
networks in the coming weeks to monitor and evaluate the air impacts of 
recovery activities including the burning of debris.
                      reoccupation of new orleans
    EPA and CDC formed a joint task force to advise local and State 
officials of the potential health and environmental risks associated 
with returning to the city of New Orleans. Their report, titled 
Environmental Health Needs and Habitability Assessment, was issued on 
September 17th and identifies a number of challenges and critical 
issues for consideration prior to the reoccupation of New Orleans. The 
task force is now incorporated into the Federal New Orleans 
Reoccupation Zip Code Assessment Group (Zip Code Assessment Group), 
which will provide information on a broad range of issues, ranging from 
infrastructure to health issues. Their recommendations will assist 
State and Local officials in their decisions regarding when to allow 
residents to reoccupy the city. As part of this larger group, EPA will 
continue to work to identify potential health and environmental risks 
associated with returning to the city based on the Agency's ongoing 
efforts to assess the quality of the air, water and sediment.
                              fuel waivers
    EPA, in conjunction with the Department of Energy, responded 
quickly to address disruptions to the fuel supply that have occurred 
due to the damage to refinery and pipeline infrastructure in the Gulf 
Region. To increase the supply of fuel and minimize potential supply 
disruptions, the Agency has issued emergency waivers of certain Federal 
and State fuel standards. On August 30th, EPA granted waivers applying 
to low sulfur diesel fuel requirements, Reid Vapor Pressure (RVP) 
standards that control the volatility of gasoline during the summer 
months, State gasoline sulfur limits, or reformulated gas (RFG) 
requirements. On September 21st, EPA expanded this effort in order to 
minimize potential fuel supply disruptions caused by Hurricane Rita. To 
address each fuel supply situation, waivers have been granted for 
various periods of time and have been applicable at the national, State 
or local level, to the extent necessary to alleviate the fuel supply 
disruption.
    In taking these actions, EPA used a Clean Air Act waiver provision 
recently signed into law as part of the Energy Policy Act of 2005 
signed into law this year. This provision authorizes the Administrator 
of EPA to temporarily waive fuel standards due to ``extreme and 
unusual'' circumstances ``that are the result of a natural disaster, an 
Act of God, pipeline or refinery equipment failure, or another event 
that could not reasonably have been foreseen or prevented and not the 
lack of prudent planning'' on the part of fuel suppliers.
                          informing the public
    We view communication to the public, workers, and other agencies to 
be a critical component of our response effort. The Occupational Health 
and Safety Administration (OSHA) was on-scene early in the response 
effort, distributing over 3,500 fact sheets by hand in the first 2 
weeks and conducting interventions that removed more than 850 workers 
from serious or life threatening hazards. OSHA continues these 
activities and on a daily basis, EPA response personnel and contractors 
receive health and safety instructions regarding field conditions and 
safe work practices. EPA's preliminary sampling results are also 
provided to On-Scene Coordinators to facilitate field decisions and 
ensure health and safety of workers.
    EPA posts advisories on our website and also distributes them 
through the Incident Command Post in Baton Rouge. We also have been 
alerting communities through AM and FM radio broadcasts, particularly 
on aerial mosquito spraying and how to avoid vector borne illnesses 
such as the West Nile Virus.
                           future challenges
    Looking ahead, much remains to be done to help address the public 
health and environmental impacts of Hurricane Katrina. The safe 
management of debris remains a high immediate priority, and the Agency 
will assist our Federal, State and local partners as they move forward 
on debris removal. For its part, the Agency will strive to provide 
sound and practical advice, participate in hazardous waste removal 
where appropriate, and monitor air quality where open burning is 
occurring. EPA will also continue to work with the USACE and others to 
support the States and local governments in their efforts to repair and 
restore public facilities including drinking water, waste water, and 
waste treatment facilities. We will also continue to monitor air, 
water, and sediment quality in the region and make sure that this 
information is readily available to Federal, State and local officials, 
other responders, and the public.
                               conclusion
    The Nation faces an enormous task in restoring and rebuilding the 
affected areas. Simply meeting many basic needs of people in the region 
including shelter, safe drinking water, sanitation, and protection from 
disease and hazards will require a broad partnership across government 
agencies, the private sector and nongovernmental organizations (NGO's). 
We expect that citizens and government agencies will look to EPA and 
our Federal partners for technical expertise, scientifically sound 
data, and practical advice on environmental and public health 
conditions in the region for some time to come. We are focused on 
meeting that challenge.
    Finally, as local communities undertake the task of reviving their 
economies and helping businesses restart their operations, EPA, in 
partnership with other Federal, State, and local agencies, will provide 
technical expertise and guidance to assist in the recovery. Some of you 
may know that I'm quite new to the EPA, but what I've seen in the past 
month makes me proud to be counted among them.
    At this time I welcome any questions you may have.
                                 ______
                                 
 Responses by Marcus Peacock to Additional Questions from Senator Thune
    Question 1. Please provide me with more information regarding the 
site assessments that have been conducted to date at the NPL sites in 
Alabama, Louisiana and Mississippi.
    Response. EPA performed initial visual assessments at the 24 
National Priority List (NPL) sites in the areas of Louisiana, 
Mississippi and Alabama that were in the path of Hurricane Katrina. 
Initial assessments were conducted to determine if these sites had 
sustained damage that warranted immediate action. EPA then completed a 
second round of site visits and conducted confirmatory sampling at 
these sites. When the results of the sampling have been analyzed, 
validated and interpreted, the information will be posted on the EPA 
website. A status report on EPA assessment of these NPL sites can be 
found on the EPA website at http://www.epa.gov/katrina/superfund.html

    Question 2. What is the current status of Underground Storage Tanks 
in the Gulf Coast region? In particular, has there been any reported 
leaks, ruptures or spills?
    Response. EPA is currently working with the States to assess the 
condition of underground storage tank (UST) facilities in the Gulf 
Coast Region. Approximately 1700 UST facilities are estimated to have 
been in the hurricane impact areas. The affected States identified 
approximately 800 facilities that may have had hurricane related damage 
and are in need of preliminary site assessments. Through FEMA's mission 
assignments, EPA and State inspectors have conducted preliminary 
inspections to determine facility operability at these facilities. A 
relatively small number of facilities have had site assessments to test 
for subsurface contamination, though EPA does not have a specific 
accounting of the number of sites. In addition to the actively 
operating facilities, approximately 350 facilities in the impacted area 
were undergoing remediation at the time of the hurricanes. EPA does not 
have an accounting of the number of these facilities that have been 
identified for damage to corrective action equipment, nor of the number 
of facilities that have undergone additional assessment to determine 
the affect of the storm on the existing contamination. Louisiana's 
``Plan for Evaluating Underground Storage Tank Sites Impacted by 
Hurricane Katrina'' requires all impacted UST systems to be evaluated 
to determine if they are suitable for returning to operation, and to 
have tightness tests within 6 months of returning a system to 
operation.

    Question 3. What is the current status of Chemical facilities in 
the Gulf Coast Region?
    Response. Relying upon the lists of regulated facilities that 
manage hazardous chemicals maintained by the States and EPA, EPA began 
gathering information on chemical facilities in the potentially 
affected areas immediately after the hurricane made landfall. Low level 
helicopter flyovers, known as Rapid Needs Assessments (RNAs), were 
conducted to do initial assessments of the status of facilities and 
determine any major environmental releases. The RNAs revealed no major 
environmental chemical releases from any facility. Concurrently, 
detailed facility information such as geographic location, chemicals 
stored or manufactured onsite, and facility contact information from 
EPA's regulatory reporting data bases (TRI, RMP, FRP, RCRA) was 
provided to field response teams to both ensure safety and prioritize 
facilities for ground reconnaissance actions. EPA is coordinating with 
Federal partners and States in conducting these more detailed facility 
evaluations and has used many methods to determine status such as 
aerial flyovers, field team evaluations, and telephone communications 
with facility personnel. The detailed facility evaluations are 
continuing, and are confirming the RNA conclusions.

    Question 4. As the author of S. 1761, the ``Gulf Coast Recovery 
Act'' I would appreciate knowing more about how the Environmental 
Protection Agency (as well as your private sector partners) are 
impacted by the threat of litigation in post-disaster clean-up efforts.
    Response. EPA is not currently impacted by the threat of litigation 
in its post-disaster clean-up efforts. The Agency's approach has been 
and will be to act within its statutory authorities when responding to 
the disaster. EPA is not in a position to speak on behalf of its 
private sector contractors regarding how the threat of litigation may 
affect their actions.
                                 ______
                                 
          Responses by Marcus Peacock to Additional Questions 
                         from Senator Voinovich
    Question 1. Many of the complaints after Hurricane Katrina have 
focused on the lack of coordination among Federal, State, and local 
agencies. In what ways can we improve this level of coordination and 
cooperation to ensure future disasters are handled in an efficient 
manner?
    Response. EPA has not encountered coordination problems to date. We 
continue to work with Federal, State and local officials as directed by 
the National Response Plan. In most cases, EPA is assisting State 
cleanup efforts based on requests from the States. These State 
assistance requests are conveyed to FEMA and subsequently issued as 
mission assignments to EPA. EPA is also in frequent contact with local 
officials (Parish, County and Municipal officials) to coordinate and 
tailor EPA actions to the needs of individual municipalities. At the 
Federal level, EPA is participating at the Joint Field Offices 
established by FEMA and is in frequent contact with other Federal 
partners, including the US Army Corps of Engineers and the Department 
of Health and Human Services.
    In the future, EPA believes that the full implementation of the 
National Incident Management System, through the Department of Homeland 
Security, will provide continuous coordination improvement at all 
levels during a major incident. Once implemented, this system will 
ensure a consistent management structure under the National Response 
Plan for State, local and Federal response personnel and will provide a 
common operating framework for all involved.

    Question 2. In your testimony, you mentioned that the recovery 
efforts enlisted the help of more than 1,100 EPA staff and contractors. 
Do you believe the EPA has the resources to handle multiple disasters 
that could possibly confront the United States?
    Response. After the terrorist attacks of September 11, 2001, EPA 
developed a plan to strengthen its emergency response capability to 
address the possibility of multiple, large-scale incidents. This plan, 
called EPA's National Approach to Response, further improved 
consistency across EPA Regional response programs and advanced the 
Agency's ability to draw on its national assets to respond to multiple 
incidents. While it is not be possible to predict every potential 
disaster, EPA has specifically developed and practiced its ability to 
deal with multiple disaster scenarios. For this hurricane response, EPA 
has been able to adequately handle resource needs.

    Question 3. Was there a written plan at EPA for responding to a 
major natural disaster?
    Response. EPA has substantial experience responding to natural 
disasters, including hurricanes. The National Response Plan (NRP) is 
the primary guiding document for the Federal Government's response to 
natural disasters and other Incidents of National Significance. The NRP 
lists EPA as the primary agency for Emergency Support Function #10, 
which addresses the Federal response to releases or potential releases 
of oil and hazardous materials. The NRP also assigns EPA support roles 
to numerous other Emergency Support Functions lead by other agencies. 
EPA's National Contingency Plan serves as guiding document for our 
responses under the NRP.

    Question 4. What lessons did EPA learn as a result of 9/11?
    Response. Following the events of 9/11, EPA implemented a new 
Agency-wide National Approach to Response for Incidents of National 
Significance (INS). To implement the national approach, EPA identified 
priority action plans that resulted in:
    <bullet> the preparation of a comprehensive roster of EPA employees 
(beyond the emergency response staff) who can be called upon to assist 
during an INS;
    <bullet> enhanced attention to health and safety protocols for 
responders;
    <bullet> an Incident Command System (ICS) training and exercise 
program for emergency response personnel and others;
    <bullet> purchase of appropriate field and telecommunication 
equipment and improvements for consistent contracting capacity and 
capability; and
    <bullet> policies and procedures to assure consistent use of 
information technology systems in the field for formatting, review and 
storage of laboratory data.
    These activities contributed significantly to the Agency's overall 
ability to respond in an efficient and effective manner and have 
contributed greatly to our success in handling Hurricane Katrina. I 
would also like to note that our lessons learned reports from the 
events of 9/11 were quickly sent to EPA senior management after Katrina 
made landfall.

    Question 5. I understand that in a recently released report, the 
CDC and EPA have identified 13 environmental health issues, including 
drinking water, wastewater, solid waste and debris, and sediments and 
soil contamination from toxic chemicals. Could you speak to the 
findings in the report, as they pertain to public safety and health 
concerns for our recovery workers? How important is it that we monitor 
the health concerns of both first responders and those exposed to these 
``substances of concern?''
    Response. EPA and CDC jointly released a report entitled 
``Environmental Health Needs and Habitability Assessment'' on September 
17, 2005. This report lists 13 key areas affecting the rehabitation of 
New Orleans. A complex array of environmental health problems exist in 
New Orleans. The report specifically identified worker health and 
safety as an essential condition of rebuilding New Orleans. EPA has 
been working with OSHA to provide information on environmental health 
hazards so that responders can take the proper precautions to protect 
themselves. In addition, EPA has conducted a wide variety of 
environmental sampling activities to provide data on potential hazards. 
The results of this data analysis have been used to identify hazards 
and provide advice and guidance to both workers and the public in New 
Orleans. EPA has also widely disseminated materials that provide 
information on environmental health hazards in the hurricane affected 
areas to Federal, State and local officials, as well as directly to 
returning residents. With regard to monitoring of health concerns, all 
EPA response personnel must have appropriate health and safety training 
and participate in a medical monitoring program before being deployed 
for field work.
                                 ______
                                 
 Responses by Marcus Peacock to Additional Questions from Senator Obama
    Question 1. Senator Coburn and I introduced a bill recently to 
appoint a chief financial officer in the Executive Office of the 
President to oversee hurricane reconstruction efforts. The bill is 
meant to ensure that there is oversight on the front end before money 
is spent, instead of after the money has gone out the door.
    Already, we've seen some disturbing examples of poorly spent money. 
A few weeks ago, Senator Coburn and I highlighted a $200 million 
contract that FEMA signed with Carnival Cruise Lines to house evacuees 
and rescue workers. Under this contract, taxpayers are paying $2,500 a 
week per person housed on the ship--four times the cost of a 7-day 
Caribbean cruise, which includes entertainment.
    Please describe how your agency is ensuring that reconstruction 
funds are being well spent.
    Response. EPA's work under Emergency Support Function (ESF) #10 of 
the National Response Plan is funded through Mission Assignments from 
FEMA using the authority of the Stafford Act. Shortly after the 
Hurricane Katrina emergency, EPA developed the Katrina Stewardship. The 
purpose of this plan is to ensure the prudent stewardship of taxpayer 
funds for current and future cleanup and recovery activities resulting 
from Hurricane Katrina and other recent hurricanes. EPA periodically 
reviews and monitors established controls governing utilization of 
agency resources and transaction activity supporting hurricane relief 
efforts. The majority of EPA expenditures have used competitive 
contracts with pre-negotiated rates that are used in support of the 
Agency's removal actions.

    Question 2. Are there instances when multiple agencies are involved 
in contracting and procurement decisions? When that happens, who 
coordinates oversight over these financial decisions?
    Response. There may be times when multiple agencies would 
collaborate on contracting and procurement decisions. Generally, one of 
the agencies' procurement offices would be designated as the lead, and 
would be responsible for executing the required procurement steps using 
its own oversight functions. The lead agency coordinates the effort 
from requirement definition to final award.

    Question 3. In your testimony, you mention that 84 percent of the 
drinking water systems in the Gulf Coast are fully operational and an 
additional 8 percent of the systems are producing water that must be 
boiled.
    How long will it take before all the people of the Gulf Coast have 
safe drinking water? Will it be weeks or months?
    Response. Over 4,000 public water systems serving over 15 million 
people in the Gulf Coast were affected by Hurricanes Katrina and Rita. 
Significant progress has been made since the hurricanes struck to bring 
systems back on line. As of early January, 2006, all but 71 of these 
systems have returned to safe operations. These remaining 71 systems 
are located in Louisiana (41) and Mississippi (30).
    In Mississippi, all municipally owned community water systems are 
back in operation. The 30 remaining systems are either community water 
systems that are not municipally owned (9) or are not considered 
community water systems (21). These systems are either not operating 
(12), operating under a boil water notice (13), or completely destroyed 
(4).
    In Louisiana, the 41 systems that are not fully operational have 
either been inactivated and are no longer operating (35), tied into 
another water system (4), or are under boil water advisory for some 
portion of the distribution system (2). The vast majority of the 
inactivated systems were non-community water systems serving such 
places as schools, factories, office buildings, and campgrounds, many 
of which may not be open for business.
    For these non-community water systems and non-municipal community 
water systems, the decision to come back into service as a water supply 
is a decision made by the business owner. It is therefore difficult to 
determine a timeframe for when they might be back in service.

    Question 4. What can we proactively do to ensure that other natural 
disasters do not cause the same damage to our drinking water systems?
    Response. Over the past several years, EPA has developed several 
tools for utilities to prepare for emergencies. The Agency works 
closely with the Association of State Drinking Water Administrators, 
the American Water Works Association, the Association of Metropolitan 
Water Agencies, and the National Rural Water Association to develop and 
disseminate materials on protecting critical water infrastructure. With 
respect to hurricanes, EPA has posted 43 activities on its website that 
drinking water and wastewater systems can take to protect their 
facilities from damage in anticipation of a hurricane. We are still in 
the mode of collecting and analyzing information on the effects of the 
hurricanes on water systems in Louisiana, Mississippi, and Texas. EPA 
expects that evaluations by EPA, State staff and industry experts will 
identify ``lessons learned'' that we will be able to use to develop new 
information and guidance for utilities.
                                 ______
                                 
          Responses by Marcus Peacock to Additional Questions
                         from Senator Jeffords
    Question 1. In July 2004, emergency officials conducted a planning 
scenario in Louisiana to address a Category 3 hurricane. The debris 
team for this exercise estimated that the storm would result in 30 
million cubic yards of debris and 237,000 cubic yards of household 
hazardous waste. How are EPA and the Corps working together to manage 
this large quantity of debris, including hazardous materials and the 
potential air quality impacts of any open burning?
    Response. The U.S. Army Corps of Engineers (USACE) has been tasked 
by FEMA under ESF-3 with debris removal. EPA's role addresses recovery 
and disposal of hazardous materials, including industrial containers 
and household hazardous waste. EPA is also overseeing segregation of 
hazardous materials from general debris and distributing information to 
the public. Each of the affected States has developed an overall Debris 
Management Plan. EPA and USACE are working closely together in 
coordination with State and local authorities to provide assistance on 
the management of Hurricane debris and hazardous waste. EPA and USACE 
activities may vary among counties, parishes and municipalities to 
accommodate their needs.
    EPA is also consulting with State, local and Federal officials on a 
number of debris disposal option. In some cases, EPA will conduct air 
monitoring during test burns or at burn sites.

    Question 2. Mr. Peacock, one of the lessons learned from September 
11th was that first responders must be provided with good information 
about health precautions they should take while they are participating 
in rescue operations. What steps is the Agency taking to ensure that 
first responders and the public are aware of the magnitude of the 
hazards facing those who choose to return to New Orleans?
    Response. EPA has been disseminating information and 
recommendations on potential hazards to first responders and the public 
through a variety of venues. EPA has posted data and health 
recommendations from samples of floodwater, floodwater sediment and air 
on the Agency website and has issued several health advisories. EPA 
officials have been actively providing information to the print press 
and broadcast media, both in the Hurricane affected areas and with 
national organizations, including Public Service Announcements for 
radio. On the ground, EPA has distributed more than 1,000,000 flyers in 
Louisiana on health hazards, debris management and hazards associated 
with building reentry. As part of our incident command structure, 
health and safety officers provide guidance to EPA field responders on 
a daily basis on the hazards they may encounter and what protection is 
required.

    Question 3. Mr. Peacock, after the Galveston Hurricane struck that 
city in 1900, drinking water services were restored a week after the 
hurricane hit. According to your October 4th update, there are 95 
drinking water systems out of operations in Louisiana, 36 in 
Mississippi, and 124 in Texas. What needs to be done to get these 
systems up to speed faster? Specifically, are people, money, or 
authority limiting factors for the EPA?
    Response. Over 4,000 public water systems serving over 15 million 
people in the Gulf Coast were affected by Hurricanes Katrina and Rita. 
Significant progress has been made since the hurricanes struck to bring 
systems back on line. As of early January, 2006, all but 71 of these 
systems have returned to safe operations. These remaining 71 systems 
are located in Louisiana (41) and Mississippi (30).
    In Mississippi, all municipally owned community water systems are 
back in operation. The 30 remaining systems are either community water 
systems that are not municipally owned (9) or are not considered 
community water systems (21). These systems are either not operating 
(12), operating under a boil water notice (13), or completely destroyed 
(4).
    In Louisiana, the 41 systems that are not fully operational have 
either been inactivated and are no longer operating (35), tied into 
another water system (4), or are under boil water advisory for some 
portion of the distribution system (2). The vast majority of the 
inactivated systems were non-community water systems serving such 
places as schools, factories, office buildings, and campgrounds, many 
of which may not be open for business.
    For these non-community water systems and non-municipal community 
water systems, the decision to come back into service as a water supply 
is a decision made by the business owner. It is therefore difficult to 
determine a timeframe for when they might be back in service.
    We cannot yet accurately estimate the time it will take to bring 
all systems back up to full operation because the recovery is dependent 
on the speed with which their surrounding areas are being restored. 
This is more a matter of time than people or money and will involve the 
Public Assistance Program led by FEMA. To date, EPA's efforts have not 
been hampered by limited authority.

    Question 4. Mr. Peacock, people returning to the New Orleans area 
will be facing health risks within their own homes from mold and 
materials that were left when the floodwaters receded. What is EPA 
doing to determine whether it is safe for people to reoccupy their 
homes?
    Response. Local officials have the authority and are in the best 
position to make decisions regarding the safety of home re-occupancy. 
EPA has been working closely with CDC and the States to ensure that the 
latest public health information regarding mold and environmental 
contaminants is available to the citizens in the Gulf region. For 
example, as early as September 14, EPA, in conjunction with HHS, OSHA, 
and FEMA, issued a press statement and advisory titled ``Potential 
Environmental Health Hazards When Returning to Homes and Businesses''. 
Since that time EPA has been sharing its sampling data and advisories 
with Federal, State and local authorities so that they are well aware 
of and can take appropriate action to mitigate the threats people may 
face.

    Question 5. Do you anticipate any long-term delays in getting 
drinking water and wastewater plants back on line, what financial role 
do you anticipate EPA will play in that process, and do you expect that 
any plants will have to suspend operations due to lack of customers and 
lack of a rate base?
    Response. Several drinking water and wastewater plants were heavily 
damaged. The communities and the State are still evaluating the extent 
of the damage and have yet to determine how long it will take to 
rebuild. The most heavily damaged plants are in areas that have 
currently lost many of their customers and therefore their rate base. 
Considerations about rebuilding the treatment facilities must go hand 
in hand with considerations about rebuilding housing and other aspects 
of the communities. The State Revolving Funds are EPA's primary funding 
source; however, we expect that insurance and FEMA public assistance 
funds will cover most of the costs. The States implement the SRF fund 
but EPA will work with the States if there are any barriers to making 
low interest loans available for rebuilding.

    Question 6. How are you tracking health impacts due to exposure to 
flood waters, contaminated sediments, and other health hazards?
    Response. The State and local health authorities have the lead in 
tracking health impacts. The Department of Health and Human Services 
(HHS) has the Federal lead for assisting these local authorities track 
these health impacts. EPA is assisting in this effort by providing data 
analysis and interpretation of environmental media samples.

    Question 7. In recent press reports, Louisiana and EPA officials 
were quoted as saying that based on the approach being taken to debris 
handling, it is unlikely that dust or contaminants resulting from 
debris removal and structure demolition will wind up in rainwater. Can 
you articulate exactly what steps EPA and the Corps is taking and what 
assurances you have made, if any, to the State of Louisiana that there 
will not be a concern with stormwater runoff in the future?
    Response. Hurricane Katrina created an enormous amount of 
vegetative, building and demolition debris. How communities have 
managed debris generated from Hurricane Katrina depends on the debris 
generated and the management options available. The fate and transport 
of pollutants from debris removal and structure demolition depends on 
the nature of the waste and the management option used.
    The Louisiana Department of Environmental Quality's (LDEQ) general 
approach to debris management is outlined in the ``Hurricane Katrina 
Debris Management Plan'' (Louisiana Department of Environmental 
Quality, Revised October 14, 2005). The LDEQ Debris Management Plan 
gives guidance to local governments. In addition, the US Army Corp of 
Engineers (USACE), Debris Teams operate in compliance with the Plan. 
LDEQ's plan provides specific guidance to prevent stormwater runoff 
contamination by dust or other contaminants resulting from debris 
removal. The plan requires debris to be staged at temporary sites and 
transported to permitted Type III facilities or to emergency disposal 
sites. Under the Plan, the LDEQ must inspect and approve any emergency 
site proposed for debris management, subject to restrictions and 
operating conditions, such as best management practices.
    EPA and the Corp of Engineers continue to work with Louisiana as it 
implements its debris management plan. Where appropriate, EPA will 
recommend best management practices and other measures to address the 
quality of stormwater runoff and other wastewater from these debris 
management activities.

    Question 8. EPA has advised us that the flooding has affected 
significant numbers of drinking water and wastewater facilities, 
petrochemical, and other industrial facilities in Louisiana, 
Mississippi, and Alabama. Is the Agency evaluating the storage and 
handling of potentially hazardous chemicals, such as chlorine, at these 
facilities? What steps is the Agency taking to ensure the security and 
safe handling of chemicals at these facilities?
    Response. As required under the Bioterrorism Act, a drinking water 
utility serving more than 3,300 persons must conduct a vulnerability 
assessment and certify to EPA that the assessment has been completed. 
Vulnerability assessments help water utilities to evaluate their 
susceptibility to potential threats and identify corrective actions to 
reduce or mitigate the risk. The systems must also show that they have 
updated or completed an emergency response plan outlining response 
measures if an incident occurs.
    EPA has helped water utilities and others facilities that manage 
hazardous chemicals take action to protect their infrastructure and 
potentially hazardous chemicals by providing tools, trainings, and 
technical assistance. These tools help utility managers, operators, and 
local officials improve security and plan for emergency situations such 
as experienced during Hurricane Katrina. Many smaller facilities do not 
use hazardous chemicals. Facilities that use chemicals at certain 
threshold levels are required to comply with Risk Management Program 
requirements under the Clean Air Act. These requirements address 
process safety management and accident prevention.

    Question 9. EPA testing found bacteria concentrations up to 19 
times the EPA limits for recreational contact and lead levels 56 times 
the EPA limits for drinking water. This water is being pumped directly 
into the Lake, a recreational resource for the area, with the only 
protection being surface booms and aerators. EPA has said that sampling 
data shows little pollution in the Lake. Can you describe why you 
believe that the sampling plan you have in place is adequate to 
determine the level of pollution throughout the Lake?
    Response. EPA has designed a statistically robust sampling plan 
that will produce scientifically credible results about possible risks 
to human health or the environment in Lake Pontchartrain. We have 
confidence that our combination of probability-based and targeted 
sampling and our broad array of potential contaminants being tested 
shall provide us credible evidence of pollution levels throughout the 
Lake. Probability-based sampling is a widely accepted statistical 
technique for using samples to represent conditions throughout an 
entire area, such as all of the Lake, at a desired level of certainty. 
Targeted sampling is a second technique that involves monitoring 
specific areas that are, for example, of higher human exposure or of 
higher risk for pollution. Further, it should be noted that the 
bacteria and lead detections cited above were in floodwaters, at 
concentrations that were diluted significantly by the large volume of 
the Lake as the pumping occurred over a period of many days. 
Floodwaters were analyzed using drinking water standards, while waters 
in the lake are being analyzed using ambient water quality criteria and 
fish tissue concentrations. EPA and its State and Federal partners will 
continue to analyze water, sediment and fish tissue samples and 
resample as needed until the magnitude of risks to human health and the 
environment in the Lake are understood and verified with confidence.

    Question 10. I understand that the EPA is developing a 5-year 
sampling plan for Lake Pontchartrain in coordination with the State. 
What is your timeframe for completion of that plan, how do you intend 
to pay for its implementation, and what will you be sampling for?
    Response. EPA is unaware of an effort to develop a 5-year sampling 
plan for Lake Pontchartrain in coordination with the State of 
Louisiana. Sampling to date has been part of a broader interagency 
monitoring plan that involved EPA, USGS, USFWS, LDEQ, and FDA. Initial 
testing has been completed and subsequent sampling efforts may be 
needed to monitor longer term impacts, but that determination has not 
yet been made.

    Question 11. One of the items in the September 17 EPA-CDC strategy 
is to engage and communicate with the displaced population. How is this 
being accomplished, and what steps are the agencies taking to ensure 
that average citizens watching the news are aware of the magnitude of 
the potential health threats facing those who return to the city?
    Response. In our efforts to help the New Orleans area recover, EPA 
is using a variety of existing networks to reach individuals. Working 
closely with State and local officials, EPA's approach relies heavily 
on local networks such as the news media, Parish government 
institutions, local retailers, and faith-based and environmental-based 
organizations to reach evacuees.
    <bullet> EPA will continue to issue news advisories/press releases, 
post Web site information, and hold media briefings to disseminate 
information about the potential environmental and health risks 
returning residents may face. EPA's first such release was issued on 
September 4, 2005 and was entitled ``EPA Urges Caution When Re-entering 
Hurricane Damaged Homes and Buildings.''
    <bullet> EPA has provided FEMA pre-recorded interviews with senior 
EPA managers about reentry hazards for broadcast over XM radio and TV 
to evacuee shelters. In addition, EPA personnel fluent in Vietnamese 
have conducted outreach on Vietnamese radio stations in Dallas and 
Houston where there are many displaced Vietnamese residents.
    <bullet> EPA has produced public service announcements (PSAs) and 
informational handouts about a host of cleanup activities that can pose 
potential environmental and health hazards for returning residents. The 
PSAs and handouts are available in English, Spanish and Vietnamese. EPA 
and FEMA are working to cross promote PSAs, and EPA is aggressively 
sending the PSAs to radio stations and has distributed more than one 
million handouts to date.
    <bullet> Also, in outreach activities, EPA provides a daily 5 
minute report on the major Louisiana AM radio station, WWL, about the 
agency's local activities and EPA personnel provide weekly updates on 
Eyewitness Morning News on WWL-TV.
    <bullet> Finally, as the population is returning, EPA is using 
Community Involvement Coordinators to re-engage the citizens and to 
participate in Welcome Home events in Parishes by providing information 
on environmental issues.

    Question 12. The breadth and magnitude of Hurricane Katrina is 
larger than most EPA disaster response work. The recovery from this 
storm will be long-term, and it is likely to be complicated by 
environmental hazards in the area. Is the EPA's existing management 
structure, personnel, and resources equipped to handle a recovery of 
this magnitude?
    Response. EPA has the personnel and resources from the Agency 
Headquarters, all of its 10 Regional Offices, and from our specialized 
response teams to assist in one or more large-scale responses. EPA 
believes that we are well prepared to assist in the recovery from 
Hurricane Katrina.

    Question 13. You have described EPA's role in the days preceding 
and the immediate aftermath of Hurricane Katrina. Knowing what you know 
today, would you have done anything differently?
    Response. To date, EPA's response efforts have shown themselves to 
be effective. This is due in large part to actions that the Agency took 
following the events of September 11, 2001. These actions included the 
implementation of a new Agency wide National Approach to Response and 
priority action plans that resulted in improvements to health and 
safety protocols for emergency response personnel, ICS training, 
purchase of appropriate field and telecommunications equipment, 
improvements for consistent contracting capability and policies and 
procedures to improve consistent use of information technology systems 
in the field for formatting, review and storage of laboratory data. EPA 
has established a process for collecting lessons learned from the 
recent hurricane response and will pursue improvements as needs are 
identified.

    Question 14. Did EPA plan and/or take any steps planned to secure 
or remove hazardous substances in the area in the event of a 
catastrophic flood, which was a known risk for the area? If not, do you 
intend to re-evaluate the Agency's role in this type of disaster 
preparedness to determine if changes are appropriate?
    Response. EPA has a number of regulations in place that require 
industry to address the handling and storage of hazardous substances as 
well as emergency planning and preparedness. We will, however, be 
evaluating lessons learned from this event and will consider any needed 
changes in our regulations as a result of this process.

    Question 15. Does the EPA have adequate lab capacity to handle the 
large number of water quality samples that are being taken?
    Response. EPA has found adequate lab capacity for analysis of the 
water quality samples that are being taken.

    Question 16. Has the EPA used, or do you have plans to use, the 
Drinking Water Emergency Assistance authority in the Safe Drinking 
Water Act?
    Response. EPA can use its Safe Drinking Water Act (``SDWA'') 
Section 1431 authority to authorize use of water which does not meet 
Federal drinking water standards where such use of water is necessary 
to avoid imminent and substantial endangerment to public health, such 
as the lack of an operational public water system. On September 14, 
2005, EPA Region 4 issued a letter under Section 1431 authorizing the 
General Electric Company to temporarily use nonpotable water for 
personal hygiene under certain restrictions for its contractors working 
on projects in Mississippi in areas affected by Hurricane Katrina.
    SDWA Section 1442(b) covers emergency grant-making authority. It 
allows the Administrator to provide technical assistance and to make 
grants to States or publicly owned water systems to assist in 
responding to and alleviating any emergency situation affecting public 
water systems. EPA has not used this grant authority.

    Question 17. Has the Agency considered establishing an advisory 
group to assist the Administration and the State in dealing with 
environmental issues during the recovery process?
    Response. EPA currently has two Federal Advisory Committees in 
place that assist in this effort. During the Hurricane Katrina 
response, the Science Advisory Board (SAB) was asked by the Agency to 
review environmental sampling plans to ensure that they were 
scientifically sound and appropriate for this situation. The National 
Advisory Council for Environmental Policy and Technology (NACEPT) is an 
existing Advisory Committee that can be used by the Agency to provide 
advice and council on any number of environmental issues. This 
Committee has been recently briefed on the Agency's Hurricane Katrina 
response and is available for consultation as needed.

    Question 18. How is EPA participating in Emergency Support Function 
14, administered by FEMA, Long Term Community Recovery operations?
    Response. To date, EPA has participated in several conference 
calls/meetings led by FEMA in both Washington, DC and in New Orleans to 
discuss ESF-14 activities. These meetings have focused on the 
identification of existing Federal programs that can contribute to the 
recovery effort.

    Question 19. Do you have a comprehensive plan to test soil, water, 
and air in affected communities prior to reoccupancy, and will you 
include testing of private drinking water wells in that plan?
    Response. Since early in September, EPA has been conducting 
environmental sampling of flood water, residual sediment, and air 
quality to determine impacts to the city and to advise workers and the 
public on appropriate precautions to take. A comprehensive sampling 
plan was developed for each of these media and reviewed by EPA's 
Science Advisory Board. These sampling efforts will continue as 
necessary to assist State and local authorities in making decisions on 
re-occupancy. EPA has also been working with State drinking water 
programs to help support testing of private wells to ensure that 
homeowners have safe drinking water. The Agency's mobile labs in 
Louisiana and Mississippi have tested hundreds of samples from 
homeowner wells. EPA also provided assistance to the States by making 
available copies of pamphlets that inform homeowners how to manage a 
flooded well. At the request of States, EPA translated the documents 
into Spanish and Vietnamese.

    Question 20. Will the Agency require or encourage the use of clean 
diesel fuel for the recovery and reconstruction operations?
    Response. Yes, EPA has a national program to encourage the use of 
cleaner fuels, including biodiesel, as well as the use of advanced 
after-treatment ``retrofit'' technologies on non-road equipment. The 
application of retrofit technologies can significantly reduce the 
pollution emitted from this equipment. Non-road construction and 
demolition equipment has been critical to the recovery and 
reconstruction effort. In addition, the trucks that are involved in 
these operations cannot only utilize the cleaner fuel but also 
participate in EPA's national reduced idling program as they wait to be 
loaded with debris or off-loaded with construction materials.

    Question 21. It has been reported that some involved in the water 
quality testing in Lake Pontchartrain have said that contaminants found 
in Lake Pontchartrain would either evaporate within days or settle into 
lake bottom sediment. This assessment seems to dismiss the 
environmental and health impacts of contaminated sediments, and give an 
overly optimistic review of the water quality in the Lake. Does EPA 
share the view that contaminated sediments in the Lake do not pose a 
water quality or health threat? Can you describe the Agency's plan to 
determine the degree of contamination in lake sediments?
    Response. Our sediment samples are undergoing laboratory analysis 
at this time, and the tests conducted during this analysis follow 
strict quality assurance and validation requirements to ensure that our 
findings are correct. EPA will not predict what the results may show 
while we await this analysis. The multi-agency plan for testing Lake 
sediments involved gathering both probability-based and targeted 
samples, and testing the sediment for metals, PAHs, PBDEs, PCBs, 
pesticides, and other contaminants that might have been released by the 
storm's impacts on nearby communities. EPA has included substantial 
sediment sampling and testing in our monitoring design throughout the 
affected region. Although it is routine and helpful for scientists to 
offer professional opinions as to where and why contaminants may move 
and eventually settle, such opinions are not conclusive until they are 
paired with and plausibly explain actual monitoring results.
                                 ______
                                 
          Responses by Marcus Peacock to Additional Questions 
                        from Senator Lautenberg
    Question 1. A story in the October 2 New York Times headlined 
``Blanket of Mold Threatens Health and Homes'' reported that trillions 
of mold spores are reproducing inside tens of thousands of buildings. 
The mold ``could sicken the 20 percent of the population that has 
allergy problems, experts say, and could also be dangerous for older 
residents, children and people with weakened immune systems.'' The 
story had conflicting views on whether mold could also cause birth 
defects and cancer.
    The story went on to say that ``Officials at the state Department 
of Health, and Hospitals, the agency primarily responsible for mold 
mitigation, said the department was so overwhelmed with other flood-
related work that it could not inspect homes or analyze the potential 
health risks of mold, beyond disseminating information on its Web 
site.''
    What is the administration (EPA or otherwise) doing specifically to 
assess the mold problem in New Orleans (and elsewhere), address 
whatever risks it poses, and communicate those risks to citizens?
    Response. EPA has coordinated with CDC, OSHA, FEMA and other 
Federal, State, and local agencies to provide information and guidance 
to the public on mold-related issues. EPA has been aggressive in 
distributing mold information and developing additional information 
that will allow homeowners to take appropriate action to address mold 
contamination.

    Question 2. Is the threat posed by mold great enough that it should 
be influencing people's decisions to return to New Orleans, (or 
elsewhere in the Gulf)?
    Response. Household mold can be a health hazard if not properly 
addressed. Since mold conditions and cleanup challenges in homes and 
buildings in New Orleans will vary depending on exposure to floodwaters 
and construction materials, residents should consult with local 
officials to inquire about conditions in their neighborhood.
    CDC, with input from EPA and OSHA, has issued ``Mold, Prevention 
Strategies and Possible Health Effects in the Aftermath of Hurricanes 
Katrina and Rita''. The report says that people should limit their 
exposure to mold and that some people may be affected to a greater 
extent than most healthy adults by exposure to mold--they include 
infants and children, elderly people, pregnant women, people with 
respiratory conditions, and people with weakened immune systems.

    Question 3. Katrina has resulted in widespread spills of oil, 
industrial chemicals, household hazardous waste, and other toxins. 
Contaminants in the floodwaters such as chemicals, bacteria, and 
viruses, once they have dried, could become airborne dust that may pose 
a serious health risk to citizens.
    EPA has generally deferred to the State and local authorities as 
far as communicating potential health risks to the public, and for 
deciding whether or not it is safe for citizens to return to a 
particular area, given the risks of exposure to these and other 
contaminants.
    What specifically is EPA doing to assess the risks posed by the 
various dried contaminants?
    Response. EPA is conducting air monitoring for Particulate Matter, 
Polycyclic Aromatic Hydrocarbons, metals, asbestos, and volatile 
organic compounds in Orleans, St. Charles, St. Tammany, and Jefferson 
Parishes.

    Question 4. What steps is EPA taking to ensure that the public has 
a full understanding of the health risks they may face in returning to 
their neighborhoods, such as land contaminated with oil and chemicals 
or airborne dust comprised of dried bacteria, viruses, metals or 
chemicals?
    Response. EPA disseminates information and recommendations on 
potential hazards to first responders and the public through a variety 
of venues. EPA has posted data and health recommendations from samples 
of floodwater, floodwater sediment and air on the Agency website and 
has issued several health advisories. EPA officials provide information 
to the print press and broadcast media, both in the Hurricane affected 
areas and with national organizations, including Public Service 
Announcements for radio. On the ground, EPA has distributed more than 
1,000,000 flyers in Louisiana on health hazards, debris management and 
hazards associated with building reentry. As part of our incident 
command structure, health and safety officers provide guidance to EPA 
field responders on a daily basis on the hazards they may encounter and 
what protection is required.
                               __________
  Statement of Hon. John Paul Woodley, Assistant Secretary for Civil 
                       Works, Department of Army
    Mr. Chairman and Members of the Committee:
                              introduction
    I am John Paul Woodley, Jr., Assistant Secretary of the Army for 
Civil Works. Lieutenant General Carl Strock, Chief of Engineers and I 
are here to discuss the Corps of Engineers relief and recovery efforts 
in the wake of Hurricane Katrina.
                               background
    The Corps of Engineers responds to natural disasters under the 
direction of the Federal Emergency Management Agency, is engaged in 
disaster response as part of its own flood and storm damage reduction 
and commercial navigation mission responsibilities, and acts in support 
of military missions as part of the Department of Defense. The Corps 
plays a major role in rescue efforts, provides water and shelter, and 
is setting the stage for recovery through its mission for debris 
removal and restoration of critical infrastructure and navigation. This 
work is done largely by civilians. There are 34,000 people in the Corps 
of Engineers including both the civil works and military programs, but 
only about 600 of them soldiers like Lieutenant General Strock. When we 
talk about the Corps of Engineers on the ground in the disaster area, 
it is the Corps' civilian public servants that come from all over the 
country to respond. I am proud of the more than 2,900 employees that 
the Corps currently has deployed in the areas affected by Hurricane 
Katrina and those who are responding to Hurricane Rita. These good 
people are responsible for determining requirements and for engaging 
and supervising private contractors to carry out the work. The Corps' 
working relationship with local authorities, private citizens and 
contractors, as well as with other Federal agencies is a very 
significant part of its mission.
                     the corps on the ground today
    I visited the Hurricane Katrina disaster area on September 16 and 
17, prior to Hurricane Rita. I am proud to report the fine work being 
accomplished by Corps of Engineer personnel and other dedicated 
professionals throughout the region. The Coast Guard's Vice Admiral 
Thad Allen, the Principle Federal Official, confirmed that Task Force 
Hope, the Corps of Engineers group, is an important part of the Federal 
response team.
    I also conferred with Chuck Brown, Assistant Secretary of 
Louisiana's Office of Environmental Service about their success working 
with the Corps.
    When I flew over both the city of New Orleans and the Gulf coast to 
Biloxi on September 17, the devastation was immense. But, I saw a 
recovery process already well on its way: temporary roads built to 
enable access to critical work sites, the breaches in the 17th Street 
Canal and the London Street Canal closed and the majority of the city 
un-watered.
    In Gulfport, Mississippi, I met with the State Adjutant--General 
Major General Harold Cross who reported the seamless integration of the 
Corps of Engineers into the disaster response support to Mississippi.
    The New Orleans District is in the process of reconstituting its 
organization. These brave men and women are temporarily working at 
various locations between their headquarters building in New Orleans 
and the Engineer District headquarters in Vicksburg as they support the 
relief effort even after many of them have suffered the loss of homes 
and valued possessions.
    After my visit I am assured that the Corps is successfully postured 
to continue its support to both FEMA and the Department of Defense in 
their response to the disaster as well as continue with our ongoing 
civil works mission throughout the Nation.
               corps disaster relief and recovery efforts
    The Corps' current efforts from FEMA (for Katrina) will cost about 
$3.2 billion. The Corps has transferred $64 million from other Corps 
accounts to the Flood Control and Coastal Emergencies program since 
Hurricane Katrina and has also received $200 million in supplemental 
appropriations for this program. There is also an additional $200 
million in supplemental appropriations for the operation and 
maintenance program, which will fund repairs to water resources 
projects owned and operated by the Corps that were damaged by Hurricane 
Katrina, both flood and storm damage reduction projects and Federal 
commercial navigation harbors and channels.
    Lieutenant General Strock will provide more specifics on the 
results of their efforts.
              the corps' future role in the disaster area
    While the Corps is focused on disaster relief and recovery, 
including un-watering New Orleans and surrounding areas, the 
Administration stands ready to work with local and State officials as 
they plan for the future of New Orleans and the rest of the Gulf Coast. 
As we know, New Orleans has a particular challenge because much of the 
city lies below sea level. The Corps of Engineers will work with the 
State, city, and parish officials to design and build a flood and storm 
damage reduction system that is better than before the storm; and these 
local officials will have a large part in the engineering decisions to 
come.
    The Corps has completed a reconnaissance study that assesses the 
general engineering feasibility, the economic justification, and the 
potential environmental implications of providing additional flood and 
storm protection to New Orleans and the surrounding area. More analysis 
is required to evaluate a range of options and determine the best way 
to reduce the risk of future flood and storm damages, and I am looking 
to the Corps, local officials, and all interested persons to advance 
these investigations as expeditiously and cost-effectively as possible.
    We are especially mindful that the coastal wetlands ecosystem can 
provide a buffer against the impacts of some storms and thus serves as 
the foundation upon which projects to reduce the risk of storm damage 
to the urban areas of the Louisiana coast are constructed. The 
Administration is working with Congress and the State of Louisiana to 
develop an appropriate, generic authorization for the Louisiana Coastal 
Area Ecosystem Protection and Restoration Program that will expedite 
the approval process for projects and their implementation while 
providing greater flexibility in setting future priorities and 
increased opportunities for application of adaptive management 
decisionmaking.
                               conclusion
    Mr. Chairman, this concludes my statement. I look forward to 
working with you on matters of mutual interest and concern. Following 
Lieutenant General Strock's statement, I would be pleased to answer any 
questions you or the other Subcommittee members may have.
                                 ______
                                 
   Responses by Hon. John Paul Woodley, Jr., to Additional Questions 
                           from Senator Thune
    Question 1. Could you please update me regarding the Army Corps' 
position regarding water levels on the Missouri River? In particular, 
is the Corps in any way considering deviating from the Master Control 
Manual?
    Response. The Corps' intent is to operate the Missouri River 
Mainstem Reservoir System strictly in accordance with the Master 
Control Manual. At the present time, the Corps is carefully monitoring 
conditions on both the Missouri and Mississippi Rivers and we do not 
believe that an emergency situation exists at this time.

    Question 2. As a result of Hurricane Katrina, is there anything 
that will slow or impede the Corps work regarding the Cheyenne River 
Sioux emergency water intake that is underway pursuant to P.L. 84-99?
    Response. The Cheyenne River Sioux emergency water intake work is 
not currently being impacted by Hurricane Katrina efforts. Potential 
funding impacts could arise if future Emergency Supplemental 
Appropriations Laws limit the funding to projects impacted by 
Hurricanes Katrina, Rita, and Ophelia. In that event, the Corps would 
need to identify an alternate source of funds for the project by 
January 2006 to allow the project to continue on schedule.

    Question 3. As the author of S. 1761, the ``Gulf Coast Recovery 
Act'' I would appreciate knowing more about how the Army Corps of 
Engineers (as well as your private sector partners) are impacted by the 
threat of litigation in post-disaster clean-up efforts.
    Response. The Corps of Engineers conducts its emergency recovery 
efforts in accordance with Federal law and Corps regulations and the 
threat of litigation does not influence the execution of our missions.
                                 ______
                                 
   Responses by Hon. John Paul Woodley, Jr., to Additional Questions 
                         from Senator Voinovich
    Question 1. If the funding was available for all of the Army Corps 
of Engineers projects in the area affected by Hurricane Katrina--at the 
Corps' capability level--would this have mitigated many of the problems 
faced in the disaster area?
    Response. The impacts of the funding levels are not known at this 
time. There is no single answer to the question as to why there were 
failures in the hurricane protection system, as there were multiple 
breaches of levees and floodwalls at a number of locations and the 
exact failure mechanism of each is likely to be different. The answer 
to this will follow from a thorough analysis of the data that the Corps 
of Engineers is now collecting. What we have to date is evidence of 
what happened; we can see the final result of the structural behavior, 
but we cannot yet determine why. That will require more understanding 
of the design intent of each structure, its condition prior to the 
storm, the forces to which it was subjected, and the ability to at 
least simulate how the structure would respond to those forces. This is 
the objective of the Corps' current interagency analysis efforts.

    Question 2. The Corps completed the reconnaissance study on whether 
to strengthen coastal Louisiana's hurricane damage reduction projects 
to protect against Category 4 and 5 storms in August 2002. Funding for 
the feasibility study was included in the Fiscal Year 2005 Omnibus 
Appropriations bill and the Senate Fiscal Year 2006 Energy and Water 
Appropriations bill, at the request of the Louisiana congressional 
delegation. The Administration's budget request has never included 
funding for this project. Has the Corps ever recommended funding to be 
included in the Administration's budget for the feasibility study? If 
the Corps has not requested funding for the feasibility study, why not?
    Response. The reconnaissance report for the Hurricane Protection, 
LA project was completed in August 2002. After the reconnaissance study 
was started with a congressional add in fiscal year 2001, the 
Administration requested funds for this project in each of its budget 
submittals for fiscal years 2002--2004 ($100,000, $125,000, and 
$100,000, respectively). The actual allocations received for the 
project for fiscal years 2001--2004 were $75,000, $215,000, $85,100, 
and $124,000, respectively. To date, a feasibility study cost sharing 
agreement has not been executed between the Government and a non-
Federal sponsor. For fiscal years 2005 and 2006, the Administration did 
not request funding for this project. The Congress appropriated 
$100,000 for fiscal year 2005 ($79,000 was allocated) and $8 million 
for fiscal year 2006.

    Question 3. What are your plans for expediting the Category 5 
feasibility study?
    Response. The Conference Report to the fiscal year 2006 Energy and 
Water Development Appropriations Act directs me to submit a preliminary 
technical report for comprehensive Category 5 protection within 6 
months of enactment of the Act and a final technical report for 
Category 5 protection within 24 months of enactment of this Act. In 
doing so, I am to consider providing protection for a storm surge 
equivalent to a Category 5 hurricane within the project area and may 
submit reports on component areas of the larger protection program for 
authorization as soon as practicable.
                                 ______
                                 
   Responses by Hon. John Paul Woodley, Jr., to Additional Questions 
                           from Senator Obama
    Question 1. Senator Coburn and I introduced a bill recently to 
appoint a chief financial officer in the Executive Office of the 
President to oversee hurricane reconstruction efforts. The bill is 
meant to ensure that there is oversight on the front end before money 
is spent, instead of after the money has gone out the door.
    Already, we've seen some disturbing examples of poorly spent money. 
A few weeks ago, Senator Coburn and I highlighted a $200 million 
contract that FEMA signed with Carnival Cruise Lines to house evacuees 
and rescue workers. Under this contract, taxpayers are paying $2,500 a 
week per person housed on the ship--four times the cost of a 7-day 
Caribbean cruise, which includes entertainment.
    Please describe how your agency is ensuring that reconstruction 
funds are being well spent.
    Response. We are using our established procurement methods and 
existing emergency response procedures and procurement oversight 
procedures. The U.S. Army Corps of Engineers routinely manages 
emergency response operations. As a part of our planning process, based 
on the lessons learned from previous events, we establish procedures to 
cover all phases of our efforts to support FEMA. The Corps has teams 
that are trained and ready to move into impacted areas at FEMA's 
request, to provide necessary support like ice, water, temporary power, 
roofing, and debris removal, or temporary housing. In cooperation with 
FEMA, we established pre-placed contracts to enable quick reaction to 
emergencies like Hurricane Katrina. This gives us time to transition to 
a more long-term solution when that is necessitated by an event the 
magnitude of Katrina. We are using our established oversight 
procedures, with some augmentation. First--using our planned response 
techniques, we rely on existing contracting offices and technical staff 
for much of the work. We will also be using our normal approval chain 
for acquisition plans and Justifications & Approvals for exemptions to 
full and open competition. This would include Department of the Army 
approval for higher dollar value acquisitions. One of the greatest 
needs in a response of this magnitude is for Quality Assurance and 
Technical staff to oversee the work. We are working with many agencies 
that are supplying qualified staff members for tasks such as quality 
assurance operations. We are grateful to Federal Agencies such as the 
Bureau of Recreation, the Army Materiel Command, the Department of 
Agriculture, the Engineer School at Fort Leonard Wood and even retired 
USACE employees who are providing staff to augment our operations. Our 
Internal Review staff also teams with the Defense Contract Audit Agency 
and Army Criminal Investigative Division to oversee many Corps 
practices, to include contracting.

    Question 2. Are there instances when multiple agencies are involved 
in contracting and procurement decisions? When that happens, who 
coordinates oversight over these financial decisions?
    Response. The standard practice for the recovery missions assigned 
to the Corps of Engineers is for the Corps to lead its contracting and 
procurement actions with funding provided by FEMA. If the Corps 
requires expertise from other agencies, funding is provided as 
necessary and those agencies would oversee any contracting and 
procurement actions that they deem necessary.

    Question 3. In your testimony, you indicate that the Corps has 
completed a study on the economic justification for providing 
additional flood and storm protection to New Orleans and the 
surrounding area.
    What did that study conclude? Should additional protection be given 
to New Orleans and the surrounding area?
    Response. The reconnaissance study concluded Federal interest to 
proceed to a feasibility study based on the analyses conducted for 
category 4 protection for the East Jefferson Subasin.

    Question 4. How much will this cost?
    Response. A comprehensive analysis for the entire study area was 
not addressed.

    Question 5. I've heard concerns that the amount of flood protection 
that the Corps provides is related to the amount of the potential 
property damage.
    Is this true? If so, does this mean that working folks get less 
flood protection because their houses are worth less than the houses of 
millionaires?
    Response. Flood damage analyses include an assessment of physical 
damages, income loss, and emergency costs, and therefore the value of 
the structures being protected is only one of the benefit categories 
that are evaluated. It would be premature to venture an assessment as 
to the economic justification or level of protection for any of the 
alternatives for increased hurricane protection for the area.

    Question 6. How are agricultural lands valued? Do you calculate the 
loss of future crops or just the value of the real estate?
    Response. The Corps policy in design of flood damage reduction 
projects is to provide an optimum degree of protection consistent with 
safety of life and property. The Corps seeks an economically efficient 
degree of protection and land use in agricultural areas, and acceptable 
reduction of risks and preservation of environmental values in 
protecting other rural and urban areas. Benefits are categorized 
according to their effect as inundation reduction benefits, 
intensification benefits, or location benefits. Inundation reduction 
benefit is the value of reducing or modifying the flood losses to the 
economic activity using the flood plain without any plan. Inundation 
reduction benefits are usually measured as the reduction in the amount 
of flood damages or related costs (those which would be voluntarily 
undertaken by economically rational individuals to reduce damages). 
Intensification benefit is the value of more intensive use of the land 
(e.g., a shift from lower to higher value crops or higher crop yields). 
Location benefit is the value of making flood plain land available for 
a new economic use (e.g., where a shift from agricultural to industrial 
use occurs). The evaluation of the future condition will depend on the 
project alternatives and their impacts on the value and use of the 
property.
                                 ______
                                 
  Response by Hon. John Paul Woodley, Jr., to an Additional Question 
                         from Senator Jeffords
    Question. The breadth and magnitude of Hurricane Katrina is larger 
than most Corps disaster response work. The recovery from this storm 
will be long-term. The Corps' mission is broader than usual given the 
Agency's responsibilities for the flood protection measures in the 
region. Does the Corps have the money, people, and authority it needs 
to handle a recovery of this magnitude?
    Response. The Corps is the world's largest public engineering, 
design, and construction management agency. Military and civilian 
engineers, scientists, and a range of other specialists work hand-in-
hand--in division and district offices located throughout the world and 
at four major laboratories and research centers--to provide leadership 
in engineering and environmental matters. They are prepared to meet the 
demands of changing times and requirements, including emergencies.
    In addition, the private sector is an essential element of the 
engineer team. The Corps employs private architectural, engineering, 
and construction firms for a high percentage of its design and all of 
its construction work. The partnership between the Corps and the 
private sector represents an immediate force multiplier of several 
hundred thousand architects, engineers, and builders and is readily 
convertible to support the Nation in times of national emergency.
                                 ______
                                 
   Responses by Hon. John Paul Woodley, Jr., to Additional Questions 
                          from Senator Inhofe
    Question 1. What is the status of efforts to repair the levee 
system to its pre-Katrina level? Is the Corps moving forward with the 
intent of simply replacing what was there? Or are you looking at other 
design options?
    Response. With our contractors, we are working around the clock on 
the levees and floodwalls to provide an interim level of protection to 
see the city through this hurricane season, which continues until the 
end of November, and the rainy season that the city normally 
experiences in December and January. The goal of this effort is to 
restore the pre-storm level of protection before the start of the next 
hurricane season, which begins in June 2006. The Corps has established 
an independent performance evaluation task force to provide credible, 
objective engineering and scientific answers to fundamental questions 
about the operation and performance of the hurricane protection 
projects in the New Orleans metropolitan area that were flooded by 
Hurricane Katrina. As we learn we will immediately act to incorporate 
those findings into the interim and long term work in which we are 
engaged.

    Question 2. What kind of interactions with other agencies, the city 
or the state taking place to ensure that decisions as to when and where 
people will return are coordinated with the Corps' decisions on 
rebuilding the levee system?
    Response. The Corps will work in close partnership with the states 
of Louisiana and Mississippi, the city of New Orleans, and other Gulf 
Coast cities, so they can rebuild in a thoughtful, well-considered way. 
The Corps is likely to have an active role in the restoration of public 
infrastructure in the disaster zone. We will be fully engaged in the 
effort to further strengthen Federal support for the region affected by 
Hurricane Katrina and Hurricane Rita through the Gulf Coast Recovery 
and Rebuilding Council. In accordance with President Bush's executive 
order of November 1, 2005, the Corps will be not only be responsive to, 
but also proactive in, providing effective, integrated, and fiscally 
responsible support to State, local, and tribal governments, the 
private sector, and faith-based and other community humanitarian relief 
organizations in the recovery and rebuilding of the Gulf Coast region 
affected by Hurricane Katrina and Hurricane Rita.

    Question 3. I believe it would be a mistake to move forward with 
the various projects in the affected area independently, without taking 
a comprehensive look at how these missions can be integrated. For 
instance, rebuilding or expanding a levee that we'll need to breach in 
a couple years as part of our wetlands restoration efforts may not make 
the most sense. What is the Corps doing now or preparing to propose 
doing to ensure this comprehensive integration of activities?
    Response. Our assessment of rebuilding existing projects or 
potential new projects for higher levels of protection includes an 
awareness of the relationship of the Louisiana Coastal Area (LCA) 
project and hurricane protection proposals. Coastal restoration 
provides numerous environmental and ecosystem benefits. These measures 
can also provide elements that will benefit hurricane protection in 
southeast Louisiana. Significant restoration of coastal wetlands and 
barrier islands could offer surge reduction benefits to hurricane 
protection projects. Proposals for hurricane protection and coastal 
restoration will be compatible and complementary.

    Question 4. Earlier this year, this Committee passed a WRDA bill 
that authorizes a program for restoring the coastal wetlands. Where are 
we in assessing the affect of the hurricane on the coastline? Do we 
know yet whether the projects described in the LCA report are still 
feasible and advisable? If not, do we have an approximate timeframe for 
having the necessary assessments and determinations completed? Do you 
need anything from Congress in order to do that?
    Response. The U.S. Geological Survey (USGS) has indicated that 
Hurricanes Katrina and Rita impacted at least 100 square miles of 
marshland along Louisiana's coastline. Wetlands east of the Mississippi 
River suffered the most severe damage, including 39 square miles lost 
from Breton Sound, 14 square miles from the mouth of the Mississippi 
River, and 6 square miles from the lower Pearl River basin. In some 
areas, the USGS stated that the losses exceeded projections for coastal 
erosion over the next 50 years. The projects described in the LCA 
report are not only still feasible, but now even more essential. The 
President has recently requested that $250M of the Federal money 
already provided by Congress in the Emergency Supplemental be 
``reallocated'' for funding wetlands restoration projects that would 
enhance flood protection for the greater New Orleans area.
                               __________
  Statement of Lieutenant General Carl A. Strock, Chief of Engineers, 
          U.S. Army Corps of Engineers, Department of the Army
                              introduction
    Mr. Chairman and distinguished members of the Committee, I am 
Lieutenant General Carl A. Strock, Chief of Engineers. I am honored to 
be testifying before your Committee today, along with the Assistant 
Secretary of the Army (Civil Works), the Honorable John Paul Woodley, 
Jr., on the United States Army Corps of Engineers' activities related 
to Hurricane Katrina. My testimony today will provide a brief 
background and update the Committee on progress made to date on relief 
efforts by the Corps of Engineers in support of FEMA's response and 
recovery mission, as well as an update on the status of the levees 
around the greater New Orleans area and the principal commercial 
navigation channels.
                               background
    The Corps of Engineers responds in three ways to natural disasters. 
First, we act as part of the Federal response under the direction of 
the Federal Emergency Management Agency. Second, we act under our own 
civil works authorities, which in the area impacted by Katrina involve 
principally our flood and storm damage reduction and commercial 
navigation missions. Finally, we provide engineering assistance as 
needed in support of the Department of Defense military forces who are 
responding to the disaster. In all cases, our priorities are to support 
efforts to save lives and find people, to sustain lives through 
provision of water and shelter, and to set conditions for recovery, 
such as debris removal and cleanup, and restoring critical 
infrastructure and navigation.
                            support of fema
    In support of FEMA and the National Response Plan, we are 
responsible for Emergency Support Function 3 (ESF-3), one of 15 
Emergency Support Functions that come together prior to, and during a 
disaster. Under ESF-3, we have a mission to provide ice, water, 
temporary power, and debris removal. For these pre-scripted missions, 
we have standing contracts and we move these capabilities forward to 
major mobilizationsites prior to landfall. From there, we have 
operational support areas that are throughout the disaster area, where 
commodities flow when they are needed.
    We also provide temporary roofing on damaged buildings. In the 
past, we have been requested and had responsibility for the temporary 
housing mission. In the case of Hurricane Katrina, FEMA has elected to 
stand up a task force, the Housing Area Command, which is under the 
direction of FEMA. We will continue to support this with technical 
expertise and execution, but FEMA is handling the temporary housing 
mission now. We also provide other technical assistance at the request 
of FEMA on an as-needed basis.
    Each of these missions is performed by groups of Corps of Engineers 
employees from around the globe who are trained and ready prior to the 
advent of a disaster and know that when a disaster occurs, they will be 
called in to respond. We have them standing by in various stages of 
readiness.
         corps of engineers' inherent mission responsibilities
    In addition to our support of the broader response effort that FEMA 
coordinates, the Corps of Engineers has its own responsibilities in 
flood and storm damage reduction and commercial navigation. For 
example, we conduct surveys of all the structures in the area, both 
navigation and flood and storm damage reduction, and then begin to make 
repairs. We are also working under our PL 84-99 authority with the 
affected parishes to repair levee systems that were damaged during the 
event. Under the flood and storm damage reduction authorities that 
govern the civil works program, we repair Corps owned structures and 
some non-Corps owned structures.
           status of our ongoing efforts in the disaster area
    Volunteers from several Federal agencies have joined the Corps team 
in providing support to FEMA. We are working closely with the Bureau of 
Reclamation, the Environmental Protection Agency, the U.S. Coast Guard 
and the Army Material Command. In addition, Germany and the Netherlands 
have provided equipment and personnel to assist in the hurricane 
recovery. Currently we have nearly 2,900 Corps employees deployed in 
the affected areas. We estimate that meeting our assignments to date 
for Katrina from FEMA will cost about $3.2 billion. We have transferred 
$64 million from other Corps accounts to our Flood Control and Coastal 
Emergencies program since Hurricane Katrina and also have received $200 
million in supplemental appropriations for this program. We have also 
received an additional $200 million in supplemental appropriations for 
our operation and maintenance program, which will fund repairs to water 
resources projects owned and operated by the Corps that were damaged by 
Hurricane Katrina, both flood and storm damage reduction projects and 
Federal commercial navigation harbors and channels.
    To date, more than 4,000 truckloads of water and 2,100 truckloads 
of ice have been delivered. We have conducted pre-installation 
inspections on 875 generators, have installed 267 generators, and have 
de-installed 199 generators because they were no longer needed. We have 
installed more than 32,000 temporary roofs and nearly 67,000 Right of 
Entry forms have been submitted to the Corps by people affected by the 
disaster. We estimate that roughly 105,000 roofs will need temporary 
roofing installed. Finally, we have removed almost 6.9 million cubic 
yards of debris to date.
    The Corps of Engineers is performing a detailed assessment of the 
levee system. The 17th Street and London Canal levees have been closed 
and repaired. The levees in Plaquemines Parish are being repaired now. 
There were a total of twenty-seven levee breaks, including the eight 
deliberate levee breaks we made to assist in the un-watering of New 
Orleans. It is important that leaders and residents understand that 
there is risk to life and property in re-entering flooded areas until 
additional emergency levee repairs have been made. Pumps that are 
designed to remove water must also be returned to an operational 
status. State and local leaders are advised to ensure effective warning 
and evacuation plans are in place as long as protection levels are 
diminished. State and local leaders will be kept informed as 
assessments are complete and repairs are made.
    Prior to Hurricane Rita, we were making steady progress on pumping 
out floodwaters from the city of New Orleans. The arrival of Hurricane 
Rita and the subsequent flooding of parts of the New Orleans area has 
impacted the schedules for un-watering some areas. The un-watering is 
continuing as quickly as possible. The number of pumps that are 
operational at any given time is continually changing. It is expected 
that the 9th Ward and New Orleans East will be un-watered October 5. 
Water removal in Plaquemines is expected to be completed October 18. 
St. Bernard's Parish is essentially dry.
    The U.S. Coast Guard Captain of the Port of New Orleans has lifted 
all restrictions on the Lower Mississippi River. The Gulf Intracoastal 
Waterway (GIWW) is also open. Industry and the Corps have worked out an 
operating plan for Calcasieu Lock to balance drainage, especially 
during scheduled bridge closures, and navigation safety. Shallow draft 
tows and light tug traffic are allowed 24 hours on the Calcasieu River. 
Deep draft vessels are restricted to 35 feet draft, and daylight only 
from the Lake Charles Interstate-10 bridge to the jetties. The gates 
are fixed on the Leland Bowman Lock, and the lock is open and barges 
are passing through without problems. Harvey Lock is also open. The 
Inner Harbor Navigation Canal (IHNC) Lock is operational, and the canal 
is restricted to vessels 110ft wide by 18ft draft due to a sunken dry-
dock and other obstructions. The Mississippi River Gulf Outlet (MRGO) 
is closed to deep draft vessels. The inland portion will serve as an 
alternative route to the GIWW due to closure of IHNC for shallow draft 
vessels deeper than 18 feet. Critical aids to navigation are in place 
for this portion of the MRGO. Our preliminary surveys indicate a 
controlling depth of 23 feet and the Captain of the Port of New Orleans 
has declared MRGO available to draft of 23 feet. Port Fourchon 
sustained significant damage, but is operating to a limited extent. The 
U.S. Coast Guard Captain of the Port has opened the Atchafalaya River 
from Mile 0 to the Gulf. Tiger Pass is shoaled to less than 6 feet. 
This channel, authorized to 14 feet, provides a shorter route for 
vessels traveling to the west from the Mississippi River near the mouth 
and is primarily used by fishing and supply vessels. We are preparing a 
contract to dredge the channel. The Port of Morgan City has experienced 
some shoaling and dredging is being scheduled.
    We are working closely with local, State, and Federal experts on 
monitoring the water quality as the water is pumped out of the City. As 
we get to the final amounts of water, we may encounter more 
concentrated levels of contaminants that will require special attention 
and handling. It is important to note that the un-watering effort will 
remove most, but not all the water. The remaining isolated pockets of 
water should not hamper recovery efforts such as debris removal, 
structural assessments and restoration of critical services.
                  our future role in the disaster area
    At this time, the Corps is focused on disaster relief and recovery, 
including un-watering New Orleans and surrounding areas. We are also 
currently implementing a plan to reconstitute our New Orleans District 
office, which has been closed since the Hurricane. I am happy to report 
that all 1,229 employees of the District have been accounted for.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                           from Senator Thune
    Question 1. Could you please update me with respect to the Army 
Corps position regarding water levels on the Missouri River? In 
particular, is the Corps in any way considering deviating from the 
Master Control Manual?
    Response. The Corps' intent is to operate the Missouri River 
Mainstem Reservoir System strictly in accordance with the Master 
Control Manual. At the present time, the Corps is carefully monitoring 
conditions on both the Missouri and Mississippi Rivers and we do not 
believe that an emergency situation exists at this time.

    Question 2. As a result of Hurricane Katrina, is there anything 
that will slow or impede the Corps work regarding the Cheyenne River 
Sioux emergency water intake that is underway pursuant to P.L. 84-99?
    Response. The Cheyenne River Sioux emergency water intake work is 
not currently being impacted by Hurricane Katrina efforts. Potential 
funding impacts could arise if future Emergency Supplemental 
Appropriations Laws limit the funding to projects impacted by 
Hurricanes Katrina, Rita, and Ophelia. In that event, the Corps would 
need to identify an alternate source of funds for the project by 
January 2006 to allow the project to continue on schedule.

    Question 3. As the author of S. 1761, the ``Gulf Coast Recovery 
Act'' I would appreciate knowing more about how the Army Corps of 
Engineers (as well as your private sector partners) are impacted by the 
threat of litigation in post-disaster clean-up efforts.
    Response. The Corps of Engineers conducts its emergency recovery 
efforts in accordance with Federal law and Corps regulations and the 
threat of litigation does not influence the execution of our missions.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                         from Senator Voinovich
    Question 1. noticed, in the fiscal year 2006 Budget Resolution, 
that the Corps and OMB prioritize construction funding for projects 
with the highest net economic and environmental return. Do you consider 
threat assessment as well?
    Response. While the Administration supports new and continuing 
construction that offers maximum returns to the Nation, it also 
emphasizes essential maintenance and security activities at key Corps 
facilities.

    Question 2. Can you explain further how the Corps and the OMB 
select projects to receive funding in the President's Budget request?
    Response. Funding is targeted to completing the best existing 
projects, and to a limited number of new projects whose benefits to the 
Nation greatly exceed their costs. Performance-based program 
development is development of only those programs, and only those parts 
of those programs, that can be justified by the results produced, or to 
be produced. Results may be in the form of outputs or outcomes. 
Performance based program development is designed not only to ensure 
prosecution of only clearly justified programs, but also, to ensure 
that business program increments are added such that the first-added 
increment provides the best results or returns, the second-added 
increment provides the second-best results or returns, etc. The 
increments are added in order of priority, both within and across 
business programs, to build total programs of whatever size, depending 
on available funding.
    In response to the Government Performance and Results Act of 1993 
(GPRA), the Corps established its business programs by program purpose, 
such as navigation, environment, and flood and coastal storm damage 
reduction, rather than by function (e.g., investigations, construction, 
operation and maintenance, etc.). Consistently, the Corps programs by 
program purpose, and, once Army finishes program development, assists 
Army in cross-walking results to appropriation accounts, set up by 
function, for use by OMB in developing the President's program. 
Business programs include navigation, environment, flood control and 
coastal storm damages, hydropower, recreation, regulatory, emergency 
management, and water supply.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                           from Senator Obama
    Question 1. Senator Coburn and I introduced a bill recently to 
appoint a chief financial officer in the Executive Office of the 
President to oversee hurricane reconstruction efforts. The bill is 
meant to ensure that there is oversight on the front end before money 
is spent, instead of after the money has gone out the door.
    Already, we've seen some disturbing examples of poorly spent money. 
A few weeks ago, Senator Coburn and I highlighted a $200 million 
contract that FEMA signed with Carnival Cruise Lines to house evacuees 
and rescue workers. Under this contract, taxpayers are paying $2,500 a 
week per person housed on the ship--four times the cost of a seven-day 
Caribbean cruise, which includes entertainment.
    Please describe how your agency is ensuring that reconstruction 
funds are being well spent.
    Response. We are using our established procurement methods and 
existing emergency response procedures and procurement oversight 
procedures. The U.S. Army Corps of Engineers routinely manages 
emergency response operations. As a part of our planning process, based 
on the lessons learned from previous events, we establish procedures to 
cover all phases of our efforts to support FEMA. The Corps has teams 
that are trained and ready to move into impacted areas at FEMA's 
request, to provide necessary support like ice, water, temporary power, 
roofing, and debris removal, or temporary housing. In cooperation with 
FEMA, we established pre-placed contracts to enable quick reaction to 
emergencies like Hurricane Katrina. This gives us time to transition to 
a more long-term solution when that is necessitated by an event the 
magnitude of Katrina. We are using our established oversight 
procedures, with some augmentation. First--using our planned response 
techniques, we rely on existing contracting offices and technical staff 
for much of the work. We will also be using our normal approval chain 
for acquisition plans and Justifications & Approvals for exemptions to 
full and open competition. This would include Department of the Army 
approval for higher dollar value acquisitions. One of the greatest 
needs in a response of this magnitude is for Quality Assurance and 
Technical staff to oversee the work. We are working with many agencies 
that are supplying qualified staff members for tasks such as quality 
assurance operations. We are grateful to Federal Agencies such as the 
Bureau of Recreation, the Army Materiel Command, the Department of 
Agriculture, the Engineer School at Fort Leonard Wood and even retired 
USACE employees who are providing staff to augment our operations. Our 
Internal Review staff also teams with the Defense Contract Audit Agency 
and Army Criminal Investigative Division to oversee many Corps 
practices, to include contracting.

    Question 2. Are there instances when multiple agencies are involved 
in contracting and procurement decisions? When that happens, who 
coordinates oversight over these financial decisions?
    Response. The standard practice for the recovery missions assigned 
to the Corps of Engineers is for the Corps to lead its contracting and 
procurement actions with funding provided by FEMA. If the Corps 
requires expertise from other agencies, funding is provided as 
necessary and those agencies would oversee any contracting and 
procurement actions that they deem necessary.

    Question 3. In your testimony, you explain that part of the Army 
Corps' mission under the National Response Plan is to provide ice and 
water. Like many Americans, I found it disgraceful that folks in the 
Superdome and New Orleans Convention Center did not receive water for 
days after the hurricane, while at the same time trucks full of ice 
were apparently driving around the country at the taxpayer's expense.
    Can you explain how this happened and what steps you're taking to 
ensure that it doesn't happen in any future natural disasters?
    Response. There is a ramp-up period built into the ice and water 
contracts to take into account the normal process time that is 
experienced by the contractor. The contract envisions an order being 
made for a multiple day quantity--not daily orders that only cover the 
next 24-hour period. Therefore, once a definite order is placed, the 
contractor has to provide 25 percent of the total order within 24 
hours; 50 percent of the total order within 48 hours; 75 percent within 
72 hours; and 100 percent within 96 hours. Given a 10 day somewhat 
steady state order, the first 2 days requirements would be delivered 
within 24 hours, etc. When an order is made for a large amount for one 
day--such as a 450 truckload order for one day, followed the next day 
by another--the system doesn't work because the contractor can't see 
the ramp up into the future. While a one day requirement for a 
reasonable amount might be available, the second day amount may not be 
normally replenished that quickly--while a multiple day order allows 
the industry to begin to ramp up for increased production and delivery.
    The Corps has teams that are trained and ready to move into 
impacted areas at FEMA's request, to provide necessary support like 
ice, water, temporary power, roofing, and debris removal, or temporary 
housing. In cooperation with FEMA, we established pre-placed contracts 
to enable quick reaction to emergencies like Hurricane Katrina. As the 
commodities were being prepared and shipped, the situation on the 
ground was very dynamic, and projections of needs changed frequently as 
mass evacuations took place and many people moved out of the disaster 
area. These changes led to changes, transmitted to the Corps from FEMA, 
rerouting commodities to different staging areas and eventually to 
storage facilities as supply began to exceed demand. As this situation 
developed, some truckers were rerouted while attempting to deliver 
their commodities, and some were put in holding patterns as storage 
facilities were readied to accept their deliveries.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                         from Senator Jeffords
    Question 1. General Strock, who was the first Corps employee to 
report the levee breach, when did that report occur, and when were 
state and local officials notified?
    Response. Leaders of the New Orleans District first learned that 
levees and storm surge barriers had been compromised via phone calls 
from local first responders (firemen) and Corps employees on the Inner 
Harbor Navigation Canal (IHNC) navigation lock. At approximately 1:00 
PM on 29 August 2005 after the strong winds had subsided, Corps 
personnel, including Colonel R. Wagenaar, who stayed at the district 
during the storm, attempted to drive to the 17th street canal to verify 
the reports of a breach in the hurricane protection system. Flooded 
roadways and darkness prevented the team from reaching the canal to 
confirm the reported breach. They were able to validate the levee 
breach on Tuesday, and they began implementing a plan to fix the 
breach. Personnel in the Corps Emergency Operations Center heard news 
reports of a possible breach on the London Avenue Canal but were not 
able to confirm the reports. On 31 August 2005, New Orleans district 
Corps personnel were able to confirm the breach in the vicinity of 
Robert E Lee Blvd and the breach at Mirabeau Ave. after getting 
assistance from a search and rescue boat crew. Employees at the Corps 
IHNC navigation locks noticed a breach in the hurricane protection 
system and notified their supervisory chain.

    Question 2. In July 2004, emergency officials conducted a planning 
scenario in Louisiana to address a Category 3 hurricane. The debris 
team for this exercise estimated that the storm would result in 30 
million cubic yards of debris and 237,000 cubic yards of household 
hazardous waste. How are EPA and the Corps working together to manage 
this large quantity of debris, including hazardous materials and the 
potential air quality impacts of any open burning?
    Response. Through October, over 14 million cubic yards of debris 
has been removed in the areas affected by Hurricane Katrina. It is 
estimated that nearly the Corps will remove 40 million cubic yards 
during cleanup efforts. Some communities are allowing burning of 
debris; others have prohibited open air burn. As not all the 
communities have opted for Federal debris assistance, we can't speak 
for reduction methods in those communities that have let their own 
contracts. The Corps complies with both state DEQ and city or county 
directives. If allowed to burn, the Corps generally conducts air-
curtain incineration where there is greater debris reduction achieved 
with little to no smoke emitted. Air curtain burning is a process that 
includes a pit and a machine that injects about 2000 degree Fahrenheit 
heat into it and then circulates the air so that nothing leaves the 
pit. It is all re-circulated back into the flame until everything, 
including the smoke, is burned. The Louisiana DEQ and EPA sort out any 
hazardous material before it gets into the incineration pit. The EPA 
and the Coast Guard are guiding the disposal of hazardous material at 
certified waste landfills that are able to handle such material.

    Question 3. General Strock, you have stated in the past that there 
were internal reforms that could be made to improve the performance of 
the Corps, such as independent peer review of Corps projects. Given 
your experiences with the Katrina relief efforts and the expected 
rebuilding the Corps will be involved in, what changes do you think the 
Corps needs to make to its project development and cost benefit 
analysis to ensure that Federal tax dollars are going to the most 
beneficial and necessary projects?
    Response. The Corps' performance based program development is 
designed to ensure prosecution of only clearly justified programs. The 
Corps Flood and Coastal Storm Damage Reduction program is well 
established and valued. However, our ability to continue to reduce 
flood risks to meet the needs of current and future generations is 
dependent upon adequate investments. Such investments provide for the 
necessary investigations of problems and development of projects, 
timely implementation of authorized projects, proper inspections of 
Corps and local projects, preventative maintenance or facility 
modernization or improvement, improvements to ensure the reliability 
and safety of projects, adequate data collection or improvements to 
increase operational efficiencies. Accordingly, a nationwide 
perspective is maintained to assure that available funding provides the 
greatest public benefit for the investment. The safety and security of 
our existing infrastructure must be maintained, new investigations to 
address serious flood risks must be conducted and our uncompleted 
projects must be brought on line quickly so that benefits may be 
achieved as soon as possible. Prioritization of projects is based on 
many factors, such as the number of people at risk in 100 year 
floodplain, the total population in the 100 year floodplain, estimated 
average annual damages (without project), the benefit to cost ratio, 
and the remaining benefits remaining costs ratio. If there is a change 
needed in the project development and cost benefit analysis for these 
types of projects, it could include investigating whether the National 
Economic Development analysis is the appropriate benchmark for project 
recommendation. Several of the communications that we have received 
following Hurricane Katrina<plus-minus> suggest that the Corps base its 
project development on planning for a catastrophic event rather than 
the project that maximizes net economic development benefits.

    Question 4. General Strock, does the Corps have the expertise to 
provide technical advice regarding redevelopment patterns that would 
reduce hurricane and flooding impacts and maximize opportunities for 
wetlands redevelopment, which is so important to the people of 
Louisiana?
    Response. Yes. Local and State officials will lead the future 
discussions for rebuilding New Orleans, but the Corps of Engineers can 
advise communities, industries, and property owners on protection 
measures they can take themselves, such as zoning regulations, warning 
systems and flood proofing, as well as means to maximize opportunities 
for wetlands redevelopment.

    Question 5. General Strock, can you describe our current system is 
adequate for: establishment of levee safety standards, responsibility 
for operation and maintenance of levee systems once constructed, cost 
sharing for construction and for maintenance, and ongoing review of the 
safety of our Nation's levees?
    Is that system adequate to ensure levee safety throughout the 
Nation?
    Response. The Corps has an Inspection of Completed Works program to 
assure sponsor compliance with existing agreements that the structures 
and facilities constructed by the United States for flood protection 
will be continuously maintained in such a manner and operated at such 
times and for such periods as may be necessary to obtain the maximum 
benefits. The Corps annually inspects projects that protect urban areas 
or ones where failure would be catastrophic and result in loss of life. 
Rural projects are initially scheduled for an inspection every second 
year. Out-of-cycle inspections may be performed, if necessary. 
Unfortunately, it is unlikely that any system will ensure levee safety 
throughout the Nation. The Corps stands ready, however, to work with 
other Federal, state, and local agencies and the public to improve our 
system and processes for evaluating levee safety.

    Question 6. You have described the Corps' role in the days 
preceding and the immediate aftermath of Hurricane Katrina. Knowing 
what you know today, would you have done anything differently?
    Response. The Corps has established an independent performance 
evaluation task force to provide credible, objective engineering and 
scientific answers to fundamental questions about the operation and 
performance of the hurricane protection projects in the New Orleans 
metropolitan area that were flooded by Hurricane Katrina. An after-
action review of the response will be conducted once our recovery 
operations are complete. We will learn from what went well, and 
identify areas needing improvements.

    Question 7. During your performance of your duties under Emergency 
Support Function 3 to provide water and ice, did the Corps observe any 
problems in terms of delivery to those in need?
    Response. The Corps has followed its normal procedures, pre-
positioning ice and water at staging areas prior to the storm. 
Following the storm, at FEMA's direction, we ordered very large 
additional quantities of these commodities, about 170 million lbs of 
ice, and more than 5,500 truckloads of bottled water, to meet the 
anticipated need, especially in Louisiana, Mississippi and Alabama 
coastal counties. As the commodities were being prepared and shipped, 
mass evacuations took place and many people moved out of the immediate 
disaster impact area. The location of need became a moving target--or 
indeed multiple moving targets. This dynamic situation led FEMA to 
reroute water and ice to different staging areas. Many people evacuated 
to cities that did not need long-term supplies of water and ice because 
they had functioning utilities. Thus, supply began to exceed the demand 
estimated when Katrina's magnitude became known. Truckers were again 
re-directed to storage facilities. Some truckers were rerouted while 
attempting to deliver their commodities and some sat on hold while 
storage facilities were made ready to accept their deliveries. The 
current situation is that available supply of ice and water exceeds the 
demand for Hurricane Katrina relief and emphasis is being placed on 
keeping commodities ready for future needs.

    Question 8. Will the Corps re-evaluate new projects pending 
Congressional authorization such as the Louisiana Coastal Area 
ecosystem restoration project to determine if the current project plans 
remain viable after the affects of Katrina and if so, what is your 
timeline?
    Response. On a case-by-case basis, and subject to the availability 
of funding and timing of project authorization, the Corps could re-
evaluate projects pending Congressional authorization if it is expected 
that conditions have changed significantly enough to modify the 
recommendation of the Chief of Engineers. The appropriate Congressional 
sub-committees will be notified in a timely manner of any potential 
authorization issues.

    Question 9. Has the Corps already, or do you have plans to, 
evaluate the vulnerability of all Army Corps' infrastructure in the 
Gulf of Mexico region to determine its vulnerability to further intense 
hurricane activity in the coming years?
    Response. The Corps has established an independent performance 
evaluation task force to provide credible, objective engineering and 
scientific answers to fundamental questions about the operation and 
performance of the hurricane protection projects in the New Orleans 
metropolitan area that were flooded by Hurricane Katrina. At this time, 
the Corps lacks the authority and funding to evaluate other Corps 
infrastructure in the Gulf of Mexico.

    Question 10. What steps has the Corps taken across the Nation to 
cooperate with local communities to ensure that those located 
``downstream'' of flood protection features, including dams, have 
adequate emergency response plans in the event of a catastrophic 
failure?
    Response. It is our policy that an emergency plan for each dam, 
including a notification procedure, be prepared and kept accurate, 
complete and current. Development of an evacuation plan is a non-
Federal responsibility and the Corps strongly encourages the 
appropriate State or local officials to develop evacuation plans as 
part of the overall dam safety program.

    Question 11. Will the Corps conduct a comprehensive, integrated 
review of Corps infrastructure and pending projects to determine if 
projects should be modified to use different approaches to flood 
control, including non-structural methods such as relocations? Please 
describe if the lessons learned in the exercise are being applied here.
    Response. At this time, the Corps does not plan to conduct a 
comprehensive, integrated review of Corps infrastructure and pending 
projects. The Corps has established an independent performance 
evaluation task force to provide credible, objective engineering and 
scientific answers to fundamental questions about the operation and 
performance of the hurricane protection projects in the New Orleans 
metropolitan area that were flooded by Hurricane Katrina. Through this 
investigation, the Corps will be able to identify lessons learned and 
ways to potentially improve the performance of the existing hurricane 
protection system at the authorized level of protection. As a learning 
organization, the Corps systematically learns what works and what does 
not work from its experience and any increased innovation, 
effectiveness, and performance could ultimately be applied to other 
projects.

    Question 12. Have delays in obtaining sampling results affected 
your ability to manage water quality issues surrounding the de-watering 
of New Orleans?
    Response. No. The Corps worked closely with EPA to develop a 
collaborative approach for managing potential water quality/ecosystem 
impacts associated with the un-watering effort. EPA identified 5 water 
quality areas of concern. As directed, the Corps worked to quickly 
initiate a monitoring program to sample water and sediment. We sampled 
at locations in the canals leading to the pumps as well as on the 
discharge side of the pumps in the immediate outfall areas in Lake 
Pontchartrain. The U.S. Coast Guard, in conjunction with the Corps, 
placed and maintained fresh sorbent booms at major outfalls to Lake 
Ponchartrain to adsorb oil and other floating chemicals from pumped 
flood waters. Additionally, the Corps deployed artificial aerators in 
the major canals to Lake Pontchartrain to enhance dissolved oxygen 
concentrations and volatilize any aromatic compounds in the water.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                        from Senator Lautenberg
    Question 1. For years, community leaders, scientists, and citizen 
groups have argued that the Mississippi River Gulf Outlet was like a 
gun pointing directly at New Orleans. They argued that the outlet would 
funnel storm surges directly to New Orleans. Recent newspaper reports 
suggest that this is in fact what happened.
    When the Corps recently decided not to close the Mississippi River 
Gulf Outlet, did you consider the risk of funneling storm surges?
    Response. The authorized channel in a fully open condition was 
modeled for nine storm scenarios using the Advanced Circulation Model 
for Oceanic, Coastal, and Estuarine Waters (ADCIRC). The nine storm 
scenarios were combinations of a weak, moderate, or strong intensity in 
combination with either a slow, moderate, or fast forward speed. All 
storm scenarios used the same track that was selected to maximize the 
winds parallel to the MR-GO and yet minimize the easterly component 
across Lake Borgne. This case would produce the maximum case for the 
storm surge analysis. The conclusion reached from the DDCIRC modeling 
analysis was that the MR-GO has minimal influence on storm surge 
propagation in the study area.

    Question 2. In light of Katrina, do you believe the decision not to 
close the Mississippi River Gulf Outlet was correct?
    Response. The Corps has established an independent performance 
evaluation task force to provide credible, objective engineering and 
scientific answers to fundamental questions about the operation and 
performance of the hurricane protection projects in the New Orleans 
metropolitan area that were flooded by Hurricane Katrina. One of the 
most fundamental needs for the task force is understanding the storm 
surge and wave conditions that resulted from the hurricane. The surge 
and wave levels were likely significantly different in different parts 
of the region, especially in confined areas such as the canals and 
waterways and for the areas immediately adjacent to the lakes. The 
differences in the surge and waves with time and location equate to 
differences in the forces experienced by the various flood control 
structures which related directly to understanding their performance. 
The most advanced numerical hydrodynamic models will be used to 
generate this information. Understanding the true consequences of the 
system's performance is critical to understanding the risk factors for 
future decision making.

    Question 3. Coastal wetlands provide important protections from 
storm surges and all wetlands help absorb flood waters and reduce 
flooding impacts. The Corps has known for years that there is a 
significant problem with coastal and other wetland losses in Louisiana.
    What steps is the Corps taking right now to minimize additional 
wetland losses along the coast of Louisiana?
    Response. Many of the features of the proposed Louisiana Coastal 
Area Ecosystem Restoration Project would provide a benefit by 
preventing on-going wetlands loss through subsidence, creating new 
marsh and nourishing existing marsh. While there is adequate 
justification for coastal wetlands restoration for a host of reasons, 
it is also certain that these features would also provide an important 
component of the storm damage reduction system by helping to maintain 
the integrity of the landscape surrounding that system. According to 
the United States Geological Survey, one mile of wetland reduces storm 
surge by one foot. It is crucial that the storm damage reduction system 
include components that complement coastal restoration and management 
features. The President has recently requested that $250M of the 
Federal money already provided by Congress in the Emergency 
Supplemental be ``reallocated'' for funding wetlands restoration 
projects that would enhance flood protection for the greater New 
Orleans area.
    Question 4. Once the Corps is done with the immediate task of 
stabilizing the levees and floodwalls around New Orleans, will the 
Corps reevaluate other Federal projects and activities that will add to 
wetland losses and exacerbate flooding risks in the region?
    Response. Our assessment of rebuilding existing projects or 
potential new projects for higher levels of protection includes an 
awareness of the relationship of the Louisiana Coastal Area (LCA) 
project and hurricane protection proposals. Coastal restoration 
provides numerous environmental and ecosystem benefits. These measures 
can also provide elements that will benefit hurricane protection in 
southeast Louisiana. Significant restoration of coastal wetlands and 
barrier islands could offer surge reduction benefits to hurricane 
protection projects. Proposals for hurricane protection and coastal 
restoration will be compatible and complementary.
                                 ______
                                 
  Responses by Lieutenant General Carl Strock to Additional Questions 
                          from Senator Inhofe
    Question 1. What is the status of efforts to repair the levee 
system to its pre-Katrina level? Is the Corps moving forward with the 
intent of simply replacing what was there? Or are you looking at other 
design options?
    Response. With our contractors, we are working around the clock on 
the levees and floodwalls to provide an interim level of protection to 
see the city through this hurricane season, which continues until the 
end of November, and the rainy season that the city normally 
experiences in December and January. The goal of this effort is to 
restore the pre-storm level of protection before the start of the next 
hurricane season, which begins in June 2006. The Corps has established 
an independent performance evaluation task force to provide credible, 
objective engineering and scientific answers to fundamental questions 
about the operation and performance of the hurricane protection 
projects in the New Orleans metropolitan area that were flooded by 
Hurricane Katrina. As we learn we will immediately act to incorporate 
those findings into the interim and long term work in which we are 
engaged.

    Question 2. What kind of interactions with other agencies, the city 
or the state taking place to ensure that decisions as to when and where 
people will return are coordinated with the Corps' decisions on 
rebuilding the levee system?
    Response. The Corps will work in close partnership with the states 
of Louisiana and Mississippi, the city of New Orleans, and other Gulf 
Coast cities, so they can rebuild in a thoughtful, well-considered way. 
The Corps is likely to have an active role in the restoration of public 
infrastructure in the disaster zone. We will be fully engaged in the 
effort to further strengthen Federal support for the region affected by 
Hurricane Katrina and Hurricane Rita through the Gulf Coast Recovery 
and Rebuilding Council. In accordance with President Bush's executive 
order of November 1, 2005, the Corps will be not only be responsive to, 
but also proactive in, providing effective, integrated, and fiscally 
responsible support to State, local, and tribal governments, the 
private sector, and faith-based and other community humanitarian relief 
organizations in the recovery and rebuilding of the Gulf Coast region 
affected by Hurricane Katrina and Hurricane Rita.

    Question 3. I believe it would be a mistake to move forward with 
the various projects in the affected area independently, without taking 
a comprehensive look at how these missions can be integrated. For 
instance, rebuilding or expanding a levee that we'll need to breach in 
a couple years as part of our wetlands restoration efforts may not make 
the most sense. What is the Corps doing now or preparing to propose 
doing to ensure this comprehensive integration of activities?
    Response. Our assessment of rebuilding existing projects or 
potential new projects for higher levels of protection includes an 
awareness of the relationship of the Louisiana Coastal Area (LCA) 
project and hurricane protection proposals. Coastal restoration 
provides numerous environmental and ecosystem benefits. These measures 
can also provide elements that will benefit hurricane protection in 
southeast Louisiana. Significant restoration of coastal wetlands and 
barrier islands could offer surge reduction benefits to hurricane 
protection projects. Proposals for hurricane protection and coastal 
restoration will be compatible and complementary.

    Question 4. Earlier this year, this Committee passed a WRDA bill 
that authorizes a program for restoring the coastal wetlands. Where are 
we in assessing the affect of the hurricane on the coastline? Do we 
know yet whether the projects described in the LCA report are still 
feasible and advisable? If not, do we have an approximate timeframe for 
having the necessary assessments and determinations completed? Do you 
need anything from Congress in order to do that?
    Response. The U.S. Geological Survey (USGS) has indicated that 
Hurricanes Katrina and Rita impacted at least 100 square miles of 
marshland along Louisiana's coastline. Wetlands east of the Mississippi 
River suffered the most severe damage, including 39 square miles lost 
from Breton Sound, 14 square miles from the mouth of the Mississippi 
River, and 6 square miles from the lower Pearl River basin. In some 
areas, the USGS stated that the losses exceeded projections for coastal 
erosion over the next 50 years. The projects described in the LCA 
report are not only still feasible, but now even more essential. The 
President has recently requested that $250M of the Federal money 
already provided by Congress in the Emergency Supplemental be 
``reallocated'' for funding wetlands restoration projects that would 
enhance flood protection for the greater New Orleans area.
                               __________
 Statement of Richard J. Capka, Acting Administrator, Federal Highway 
            Administration, U.S. Department of Transporation
                              introduction
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the Federal Highway 
Administration's (FHWA) actions in response to Hurricane Katrina. Our 
hearts go out to all those affected by the recent hurricanes, and we 
look forward to continuing our efforts to help the citizens of the Gulf 
Coast rebuild their transportation infrastructure and their lives. 
These storms have presented enormous challenges to all those involved, 
but the events also have helped to bring out the best in the public 
servants at our Agency, and I am grateful for their continued service.
    I visited the affected areas with Louisiana's Secretary of 
Transportation, Johnny Bradberry, and Mississippi Department of 
Transportation's Executive Director, Butch Brown, and the Highway 
Commission Chairman, Wayne Brown, and had an opportunity to see the 
devastation first hand. While TV coverage, aerial surveys, and photos 
of bridge and roadway damage along I-10, US 90, and other area roads 
tell the story of Katrina's force, they could not convey the full 
impact of the devastation that I witnessed.
    Critical sections of Federal-aid highways in New Orleans were 
submerged for an extended period of time. Portions of Highway 23 in 
Plaquemines Parish, which service communities and petro-chemical 
facilities, remain under water. An I-10 bridge structure at Pascagoula 
was damaged, forcing single lane traffic across the remaining 
structure. Highway bridges along both I-10 and US 90 had huge deck 
slabs, weighing many tons, shifted and lifted off their support piers 
and dumped into the water. Massive casino barges along the Mississippi 
coast were yanked from their moorings and deposited onto US 90 at 
locations, in some cases, that were more than a mile away from their 
original sites. US 90, an important artery for Gulf Coast residents, 
was impassible in numerous locations due to the debris and structural 
damage. This highway infrastructure damage represents only a small 
fraction of the total devastation inflicted on the communities in 
Mississippi and Louisiana.
    The United States Department of Transportation (U.S. DOT) and FHWA 
remain firmly committed to helping the ravaged areas recover as quickly 
as possible. There is much work to be done in both the short-term and 
long-term. FHWA has been working closely with our State and Federal 
partners before, during, and after the storm. Today, I would like to 
share with you some of the details related to our response.
                        pre-hurricane activities
    FHWA was well positioned to rapidly respond to the effects of 
Hurricane Katrina. We have permanent Division Offices in each State, 
and have developed both first hand knowledge of the States and strong 
professional and personal relationships with State and local highway 
officials. The mutual trust and confidence that preexisted Hurricane 
Katrina provided an excellent foundation for an effective plan and team 
effort to execute a timely highway response to the hurricane disaster. 
Our Division Offices provided advice to State and local jurisdictions 
concerning Emergency Relief program eligibility and engineering and 
contracting issues, and shared lessons learned from prior emergency 
situations.
                 response immediately after hurricanes
    As soon as we could re-enter the affected areas, FHWA deployed 
personnel, including employees from outside the affected States, to 
work along side State highway and local officials to help assess the 
damage and to help facilitate response and recovery efforts. In 
response to Hurricane Katrina, FHWA deployed 104 employees from our 
Headquarters and 23 field offices to Alabama, Florida, Georgia, 
Louisiana, and Mississippi to support relief activities.
    I must express my admiration for the State and local road crews, 
many of whom suffered great personal losses along with their community 
neighbors. Mississippi and Louisiana responded exceptionally well in 
getting debris removal underway. Road crews began clearing debris--
including downed trees and power lines from highways and bridges as 
soon as it was safe to do so after the storm. Consequently, with the 
exception of areas that were flooded, the States opened their essential 
Federal-aid highways for responders in less than a day, where re-entry 
was warranted.
    FHWA employees worked shoulder to shoulder with our State and local 
counterparts to rapidly assess the situation and to shape strategies 
that would provide the most efficient response. We provided ready 
access to past lessons learned and helped Mississippi and Louisiana to 
work with Florida experts in addressing the bridge damage along I-10 
and Highway 90, since Florida had experienced similar challenges 
following Hurricane Ivan last year. FHWA-provided information was used 
to support the flow of relief goods and services into the Gulf Coast 
region. This information was shared throughout all levels of government 
and with industry organizations, such as the American Trucking 
Associations. For example, FHWA posted State proclamations and weight 
permit and waiver information on our Web site.
    Just after the hurricanes, our Division Offices in the impacted 
areas conducted refresher training on our Emergency Relief program for 
joint FHWA and State damage assessment teams. For example, the 
Louisiana Division Office met with the Louisiana Department of 
Transportation and Development leadership and the team members and 
explained the Emergency Relief Program. The same type of training was 
held for the local jurisdictions of Jefferson and Orleans parishes. 
This training increased the efficiency of the teams to make Emergency 
Relief program qualification decisions.
    The Emergency Relief program provides reimbursement to States for 
expenses related to highway infrastructure damage associated with 
natural disasters and other emergency situations, such as Hurricane 
Katrina. Examples of the type of work eligible for Emergency Relief 
program reimbursement include repairing pavements, shoulders, slopes, 
embankments, guard rails, signs, traffic control devices, and bridges, 
and removing debris from the highway rights-of-way. Reimbursement under 
the Emergency Relief program is for the repair and restoration of 
highway facilities to pre-disaster conditions. However, Emergency 
Relief program reimbursement is not for new construction to increase 
capacity, correct non-disaster related deficiencies, or otherwise 
improve highway facilities.
    FHWA has made down payments to the States of Louisiana and 
Mississippi for emergency relief. We provided Louisiana with $5 million 
of ``quick release'' Emergency Relief funds for the I-10 Twin Span 
Bridge, which connects New Orleans and Slidell with the understanding 
that more funds to support the repair of the bridge and damage to other 
Federal-aid highways and bridges would be forthcoming. We also provided 
Mississippi with $5 million in ``quick release'' Emergency Relief to 
reimburse the State for repairs to US 90, I-10, and other federally 
funded roads and bridges.
    In addition to the immediate infusion of funds, FHWA has expedited 
environmental reviews to ensure that we can get work underway as 
quickly as possible, while still being good stewards of the 
environment. In Headquarters, we coordinated with the Council on 
Environmental Quality and other Federal agencies to use existing 
expedited procedures to streamline the environmental analysis process 
for the States. For example, we worked with affected Federal and State 
agencies to approve the preparation of an expedited Environmental 
Assessment, with limited deviations from FHWA's standard procedures, 
for the US 90 bridge replacement and associated approach roadwork in 
the area of Biloxi Bay and Ocean Springs. Furthermore, our employees in 
the field have used rapid-response coordination techniques to get 
critical environmental information immediately by phone or electronic 
mail.
                                recovery
    FHWA also has been working actively to support long-term recovery 
efforts across the region. Every day we are making more progress in 
repairing the transportation systems destroyed by Hurricane Katrina. 
Our primary goal is to help restore the stability and quality of life 
to the people of the Gulf Coast as quickly as possible. Over the past 
few weeks we have made remarkable strides, and we will continue to 
build on that success to ensure that the region's transportation 
network serves as an engine of its economic recovery.
    We worked with the States to provide appropriate expedited 
procedures to get contractors underway with repairs. Incentives have 
been employed effectively to ensure the timeliest possible restoration 
of lost essential service. For example, Mississippi awarded a $5.2 
million contract to repair one of the highest priority roads in the 
region the I-10 bridge at Pascagoula and included not only an incentive 
if work is completed in less than 31 days, but also a corresponding 
penalty for finishing late. I am pleased to report this bridge reopened 
on October 1 more than a week ahead of the contract completion date. 
Louisiana is using a similar technique to restore initial service 
across the I-10 Bridge at Slidell. We strongly support these 
``incentivized'' contracts, and we are out in the field working closely 
with the States to exercise all appropriate options and tools available 
during this rebuilding effort.
    The long-term restoration of roadways is considered permanent 
repair work under the Emergency Relief program. Generally, permanent 
repair and reconstruction work, not accomplished as emergency repairs, 
must be done by a competitive bid contract method unless the State 
demonstrates some other method is cost effective. This work can be 
expedited using innovative contracting procedures available under the 
Federal-aid Program such as the design-build contracting method.
    In addition to the ``quick release'' Emergency Relief funds, all 
affected States may use up to $100 million per State per event for 
Federal-aid highway roads and bridges damaged as a result of the 
hurricanes. When an event of the magnitude of Hurricane Katrina occurs, 
the repair cost can far exceed available Emergency Relief funding. 
However, repairs can still get underway with other Federal-aid or State 
funds.
    We will continue to work with State and local governments to 
identify long-term highway recovery needs. We are engaged in 
interagency coordination with the US Army Corps of Engineers to ensure 
that infrastructure recovery is coordinated and synchronized. We are 
leading coordination among other agencies to ensure that up-to-date 
engineering design criteria are provided and environmental requirements 
are accomplished in ways that will not impede the rapid recovery of 
lost or damaged infrastructure.
    A number of longer-term projects have been identified in the 
impacted States. The following is a brief description of such projects.
    Louisiana: Hurricane Katrina severely damaged the I-10 Twin Spans 
over Lake Pontchartrain in New Orleans. A $31 million ``incentivized'' 
emergency repair contract was let to temporarily restore two-way, 
single-span access to New Orleans by October 30 and access across both 
spans by January 18, 2006. Louisiana is considering a replacement 
bridge that would be constructed to current design standards and 
criteria, and we will work with them on those efforts. In addition to 
the bridge, many sections of I-10 were flooded due to the levee breaks. 
The Lake Pontchartrain Causeway and LA 1 and LA 23 also sustained some 
damage.
    Mississippi: Emergency repair projects are currently underway to 
restore sections of US-90 from Pass Christian to Biloxi-Ocean Springs. 
A series of emergency repair projects are under contract (via force 
account) to restore US-90 to 2 lanes from Pass Christian to Biloxi-
Ocean Springs by December 9th. Storm surge heavily damaged 
approximately 30 miles of US 90 roadway between Bay St. Louis and 
Biloxi. Additionally, two US 90 bridges--the Bay St. Louis bridge--and 
Biloxi-Ocean Springs bridge collapsed during Hurricane Katrina. Design-
build contracts will be utilized to replace these bridges.
    Alabama: Mobile and Baldwin Counties suffered the majority of the 
damage from Hurricane Katrina in Alabama. The Cochrane-Africatown 
Bridge over the Mobile River at Mobile was damaged by an oil rig that 
floated into the structure during the storm. Currently, the four-lane 
bridge is open only to one lane in each direction. A contract will be 
let in a couple of weeks to repair the bridge so that it may be opened 
to unrestricted traffic.
    Due to damage sustained during Hurricane Katrina, five spans of the 
east bound on ramp from US-90 to I-10 eastbound must be replaced. 
Currently, the ramp is closed to traffic. Alabama is preparing plans to 
replace the five damaged spans.
    Florida: US 98 on Okaloosa Island sustained substantial damage 
during Hurricane Katrina. Many traffic signs and signals were damaged 
in the Miami area. Additionally, debris removal was needed throughout 
the affected parts of Florida.
                      future preventative actions
    The Bush Administration recognizes that more will have to be done 
to restore the Gulf Coast. I-10, US 90, and other important local roads 
are the economic lifeline of the hurricane-damaged region and play a 
central role in the economy of the entire Gulf Coast region. FHWA is 
bringing all its resources to bear to ensure that this region can get 
moving again. Projects that will be the foundation for a long-term 
rebuilding effort will begin soon.
    We have begun a review of existing bridges that might be impacted 
by storm surge conditions in the future. Before we can identify 
suitable retrofits for existing bridges of the types damaged during 
recent hurricanes, we must improve our understanding of, and ability to 
quantify, the lateral/transverse and uplift forces that result from 
floods and storm surges. Accordingly, we have initiated research at the 
Turner-Fairbank Highway Research Center to aid our understanding in 
this area. With respect to the design of new bridges, FHWA has 
developed a policy that defines a flood frequency approach for the 
hydraulic analysis and design of coastal bridges. We also are reviewing 
the problem of loose barges impacting bridges during storm conditions.
    Contraflow is an emerging traffic operations area that requires 
close coordination of all levels government. We recognize the 
challenges of evacuation and contraflow and the need for more attention 
to these areas in the future. As we did after Hurricane Ivan in 2004, 
we will analyze the events of Hurricane Katrina for lessons learned 
that can be applied to future situations. We also will continue to work 
with other Federal agencies to determine where transportation assets 
and systems can continue to contribute to evacuation planning and 
execution. FHWA will assist the Office of the Secretary of 
Transportation and the Department of Homeland Security in developing 
the Catastrophic Hurricane Evacuation Plans Report to Congress as 
mandated in SAFETEA-LU.
                       stewardship and oversight
    While quick response in getting funding and support to the Gulf 
Coast region is important, we are also cognizant of the importance of 
financial accountability and stewardship. As the recovery work 
continues, I want to assure you that I am very mindful of the 
responsibility we have as stewards of these critical Federal resources. 
FHWA has taken steps to track all transactions related to the Hurricane 
Katrina recovery efforts. We will ensure that funds are spent wisely 
and judiciously, and that projects comply with the requirements of our 
Emergency Relief program. American taxpayers deserve to know that each 
and every dollar dedicated to this tremendous effort is fully justified 
and properly accounted for every step of the way.
                               conclusion
    I believe that we have made significant progress thus far and are 
on our way to ensuring that the Gulf Coast region has a transportation 
system that will meet its long-term needs. We will continue to work 
with our State and Federal partners to ensure that highway recovery 
efforts are completed quickly and in a fiscally responsible manner.
    Mr. Chairman, members, thank you for this opportunity to testify. I 
will be pleased to answer any questions you may have.
                                 ______
                                 
 Responses by Richard Capka to Additional Questions from Senator Thune
    Question 1. Seeing that road infrastructure is critical to the Gulf 
Coast's recovery, what is the Administration's position regarding the 
use of Highway Trust Fund dollars above and beyond the $100 million 
annually set aside in SAFETEA-LU to cover Emergency Relief costs?
    Response. The Emergency Relief program has a permanent 
authorization of $100 million per year from the Highway Trust Fund. The 
Safe, Accountable, Flexible, Efficient Transportation Equity Act for 
the 21st Century--A Legacy for Users (SAFETEA-LU) (Pub. L. 109-59) 
amended Emergency Relief program to authorize an additional 
appropriation from the General Fund in years where the Emergency Relief 
needs exceeded $100 million. SAFETEA-LU authorized such sums as may be 
necessary from the General Fund to address the ``backlog.''
    On October 28, 2005, the Administration released a supplemental 
appropriations request, which included a request for $2.325 billion 
from the General Fund for the Emergency Relief program for expenses 
related to Hurricane Katrina and other natural disasters. FHWA 
continues to work with the affected States to refine the cost estimates 
for the repair or replacement of damage to roads and bridges eligible 
under the Emergency Relief program.
    Under the ``quick release'' procedures for the Emergency Relief 
program, FHWA has provided $5 million each to Louisiana and Mississippi 
as a down payment on their Emergency Relief funding. In the absence of 
other Emergency Relief funds, a State can fund projects eligible under 
the Emergency Relief program in a number of ways. A State may use 
unobligated Emergency Relief funds from other Emergency Relief-eligible 
events in the State. A State may use other apportioned Federal-aid 
funds or State funds to complete emergency or permanent repairs. 
Additionally, a State may use Advance Construction. Any funds used for 
work eligible under the Emergency Relief program will be reimbursed by 
the Emergency Relief program funds when they become available. 
Currently, States are not holding up essential project work because of 
a lack of funding.

    Question 2. What is FHWA's estimate concerning the time it will 
take to restore all damaged roadways and bridges to pre-Hurricane 
condition?
    Response. It is difficult to estimate the time it will take to 
restore all damaged roadways and bridges to pre-Katrina condition. 
Affected Federal-aid highways currently are open to essential traffic 
service. However, completing the permanent repairs of these roads will 
take some time. FHWA is working to ensure that appropriate design 
criteria are being used for the long-term restoration of Federal-aid 
highway facilities. FHWA also is working to ensure that interagency 
coordination occurs so that these long-term projects can be completed 
as expeditiously as possible.

    Question 3. In your testimony Administrator Capka, you touched upon 
the damaged caused by massive casino barges that dislodged from their 
moorings during the Hurricane. How many other bridges were damages (and 
to what extent) as a result of foreign structure collisions?
    Response. Foreign structure collisions damaged two bridges in 
Mississippi and one in Alabama during Hurricane Katrina, and one bridge 
was damaged in Louisiana during Hurricane Rita. The casino barges that 
dislodged from their moorings during Hurricane Rita damaged U.S. 90 in 
Mississippi, but did not damage any bridges.

    Question 4. As the author of S. 1761, the ``Gulf Coast Recovery 
Act'' I would appreciate knowing more about how the Department of 
Transportation (as well as your private sector partners) are impacted 
by the threat of litigation in post-disaster clean-up efforts.
    Response. As you know, the roadways and bridges in question are 
owned by the State and local governments. FHWA provides reimbursement 
through the Emergency Relief program to States for work on roadways and 
bridges on a Federal-aid highway that are damaged as a direct result of 
a natural disaster or catastrophic failure from an external cause. The 
States contract with private entities for the repair work on a 
federally owned facility. Even if the FHWA did enter into contracts 
with private entities for the repair work, any FHWA liability would be 
governed by the Federal Tort Claims Act. Similar to the Federal Tort 
Claims Act (under which the Federal Government waived its sovereign 
immunity, but retained some exceptions to this waiver), States 
generally have some exceptions to their waivers of sovereign immunity 
to limit their liability exposure. FHWA is not aware of any delays in 
the restoration of transportation services in the Gulf Coast region due 
to litigation threats to State or local governments or their 
contractors.
                                 ______
                                 
 Responses by Richard Capka to Additional Questions from Senator Obama
    Question 1. Senator Coburn and I introduced a bill recently to 
appoint a chief financial officer in the Executive Office of the 
President to oversee hurricane reconstruction efforts. The bill is 
meant to ensure that there is oversight on the front end before money 
is spent, instead of after the money has gone out the door.
    Already, we've seen some disturbing examples of poorly spent money. 
A few weeks ago, Senator Coburn and I highlighted a $200 million 
contract that FEMA signed with Carnival Cruise Lines to house evacuees 
and rescue workers. Under this contract, taxpayers are paying $2,500 a 
week per person housed on the ship--four times the cost of a 7-day 
Caribbean cruise, which includes entertainment.
    Please describe how your agency is ensuring that reconstruction 
funds are being well spent.
    Response. Secretary Mineta has emphasized that sound fiscal 
management is a top priority. The Chief Financial Officer for the 
Department has issued guidance to the Operating Administrations 
detailing the procedures for the tracking of hurricane funding to 
ensure that sufficient safeguards are in place to prevent waste, fraud, 
and the misuse of Federal funds. FHWA is adhering to these procedures.
    Under the Emergency Relief program, States must apply for 
reimbursement for eligible expenses. FHWA reviews these applications to 
ensure the Emergency Relief funding is spent on eligible work. 
Additionally, Emergency Relief funding is not disbursed until FHWA has 
received a legitimate bill.

    Question 2. Are there instances when multiple agencies are involved 
in contracting and procurement decisions? When that happens, who 
coordinates oversight over these financial decisions?
    Response. For Federal-aid highway program, the facility owner, the 
State, contracts the work. The FHWA coordinates the Federal oversight. 
For non Federal-aid emergency repairs, FEMA may participate in repair 
costs in accordance with the provisions established in the Stafford 
Act. Funding for FEMA-eligible repairs (through FEMA's Public 
Assistance program) and funding for FHWA-eligible repairs (through 
FHWA's Emergency Relief program) are administered separately by each 
agency. There cannot be any duplication of reimbursement from both FEMA 
and FHWA for damages at the same location. To avoid duplication, FHWA 
and FEMA staff coordinate and communicate when there is a concern about 
the status of a highway.
                                 ______
                                 
    Responses by Richard Capka to Additional Questions from Senator 
                                Jeffords
    Question 1. Mr. Capka, Louisiana officials estimated last month 
that the cost of immediate repairs for their State's transportation 
system would exceed eleven billion dollars. Still others have estimated 
the damage to the region's transportation network at between two and a 
half and three billion dollars. Can you give us your best estimate at 
the cost of the damage to the Gulf region?
    Response. FHWA estimates that the total cost of Hurricane Katrina-
related repairs to Federal-aid highways in the Gulf Coast region will 
be $1.725 billion. This estimate represents a preliminary figure based 
on damage assessments conducted by FHWA and state transportation agency 
personnel in Alabama, Florida, Louisiana, and Mississippi. FHWA and 
State personnel continue to work closely on damage assessments. Once 
all damage assessments have been completed and reviewed by FHWA, a 
formal request for an allocation of ER funds will be processed.

    Question 2. Mr. Capka, in your testimony you mention that your 
agency has started research on the effect of storm surge on bridge 
infrastructure and has begun a review of existing bridges that may be 
impacted by storm surge conditions in the future. When do you plan on 
completing this review, and what is your agency doing to ensure that 
storm-damaged bridges in the gulf region are rebuilt to avoid, to the 
maximum extent possible, similar damage the next time a major storm 
hits the region?
    Response. The research we are doing is two-fold. First, we must 
improve our understanding of, and ability to quantify, the lateral/
transverse and uplift forces that result from floods and storm surges. 
With this greater understanding, we must assess potential retrofits.
    On October 6, 2005, FHWA completed an internal literature search to 
quantify the magnitude of wave forces, which can be very destructive 
when waves slam against a structure while the buoyancy and vertical 
impact forces are tending to lift a bridge deck off of the pier. Most 
of the research in this area has been done by the offshore drilling 
industry.
    Currently, FHWA is negotiating with researchers at the University 
of South Alabama ``Coastal Transportation Engineering Research Center'' 
to (1) expand on the FHWA internal literature search and demonstrate 
how the forces might be combined to evaluate the feasibility of various 
restraining devices that could be used to hold bridge decks in place; 
(2) conduct preliminary wave tank tests with a model of a bridge deck 
to determine if the technology borrowed from other sources can 
reasonably be applied to the bridge problem; and (3) conduct 
preliminary geotechnical analyses using existing numerical modeling 
techniques to determine if securing the bridge decks against these 
forces might be jeopardizing the stability of the foundation. We expect 
this work to begin around November 15, 2005, and to be completed around 
May 15, 2006.
    On October 1, 2005, FHWA began a year long laboratory study at the 
TFHRC Hydraulic Lab of Lift and Drag Forces on inundated bridges under 
riverine conditions. The study will also analyze bridge superstructure 
response to the impact (slamming) forces extracted from wave force 
experiments performed by other Laboratories through use of high tech 
force measurement techniques developed at the TFHRC lab.
    The most effective way to avoid damages like those that occurred to 
bridges along the Gulf Coast is to raise the grade of the bridges so 
that the decks are above the storm surge elevation. The preliminary 
consideration is to design new bridges to clear the storm surge 
elevation for the storm of record. Raising the grade of existing 
bridges is a very costly retrofit for all of our coastal bridges. That 
is why we are attempting to quantify the forces to consider other 
retrofit options.
    With respect to FHWA's review of existing bridges, we completed a 
query of the National Bridge Inventory database to identify structures 
within 5 to 15 nautical miles of a coast and of a design that is 
similar to those damaged in recent hurricanes. The results of these 
queries can be considered a first approximation at identifying bridges 
that are vulnerable to storm surge and wave damage. Further refinement 
of the identification of vulnerable bridges will require agreement upon 
reasonable assessment criteria, additional data that is available from 
the bridge owning agencies, and cooperation of the bridge owners. FHWA 
will work to address these issues over the next three months.
    With respect to the design of new bridges, FHWA has developed a 
draft policy that defines a flood frequency approach for the hydraulic 
analysis and design of coastal bridges. Currently, several States are 
reviewing this draft policy.
                                 ______
                                 
          Responses by Richard Capka to Additional Questions 
                        from Senator Lautenberg
    Question 1. With Davis-Bacon protections suspended for construction 
contracts in hurricane-impacted states, how will this impact your 
agency's ability to detect fraud, discrimination, and the use of 
kickbacks?
    Response. While the September 8, 2005 Presidential proclamation 
suspended the Davis-Bacon Act in certain counties, it did not suspend 
many other Federal labor policies such as the Copeland Anti-Kickback 
Act, the Fair Labor Standards Act (FLSA), the Contract Work Hours and 
Safety Standards Act (CWHSSA) and various US Department of Labor and 
FHWA Equal Employment Opportunity and non-discrimination provisions.
    The FLSA provides standards for minimum wage, overtime pay, 
recordkeeping, and child labor. It requires that the records include 
certain identifying information about the employee and data about the 
hours worked and the wages earned.
    The State DOTs and FHWA will provide oversight to prevent contract 
fraud by using accepted procurement procedures. All contracts for 
permanent repairs will be competitively bid. Thus, the contractor's 
payment will be based on the actual work performed with inspection, 
oversight, measurement and payment provided by the State DOT. The 
payment will be based on competitively bid unit prices.
    Emergency repair work, by definition, is necessary to restore 
essential traffic, to minimize the extent of damage, or to protect the 
remaining facilities. By FHWA policy, emergency repairs can be done 
using negotiated contract or agency force account work as determined by 
the State DOT as best suited to protect the public health and safety. 
Record keeping and oversight requirements still apply regardless of 
whether there is a requirement to submit certified payrolls.
    Normal State DOT and FHWA inspection and auditing procedures will 
apply to all contracts funded by the FHWA.

    Question 2. Will the Davis-Bacon suspension affect projects not 
related to the disaster? How many contracts will be affected by the 
proclamation?
    Response. Yes, the suspension is applicable to all Federal-aid 
projects executed on or after September 8, 2005, and will remain in 
force until November 8, 2005. FHWA does not have information on the 
number of contracts affected by the proclamation.

    Question 3. What lessons has your agency learned after these recent 
disasters about the shortcomings of the Interstate system when it comes 
to evacuating masses of people?
    Response. The Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU), recently enacted, requires 
the Secretary of Transportation and the Secretary of Homeland Security, 
in coordination with Gulf Coast and contiguous States, to review and 
assess jointly Federal and State evacuation plans for catastrophic 
hurricanes affecting the Gulf Coast region. FHWA will review the 
transportation component of these plans and will make recommendations 
as appropriate. A report on the finding of this study is due to 
Congress by October 1, 2006. The report will address a several issues 
impacting evacuations occasioned by hurricanes, including roadway 
infrastructure integrity and capacity, as well as operational factors. 
In general, evacuation planning and execution represent extraordinarily 
complex tasks and the evaluation of associated State and local plans 
will require substantial review and analysis.

    Question 4. During the evacuation of Houston, how many people 
suffered injuries or died while evacuating or while sitting in traffic 
waiting to evacuate?
    Response. The number of fatal and injury-related highway crashes 
that occurred during the Hurricane Rita evacuation is unknown. Crash 
data is not coded to capture this type of event. Given the slower 
speeds and high usage of the highway system, plus several days of 
restricted or prohibited travel, one would expect the overall number of 
fatal and serious injury crashes in the Houston area to decrease during 
the evacuation. The most significant crash occurred on September 23, 
2005, when a bus carrying nursing home residents caught fire and 
exploded on I-45, killing 23 of the 37 persons on board. The National 
Transportation Safety Board is investigating this crash.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

                                  <all>

</pre></body></html>
